                   Treasury Inspector General for Tax Administration



       Inspector General’s
       Message to the Congress
It gives me great pleasure to submit this Semiannual Report to the
Congress that features the accomplishments of the Treasury Inspector
General for Tax Administration (TIGTA) for the reporting period
dating from April 1, 2010 through September 30, 2010. This report
highlights our most notable audit, investigative and inspections and
evaluations work and summarizes the statistical results thereof.

During this reporting period, TIGTA’s combined efforts have recovered, protected and identified
monetary benefits totaling more than $6.6 billion. When combined with our earlier results, we
have achieved savings of more than $11.69 billion for Fiscal Year (FY) 2010. Our Office of
Audit (OA) has completed 86 audits and the Office of Investigations (OI) has opened 1,944
investigations and has closed 2,105 investigations over the past six months. TIGTA’s Office of
Chief Counsel has reviewed and made recommendations on the impact of 380 proposed or
existing regulations and laws affecting tax administration.

The Internal Revenue Service (IRS) has confronted a number of challenges during this reporting
period. The Modernized e-File Project will replace the IRS’s current tax return filing technology
with a modernized, Internet-based electronic filing platform. While the IRS is counting on the
Modernized e-File system to become the dominant system for processing tax returns, we
identified key weaknesses and made recommendations to help the system to perform up to
expected levels.

Furthermore, several other audit reports revealed that many individuals received improper and
erroneous refunds from the IRS based on inappropriately filed Earned Income Tax Credits,
Foreign Earned Income Exclusions and First-Time Homebuyer Credits. As the IRS lost a
significant amount of revenue because of these erroneous refunds, it is imperative that safeguards
be implemented to protect these Federal funds. In July 2010, the Congress passed, and the
President signed into law, the Homebuyer Assistance and Improvement Act of 2010, and as a
result of our second interim report on the First-Time Homebuyer Credit, this law includes
language to improve the information sharing between the IRS and State prisons helping to
prevent abuse of the tax system by incarcerated individuals. Through this reporting period,
TIGTA has remained at the forefront in making recommendations to the IRS to help prevent
fraud, waste and abuse in these tax credit programs.

The Office of Investigations had its most productive fiscal year since 2003. OI has continued to
aggressively pursue those who threaten the safety and security of IRS personnel, data and
facilities, or who otherwise attempt to corruptly impact the integrity of the IRS and the Federal
system of tax administration. In order to address the increasing threats to the IRS, OI has


TIGTA Semiannual Report to Congress                                                                 1
April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration


undertaken an ambitious reorganization to better align its personnel and technical resources to
meet the growing challenges facing the IRS. One of the major components of the reorganization
involves the consolidation of all of TIGTA’s data gathering and analysis capabilities into one
unit. This unit is called the Strategic Enforcement and Data Integrity Division and will be
responsible for ensuring TIGTA’s access to IRS tax data, the continued detection of
unauthorized access to IRS systems and data, and the identification of potential fraud in IRS
programs through the use of sophisticated data analysis techniques. Another component of the
reorganization involves combining our electronic investigative expertise with our Criminal
Intelligence Division, which will result in increased efficiency and internal collaboration as the
Internet continues to be the source of a growing number of threats against Federal tax
administration. This realignment of personnel, technology and specialized skills will enhance
TIGTA’s ability to protect the IRS from both internal and external threats that negatively impact
the Service’s ability to efficiently and effectively collect the Nation’s tax revenues.

Our Office of Inspections and Evaluations remains committed to protecting the funding made
available under the American Recovery and Reinvestment Act of 2009 (Recovery Act). We have
embraced the task of ensuring that the IRS complies with all Recovery Act procurement
requirements and uses its Recovery Act funds for their intended purpose and will continue to
work to promote integrity and efficiency in our work with the Recovery Board.

I want to acknowledge the outstanding efforts of our auditors, investigators, evaluators, attorneys
and support personnel who work tirelessly to serve the American people. In addition, I want to
thank the staff of the IRS for their efforts on behalf of the Nation’s taxpayers. While reflecting
on this year and looking forward to the next, one thing is clear: We at TIGTA remain committed
to carrying out our mission to protect the integrity and efficiency of our Nation’s tax system.




                                        J. Russell George
                                        Inspector General




2                                              TIGTA Semiannual Report to Congress
                                             April 1, 2010 through September 30, 2010
                           Treasury Inspector General for Tax Administration



                                        Table of Contents
Inspector General’s Message to the Congress .....................................................................                        1

TIGTA’s Highlights ...............................................................................................................       5

TIGTA’s Profile .....................................................................................................................    11
    Statutory Mandate ..........................................................................................................         11
    Organizational Structure ................................................................................................            12
    Authorities ......................................................................................................................   12

Promote the Economy, Efficiency and Effectiveness of Tax Administration ...................                                              13
    Modernization of the Internal Revenue Service .............................................................                          14
    Security of the Internal Revenue Service .......................................................................                     18
    Tax Compliance Initiatives ............................................................................................              20
    Implementing Tax Law Changes ...................................................................................                     26
    Providing Quality Taxpayer Service Operations ............................................................                           27
    Human Capital ................................................................................................................       30
    Erroneous and Improper Payments and Credits .............................................................                            31
    Globalization ..................................................................................................................     33
    Taxpayer Protection and Rights .....................................................................................                 35

Protect the Integrity of Tax Administration .......................................................................                      37
     Employee Integrity Investigations ..................................................................................                43
     Employee and Infrastructure Security ............................................................................                   44
     External Attempts to Corrupt Tax Administration .........................................................                           47

Advancing Oversight of America’s Tax System ................................................................. 51

American Recovery and Reinvestment Act of 2009 ............................................................ 55

An Organization that Values Its People ............................................................................... 59

Audit Statistical Reports .......................................................................................................        61
     Reports with Questioned Costs ......................................................................................                61
     Reports with Recommendations that Funds Be Put to Better Use .................................                                      62
     Reports with Additional Quantifiable Impact on Tax Administration ...........................                                       63

Investigations Statistical Reports ......................................................................................... 65
     Significant Investigative Achievements ......................................................................... 65
     Status of Closed Criminal Investigations ....................................................................... 66



TIGTA Semiannual Report to Congress                                                                                                       3
April 1, 2010 through September 30, 2010
                          Treasury Inspector General for Tax Administration


Appendices
Appendix I – Statistical Reports – Other ............................................................................. 67
    Audit Reports with Significant Unimplemented Corrective Actions ............................. 67
    Other Statistical Reports ................................................................................................. 75

Appendix II – Audit Products ............................................................................................... 77

Appendix III – TIGTA’s Statutory Reporting Requirements ........................................... 81

Appendix IV – Section 1203 Standards ............................................................................... 91

Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street Reform and
Consumer Protection Act ...................................................................................................... 93
    Inspector General Peer Review Activity ………………………………………………. 93

Appendix VI – Data Tables Provided by the Internal Revenue Service ...........................                                  95
    Internal Revenue Service Memorandum ........................................................................                95
    Report of Employee Misconduct, Summary by Disposition Groups .............................                                  96
    Report of Employee Misconduct, National Summary ...................................................                         97
    Summary of Substantiated RRA 98 Section 1203 Allegations Recorded in ALERTS .                                               98

Glossary of Acronyms ............................................................................................................ 99




4                                                             TIGTA Semiannual Report to Congress
                                                            April 1, 2010 through September 30, 2010
                       Treasury Inspector General for Tax Administration



                                  TIGTA’s Highlights
The following table shows the statistical highlights of the Treasury Inspector General for Tax
Administration (TIGTA) for this semiannual reporting period as well as for all of Fiscal Year
(FY) 2010.

                      Number of                                                                     Regulations/
                      Audit                       Increased/      Number of        Number of        Legislative
                      Reports     Cost Savings    Protected       Investigations   Investigations   Requests
                      Completed   Identified      Revenue         Opened           Closed           Reviewed
    April 1, 2010 –
    Sept. 30, 2010        86      $2.74 billion   $3.74 billion        1,944            2,105             380

    FY 2010               129     $2.82 billion   $8.6 billion         3,857            3,743             683


Examples of high profile cases from the Office of
Investigations:
EMC Corporation Pays the United States $87.5 Million
EMC Corporation (EMC) has paid the United States $87.5 million to settle a lawsuit alleging
that the information technology company violated the False Claims Act and the Federal Anti-
Kickback Act1.

As a result of a multi-agency investigation which included TIGTA, the United States alleged in a
lawsuit that, by misrepresenting its commercial pricing practices, EMC fraudulently induced the
General Services Administration (GSA) to enter into a contract with prices that were higher than
they would have been had the company not made false misrepresentations. Specifically, the
United States alleged that EMC represented during contract negotiations that, for each
government order under the contract, it would conduct a price comparison to ensure the
Government received the lowest price provided to any of its commercial customers making a
comparable purchase. According to the Government’s complaint, EMC knew that it was not
capable of conducting such a comparison; therefore, EMC’s representations during the
negotiations – as well as its subsequent representations to GSA that it was conducting the
comparisons – were false or fraudulent.2

The United States also alleged that EMC engaged in an illegal kickback scheme designed to
influence the Government to purchase the company’s products. EMC maintained agreements
whereby it paid consulting companies fees each time the companies recommended that a
Government agency purchase an EMC product. The kickback investigation was initiated by a



1
    Source: U.S. Department of Justice Press Release dated May 25, 2010.
2
    Id.

TIGTA Semiannual Report to Congress                                                                                5
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


lawsuit filed under the qui tam, or whistleblower provisions of the False Claims Act, which
allow private citizens to sue for fraud on behalf of the United States and share in any recovery.3

The Department of Justice’s Civil Division and the U.S. Attorney for the Eastern District of
Virginia handled the case, with the assistance of the GSA Office of the Inspector General, the
Department of Energy Office of the Inspector General, the U.S. Postal Service Office of the
Inspector General, the Defense Criminal Investigative Service and TIGTA.

IRS Service Center Employees Sentenced for Theft of Government Money
On August 31, 2010, Joseph Ligon was sentenced to 42-months imprisonment and on September
27, 2010, Lashon Weaver was sentenced to 36-months imprisonment, both for theft of
Government property. Ligon and Weaver were both sentenced to three-years of supervised
release. Ligon and Weaver were each ordered to pay $55,430.14 in restitution. Ligon was also
ordered to pay a $1,100 special assessment and Weaver was ordered to pay a $100 special
assessment.4

According to the Federal indictment, Ligon and/or Weaver stole money orders from June 2009
through December 2009.5 Ligon and Weaver worked in the mail department as clerks at the IRS
Service Center in Covington, Kentucky. The two lived together. They each started stealing
money orders sent to the IRS by taxpayers and converting them for their own use. The U.S.
could prove that a taxpayer had mailed a money order to the Service Center along with an IRS
payment voucher. Weaver cashed the money order, but the payment voucher was found in
Ligon's desk at work. They were both interviewed at the same time, and during the interview
Weaver received a text message from Ligon which read "Code of the Streets."6

Pictures and/or video tapes showed Ligon and Weaver in the process of cashing several of the
money orders. Additionally, handwriting samples from the money orders matched Ligon and
Weaver’s handwriting obtained from documents in their respective personnel files. Finally,
Weaver confessed that she did steal and convert each of the money orders with which she was
charged in the indictment.7

William Murray Sentenced to 19.5 Years for Mail Fraud and Interference with Tax
Administration
On May 28, 2010, in California, William Murray was sentenced to 19 and a half years in prison,
to be followed by three-years of supervised release for mail fraud and interference with tax
administration in a Ponzi scheme. He has also been ordered to pay restitution of $10,375,118 to
victims of the scheme. Murray’s sentence provides for the forfeiture of all of his remaining
3
  Id.
4
  Source: Eastern District of Kentucky Judgments in a Criminal Case filed September 1, 2010, and
September 28, 2010.
5
  Source: Eastern District of Kentucky Indictment filed March 11, 2010.
6
  Source: Eastern District of Kentucky Plea Agreement filed September 27, 2010.
7
  Id.

6                                                TIGTA Semiannual Report to Congress
                                               April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration


property, the disclosure of his bank account information to his victims and a full disclosure of all
of his financial affairs.8 Murray stole approximately $13,357,133 from more than 50 clients
between 2001 and 2009. He told clients to write checks to accounts under his control so that he
could pay taxes or invest money on their behalf. In fact, he spent millions of dollars in client
money on his own lifestyle. He bought for himself houses, a classic car, a fleet of limousines,
jewelry, rugs, fine wines, and other luxury items. Murray changed his clients’ addresses to his
own, so that they would not receive the IRS’s demands for payment on their delinquent taxes.
As demands for payment arrived from clients and the IRS, Murray’s fraud became a Ponzi
scheme. He used $3,507,502 in later clients’ money to pay off demands associated with earlier
clients.9 Prior to his arrest, Murray had been a person of some prominence. He was a Certified
Public Accountant with hundreds of clients. He regularly gave tax advice on a local television
channel, and gave sworn expert witness testimony in courts in five counties. He had served as an
IRS Revenue Agent between 1976 and 1980.10 This case was worked jointly with the IRS’s
Criminal Investigation (CI) Division.11

Examples of high profile audits from the Office of Audit:
A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time
Homebuyer Credit Repayment Requirements
Approximately 1.8 million taxpayers claimed a total of almost $12.5 billion in First-Time
Homebuyer Credits (Credit) in calendar year 2009. More than 950,000 taxpayers will be
required to repay these credits because their homes were purchased in 2008. Many more may
have to repay the credits if the homes cease to be the taxpayers’ primary residences within 36
months.

The IRS developed computer coding to record a special indicator during the processing of tax
returns and adjustment transactions to distinguish individuals with a 2008 home purchase from
those with a 2009 home purchase. The IRS also created a Homebuyer Credit Entity Section on
the tax accounts for those individuals who received the credit.

Currently, the IRS does not have the ability to identify when the homes of those individuals who
received the credit cease to be their main residences. The IRS is developing a comprehensive
strategy to address repayment provisions in the law. The strategy objectives include identifying
third-party data sources to ensure individuals are complying with the provisions of the law.

TIGTA recommended that the IRS correct the purchase dates that TIGTA identified as incorrect
and ensure that the validity of the credits claimed by individuals, who TIGTA identified as being
deceased before the home was purchased, are entitled to claim the credit.


8
  Source: Department of Justice Press Release dated May 28, 2010.
9
  Id.
10
   Id.
11
   Id.

TIGTA Semiannual Report to Congress                                                               7
April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration


IRS management agreed with the recommendations and planned to take appropriate corrective
actions.
Reference No. 2010-41-086

Currency Report Data Can Be a Good Source for Audit Leads
Individuals who fail to file required returns or underreport their income can create unfair burdens
on honest taxpayers and diminish the public’s respect for the tax system. While currency reports
may be commonly associated with money laundering, TIGTA identified a number of individuals
who have enough cash to engage in currency transactions totaling at least $20,000, yet they did
not file tax returns even though they appeared to have a filing requirement.

A number of other individuals engaged in similar currency transactions filed tax returns, but
reported income that did not appear sufficient to cover their basic living expenses. The
difference between their income and expenses raised questions about whether there are
additional income sources that should have been reported.

The IRS recognizes the benefits of using Currency Transaction Reports (CTR) in its criminal and
civil enforcement efforts. The IRS’s CI Division has obtained a number of convictions for tax
evasion that either originated from CTR data, or for which CTR data served as a roadmap to
establish that a crime was committed. Additionally, IRS examiners closed several hundred
audits that were initiated from CTR data and, in the process, recommended additional taxes of
$13.6 million.

TIGTA recommended that, as resources become available, the IRS should explore the feasibility
of making greater use of CTRs to pursue additional nonfilers and underreporters for audit. IRS
management agreed with the recommendation and planned to evaluate opportunities during their
work planning process to expand audit coverage of nonfilers using CTR data.
Reference No. 2010-30-104

Improvements Are Needed to Verify Refunds to Nonresident Aliens Before the Refunds
Are Sent Out of the United States
Control weaknesses in the processing of refunds issued to nonresident aliens could result in
significant revenue loss to the United States. The probability of recovering fraudulent refunds
from nonresidents living outside the United States is very low.

TIGTA recommended that the IRS:

       Ensure that plans developed during the course of this audit to address control weaknesses
       discussed in this report are implemented; and
       Work with the Forms and Publications function to clarify instructions on what constitutes
       United States source income.



8                                              TIGTA Semiannual Report to Congress
                                             April 1, 2010 through September 30, 2010
                        Treasury Inspector General for Tax Administration


IRS management agreed with the recommendations and planned to take appropriate corrective
actions.
Reference No. 2010-40-121

Examples of significant legislation reviewed by the Office
of Chief Counsel:
H.R. 5815, Inspector General Authority Improvement Act of 2010
TIGTA reviewed the Inspector General Authority Improvement Act of 2010 (the Act) for its
amendments to the Inspector General Act (IG Act). Among other things, the Act would grant
Inspectors General the authority to compel, by subpoena, testimony from witnesses who are not
Federal employees. The Act would also exempt Inspectors General from certain provisions of
the Privacy Act of 197412 as amended, related to computer matching. Additionally, the Act
would require entities which Inspectors General oversee to take corrective action on Inspector
General recommendations or provide an explanation to the Congress why corrective action was
not taken.

H.R. 4173, the Dodd-Frank Wall Street Reform and Consumer Protection Act
TIGTA reviewed the Dodd-Frank Wall Street Reform and Consumer Protection Act, which
makes broad changes to the financial sector. The bill amends the IG Act to require Inspectors
General to include information on peer reviews in their Semiannual Reports to the Congress.
The legislation also requires the newly created Bureau of Consumer Financial Protection to
report instances of tax law noncompliance to the IRS. The bill establishes a Council of
Inspectors General on Financial Oversight to share information and discuss concerns with the
financial sector and ways to improve financial oversight.

H.R. 3590, Patient Protection and Affordable Care Act and H.R. 4872, the Health Care and
Education Reconciliation Act of 2010
TIGTA reviewed H.R. 3590, the Patient Protection and Affordable Care Act, and H.R 4872, the
Health Care and Education Reconciliation Act of 2010 for their impacts on tax administration.
These bills make comprehensive changes to the health care system, including a requirement for
individuals to maintain minimum essential health care coverage and a tax, beginning in 2014, on
individuals without minimum essential health care coverage. Failure to pay the tax will not
result in criminal prosecution, and the IRS is prohibited from filing liens or levying a taxpayer’s
property for failure to pay the tax. H.R. 3590 also amends Internal Revenue Code (I.R.C.)
§ 6103 by adding a new section that addresses disclosure of return information to determine
eligibility for tax credits, cost-sharing reductions, or eligibility for participation in a State
Medicaid program, a State’s children’s health insurance program, or a basic health program.
H.R. 3590 and H.R. 4872 contain numerous provisions amending the I.R.C., including tax
credits for small businesses, individual tax credits, an increase in the hospital insurance payroll


12
     5 U.S.C. § 552a.

TIGTA Semiannual Report to Congress                                                              9
April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration


tax for certain individuals and taxes on the prescription drug and medical device manufacturer
industries.

S. 1508, Improper Payments Elimination and Recovery Act of 2010
TIGTA reviewed the Improper Payments Elimination and Recovery Act of 2010 (the Act), which
has since been enacted into law, that requires agency heads to periodically review agency
programs and activities that are potentially susceptible to significant improper payments,
expands current reporting requirements on estimated improper payments and requires agency
heads to conduct recovery audits for programs that expend $1 million or more annually, if cost
effective. In addition, the legislation directs that Inspectors General report annually on the extent
of their agency’s compliance with the Act and establishes a process for addressing non-
compliance. During multiple reviews, TIGTA identified several issues with this legislation,
including ambiguities in the scope of the annual compliance review, the need for a reliable
mechanism to fund such reviews, and certain complications that could arise from a proposed
Council of the Inspectors General on Integrity and Efficiency (CIGIE) study. Many of these
issues were resolved by the final version of this legislation, which was enacted on July 22, 2010.




10                                              TIGTA Semiannual Report to Congress
                                              April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration



                               TIGTA’s Profile

T     IGTA provides independent oversight of
      Department of the Treasury matters
involving IRS activities, the IRS Oversight                Statutory Mandate
Board, and the IRS Office of Chief Counsel.
Although TIGTA is placed organizationally within       Protect against external attempts to
the Department of the Treasury and reports to the      corrupt or threaten IRS employees.
Secretary of the Treasury and to the Congress,         Provide policy direction and
TIGTA functions independently from all other           conduct, supervise, and coordinate
offices and bureaus within the Department.             audits and investigations related to
                                                       IRS programs and operations.
TIGTA’s work is devoted to all aspects of              Review existing and proposed
activity related to the Federal tax system as          legislation and regulations related to
administered by the IRS. By identifying and            IRS programs and operations, and
addressing IRS’s management challenges,                make recommendations concerning
implementing the President’s Management                the impact of such legislation or
Agenda and the priorities of the Department of         regulations.
the Treasury, TIGTA protects the public’s
confidence in the tax system.                          Promote economy and efficiency in
                                                       the administration of tax laws.
TIGTA’s organizational structure is comprised of       Prevent and detect fraud and abuse
the Office of the Inspector General and five           in IRS programs and operations.
functional offices: the Office of Investigations;      Inform the Secretary of the
the Office of Audit; the Office of Inspections and     Treasury and the Congress of
Evaluations; the Office of Mission Support; and        problems and deficiencies identified
the Office of Chief Counsel (see chart on page         and of the progress made in
12).                                                   resolving them.

TIGTA conducts audits, inspections and
evaluations and investigations designed to:

       Promote the economy, efficiency and effectiveness of tax administration; and
       Protect the integrity of tax administration.




TIGTA Semiannual Report to Congress                                                             11
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


                               Organizational Structure


                                       Inspector General

                                        Principal Deputy
                                       Inspector General




                                              Deputy
   Deputy               Deputy               Inspector             Associate                Chief
  Inspector            Inspector            General for            Inspector               Counsel
 General for          General for           Inspections           General for
Investigations           Audit                  and                 Mission
                                            Evaluations             Support




                                           Authorities
 TIGTA has all of the authorities granted under the Inspector General Act, as amended.13 TIGTA
 has access to tax information in the performance of its tax administration responsibilities.
 TIGTA also has the obligation to report potential criminal violations directly to the Department
 of Justice. TIGTA and the Commissioner of Internal Revenue have established policies and
 procedures delineating responsibilities to investigate potential criminal offenses under Internal
 Revenue laws. In addition, the Internal Revenue Service Restructuring and Reform Act of 1998
 (RRA 98)14 amended the IG Act to give TIGTA statutory authority to carry firearms, execute and
 serve search and arrest warrants, serve subpoenas and summonses, and make arrests as set forth
 in Internal Revenue Code (I.R.C.) Section (§) 7608(b)(2).




 13
   5 U.S.C.A. app. 3 (West Supp. 2010).
 14
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C.
 app., 16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).

 12                                                TIGTA Semiannual Report to Congress
                                                 April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration



     Promote the Economy, Efficiency and
      Effectiveness of Tax Administration

T
        IGTA’s Office of Audit (OA) strives to promote the economy, efficiency and
        effectiveness of tax administration. TIGTA provides recommendations to improve IRS
        systems and operations while ensuring fair and equitable treatment of taxpayers.
TIGTA’s comprehensive and independent performance and financial audits of IRS programs and
operations primarily address mandated reviews and high-risk challenges facing the IRS.

The IRS’s implementation of audit recommendations results in:

       Cost savings and increased or protected revenue;
       Reduction of taxpayer burden;
       More efficient use of resources;
       Protection of taxpayer privacy and security;
       Protection of resources/reliability of information; and
       Protection of taxpayer rights and entitlements.

Each year, TIGTA identifies and addresses the major management challenges facing the IRS.
OA places audit emphasis on statutory coverage required by RRA 98 and other laws, and areas
of concern to the Congress, the Secretary of the Treasury, the Commissioner of Internal Revenue
and other key stakeholders.

         Audit Emphasis Areas for April 2010 through September 2010

        Modernization of the IRS
        Security of the IRS
        Tax Compliance Initiatives
        Implementing Tax Law Changes
        Providing Quality Taxpayer Service Operations
        Human Capital
        Erroneous and Improper Payments and Credits
        Globalization
        Taxpayer Protection and Rights




TIGTA Semiannual Report to Congress                                                          13
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     The following summaries highlight significant audits completed in each of the areas of
     emphasis during this six-month reporting period.

     Modernization of the Internal Revenue Service
     The Business Systems Modernization Program (Modernization Program) is a complex
     effort to modernize IRS technology and related business processes. It involves
     integrating thousands of hardware and software components while replacing outdated
     technology and maintaining the current tax system.

     TIGTA reviews have identified weaknesses in program management processes
     throughout the life of the Modernization Program. While the IRS has improved its
     controls over these processes as the Modernization Program has continued to mature,
     several weaknesses remain. TIGTA audits have identified continued problems in
     requirements development and management, program management, contract
     management and security controls.

     The Modernization Program has continued to help improve IRS operations and is
     refocusing its efforts to improve business practices with new information technology
     solutions. However, project development activities have not always effectively
     implemented planned processes or delivered all planned system capabilities to achieve
     the Modernization Program expectations. Management of the Modernization Program’s
     cost and schedule has improved since the previous year, but more attention must be paid
     to the development and management of Modernization Program requirements.

     The IRS has recognized that it faces challenges in meeting the requirements of the next
     phase of project development and system integration. As a result, the IRS has stated that
     a strategy correction is needed to meet changing business needs, to have a more agile IT
     environment, and to reduce risks with associated costs to build and maintain systems.

     Annual Assessment of the Business Systems Modernization Program
     The Modernization Program, which began in 1999, is a complex effort to modernize the
     IRS’s technology and related business processes. This is being done while replacing
     outdated technology and maintaining the current tax system. The objective of the
     Modernization Program is to address and manage the inherent risks of modernization,
     while still delivering the level of service American taxpayers expect.

     The Modernization Program is now in its 12th year and has received approximately $3.24
     billion for contractor services, plus an additional $474 million for internal IRS costs. The
     IRS originally estimated that the Modernization Program effort would last up to 15 years
     and incur contractor costs of approximately $8 billion. The three core projects of the
     Modernization Program, referred to as the “Pillars of Modernization,” are the:


14                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


           Customer Account Data Engine (CADE) – the databases and related
           applications that include applications for daily posting, settlement,
           maintenance, refund processing and issue detection for taxpayer tax account
           and return data;
           Modernized e-file – an electronic filing platform used for electronic tax return
           filing for both business and individual taxpayers; and
           Account Management Services/Integrated Data Retrieval System – systems
           that provide IRS employees with the ability to view, access, update and
           manage taxpayer accounts.

The Modernization Program has continued to provide new information technology
capabilities and related benefits to both the IRS and taxpayers. Since July 2009, the IRS
has implemented new releases of the CADE, Account Management Services and
Modernized e-file systems. Most significantly, the Modernized e-file for the first time
included individual tax returns in addition to business tax returns.

The IRS is at a key point in its Modernization Program, with respect to the demands for
achieving success, and has refocused the Modernization Program to deliver the
modernized systems sooner. TIGTA was encouraged by the IRS’s efforts to refocus the
Modernization Program, especially related to the retooling of the CADE program, known
as CADE 2. When successful, the CADE 2 program will provide a significant boost to
the IRS’s ability to move away from its antiquated tax return processing systems and
provide improved service to taxpayers. However, there are significant risks involved in
retooling the entire Modernization Program and with the use of techniques and processes
new to the IRS.

Because this was an assessment of the Modernization Program’s status and
accomplishments through FY 2010, TIGTA did not offer any recommendations.
However, because of the significant risks involved with refocusing the Modernization
Program, TIGTA believes that the IRS should continue to consider the Modernization
Program as a material weakness until it can successfully demonstrate that CADE 2 can
operate securely and effectively.

The IRS responded that it was pleased TIGTA’s assessment of the Modernization
Program has continued to provide new information technology capabilities and related
benefits to the IRS and taxpayers. The IRS also stated that it is at a key point in its
Modernization effort and believed that it was on its way to successfully demonstrate the
effective operation of CADE 2.
Reference No. 2010-20-094

Modernized e-file
The Modernized e-file (MeF) Project’s goal is to replace the IRS’s current tax return
filing technology with a modernized, Internet-based electronic filing platform. This will

TIGTA Semiannual Report to Congress                                                      15
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     allow more individual taxpayers to take advantage of the benefits of electronic filing,
     while streamlining the IRS’s filing processes and reducing the costs associated with
     paper tax returns. The IRS’s management of the Project’s risks, requirements and
     security can be improved to ensure the capabilities expected and approved to be
     deployed are appropriately implemented.

     TIGTA’s review showed that on February 17, 2010, the IRS deployed MeF Release 6.1
     and began processing electronically filed individual income tax forms. During the first
     three weeks of operation, the MeF system rejected 23 percent of the individual income
     tax returns filed. In addition, the System Integration Test Results indicated that all
     application requirements were tested and passed. However, supporting test documents
     showed that many of the requirements were not tested and many more failed the tests
     with no indication provided to show that the defects were corrected. Further, controls
     were not adequate to manage all of the MeF system security risks, issues and action
     items. Information provided by the IRS in December 2009, showed that 10 of the 13
     security vulnerabilities were resolved. However, the January 2010 Security Test and
     Evaluation reported that only two of the 13 vulnerabilities had been resolved.

     TIGTA recommended that the IRS ensure that project releases are deployed only after
     all system requirements are tested and met, and verify test results to ensure their
     completeness and accuracy. Further, the IRS should modify guidance to require
     consideration of Lessons Learned Reports earlier in the project development process. To
     resolve all MeF system security issues, cybersecurity must completely implement the
     process to ensure that system owners enter and track all system security weaknesses in
     IRS control systems.

     IRS management stated that it completed the process to control system security
     weaknesses as of March 25, 2010, and that it plans to update project development
     guidance. The IRS disagreed with the recommendation about release deployment only
     after testing showed that requirements were met, citing milestone readiness reviews and
     the Executive Steering Committee as controls. With the significant number of failed
     tests and the resulting problems in rejected individual income tax returns filed, TIGTA
     questioned whether the Executive Steering Committee had sufficient and timely
     information to make an informed risk-based decision for deploying MeF Release 6.1.
     Reference No. 2010-20-041

     Energy Efficiency
     In October 2009, the President signed Executive Order 13514, Federal Leadership in
     Environmental, Energy, and Economic Performance, which stipulates that Federal
     agencies must increase energy efficiency, reduce greenhouse-gas emissions, eliminate
     waste and foster conservation and sustainability. More specifically, it mandates that
     agencies implement best practices for energy-efficient management of Federal data
     centers and servers. While previous Executive orders pertaining to energy efficiency did
16                                                  TIGTA Semiannual Report to Congress
                                                  April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


not preclude agencies from instituting efficiency measures at data centers, they also did
not require such action.

Improving Data Center Energy Efficiency and the Environmental and Energy
Program
IRS management indicated that the agency’s overall energy program has consistently
met standards as set forth in all pertinent Executive orders and legislative mandates.
However, while data centers typically consume more energy than other types of
buildings, the IRS has not yet fully implemented most data-center best practices. As a
result, the IRS has not maximized the energy efficiency and use of taxpayer funds
resulting from decreased energy consumption in its data centers.

Therefore, TIGTA recommended that the IRS ensure that:

       Policies and procedures are established to evaluate and determine which best
       practices to implement;
       Information Technology (IT) equipment energy use is measured;
        Employee workstations, equipment and furniture that are no longer needed are
       removed from the data centers;
       Current and future data-center space needs are identified and plans are developed
       to consolidate or reduce excess data-center space;
       Energy audits (including an assessment of best practices) are performed at the
       data centers;
       A governance process is established; and
       A database of all recommendations and projects is established.

IRS management agreed with the recommendations and planned to take appropriate
corrective actions.
Reference No. 2010-20-044

Electronics Stewardship Program
Additional actions by the IRS to minimize the energy consumption of its 110,000 desktop
computers and improve printing practices could potentially save the IRS more than
$18.2 million over four years.

The IRS has taken actions to improve the energy efficiency of desktop computer
equipment. For example, the IRS is purchasing energy-efficient desktop computer
equipment and has enabled an energy saving feature on computer monitors that puts the
monitors in “sleep mode” during periods of inactivity.

However, the IRS has not established an implementation strategy to ensure the timely
completion of applicable action items in the Electronics Stewardship Program and
Implementation Plan. For example, timely actions have not been taken to implement

TIGTA Semiannual Report to Congress                                                         17
April 1, 2010 through September 30, 2010
                       Treasury Inspector General for Tax Administration


     power management, e.g., power down/sleep mode functionality on desktop computers
     (also including laptop computers). Neither policies nor procedures have been established
     to implement duplex (two-sided) printing on printers. In addition, actions to ensure that
     procurement of energy-efficient desktop computer equipment need improvement.

     As a result, TIGTA recommended that the IRS:

               Assign clear responsibilities to ensure the effective execution of the Electronics
               Stewardship Program and Implementation Plan and require each organization to
               periodically report its progress in completing the action items;
               Develop an implementation strategy and plan to ensure the applicable energy
               efficient practices, such as power management for desktop computers and duplex
               printing, are implemented as soon as possible, to the maximum degree based on
               IRS mission needs;
               Implement an effective process to timely review training records and ensure that
               employees complete required annual training by the June 30 due date; and
               Develop a tracking system to support the ongoing review of IRS efforts in
               acquiring energy-efficient electronic products.

     IRS management agreed with the recommendations and planned to take appropriate
     corrective actions.
     Reference No. 2010-20-056

     Security of the Internal Revenue Service
     Millions of taxpayers entrust the IRS with sensitive financial, personal and other data that
     are processed by and stored on IRS computer systems. Reports of identity theft from
     both the private and public sectors have heightened awareness of the need to protect these
     data. The risk that taxpayers’ identities could be stolen by exploiting security weaknesses
     in the IRS’s computer systems continues to increase, as does the risk that IRS computer
     operations could be disrupted. Internal factors (such as the increased connectivity of
     computer systems and increased use of portable laptop computers) and external factors
     (such as the volatile threat environment resulting from increased terrorist and hacker
     activity) require strong security controls.

     More Actions Are Needed to Correct the Security Roles and Responsibilities Portion
     of the Computer Security Material Weakness
     The Federal Managers’ Financial Integrity Act of 1982 15 requires that each agency
     conduct annual evaluations of its systems of internal accounting and administrative
     controls and submit an annual statement on the status of the agency’s system of
     management controls, including identifying areas that can be considered material

     15
          31 U.S.C. § 3512.

18                                                    TIGTA Semiannual Report to Congress
                                                    April 1, 2010 through September 30, 2010
                Treasury Inspector General for Tax Administration


weaknesses. The IRS prematurely closed the security roles and responsibilities
component of its computer security material weakness. As a result, the IRS could not
ensure that all IRS and contract employees will carry out their responsibilities to protect
the confidentiality, integrity and availability of taxpayer data. While the IRS has made
strides in addressing each set of corrective actions, TIGTA’s analysis found that the IRS
did not effectively complete four of its six corrective action objectives. Specifically, the
IRS did not:

       Document all IT security roles and responsibilities in the Internal Revenue
       Manual (IRM);
       Develop and document day-to-day IT security procedures and guidelines;
       Properly conduct compliance assessments to test IT procedures; and
       Establish effective metrics for measuring compliance.

The IRS uses two documents, IRS Roles Requiring an IT Security Training Curriculum
and IRM IT Security Roles and Responsibilities, to document security roles and
responsibilities. While each document is used for different purposes, the IRM acts as the
official policy over security roles and responsibilities. TIGTA identified that for 10 of 18
roles that are similar in both documents, the IRM did not include all the responsibilities
established in the training curriculum. The IRS also did not document an additional five
IT security roles existing at the IRS in the IRM. Further, the IRS did not properly
conduct compliance assessments to verify and validate that IRS and contract employees
were executing their security responsibilities. Lastly, because the compliance assessment
did not yield significant information, the IRS has yet to establish or collect meaningful
performance metrics for this weakness area.

TIGTA recommended that the IRS:

       Update the IRM to include all IT security roles in existence at the IRS;
       Establish recurring processes and communications to ensure security roles and
       responsibilities are periodically reviewed and updated;
       Develop procedures to validate compliance that incorporate supporting evidence
       of proper execution of assigned responsibilities; and
       Reopen the roles and responsibilities component of the computer security material
       weakness.

IRS management agreed with most of the recommendations and planned to take
appropriate corrective actions. However, the IRS disagreed that the roles and
responsibilities component should be reopened as a material weakness and believes that
this component is in a state of “Significant Deficiency,” as defined by the Government
Accountability Office. The IRS planned to maintain its focus, with governance
oversight, on maturing these processes and procedures.


TIGTA Semiannual Report to Congress                                                        19
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     TIGTA disagreed with the IRS’s assessment that the roles and responsibilities component
     is in a state of “Significant Deficiency,” and believed that repeatable processes are not in
     place. As such, TIGTA did not agree with the downgrade.
     Reference No. 2010-20-084

     Taxpayer Data at Contractor Facilities May Be at Risk
     The IRS provides its taxpayer data to contractors who store and process the data at their
     own facilities in support of the IRS’s mission of tax administration. These data can
     contain Personally Identifiable Information, such as tax return data and Social Security
     Numbers (SSN). The IRS did not have effective processes to identify all contractors with
     IRS taxpayer data that require annual security reviews by the IRS, and it did not ensure
     that computer security weaknesses identified at contractor facilities during security
     reviews have been corrected. As a result, taxpayer data may be at risk for unauthorized
     access or disclosure.

     Therefore, TIGTA recommended that the IRS:

            Identify the information system that can serve as the primary source for
            identifying contractors requiring reviews;
            Ensure appropriate indicators are captured on each existing contract with a
            disclosure and privacy impact;
            Validate whether the IRS business organization provided any IRS taxpayer data to
            these contractors;
            Provide the appropriate notification and guidance to the responsible IRS business
            organizations to execute annual security reviews of contractors when required;
            and
            Validate correction of reported security weaknesses and recommend a process for
            reporting weaknesses that remain unmitigated to increase the accountability of the
            responsible parties for remediation of security weaknesses.

     IRS management agreed with the recommendations and planned to take appropriate
     corrective actions.
     Reference No. 2010-20-051

     Tax Compliance Initiatives
     Tax compliance initiatives include administration of tax regulations, collection of the
     correct amount of tax from businesses and individuals, and oversight of tax-exempt and
     government entities. Increasing voluntary compliance and reducing the Tax Gap16 are
     currently the focus of many IRS initiatives. Nevertheless, the IRS is facing significant

     16
       The IRS defines the “Tax Gap” as the difference between the estimated amount taxpayers owe
     and the amount they voluntarily and timely paid for a tax year.

20                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


challenges in obtaining more complete and timely data, and developing the methods
necessary to interpret the data. The IRS must continue to seek accurate measures for the
various components of the Tax Gap and the effectiveness of the actions taken to reduce it.
In addition, while the IRS regularly encounters lax governance practices on the part of
tax-exempt entities, it must remain vigilant in ensuring that the privilege of tax exemption
is not abused.

Return Preparer Community
According to the IRS, more than 80 percent of all Federal individual income tax returns
for 2007 and 2008 were prepared by paid tax return preparers or by taxpayers using
commercial tax preparation software. Recently, the IRS began a major initiative to
regulate tax return preparers in an effort:

       To strengthen partnerships with tax practitioners, tax return preparers, and other
       third parties to ensure effective tax administration; and
       To ensure that all tax practitioners, tax return preparers, and other third parties
       adhere to professional standards and follow the law.

This IRS initiative will require registration, minimum competency testing, and continuing
education for all of the estimated 900,000 to 1.2 million paid tax return preparers. Using
information obtained from the initiative, the IRS plans to establish a database of preparers
to assist taxpayers in determining if they are dealing with a qualified preparer.

Return Preparer Program
Every year, more than one-half of all taxpayers pay someone else to prepare their Federal
income tax returns. In calendar year 2009, the IRS processed approximately 83.1 million
individual Federal income tax returns prepared by paid preparers. Immediately after
announcing the return preparer review, the IRS established a Return Preparer
Implementation Project Office. The Project Office will support the IRS in implementing
key Return Preparer Program functions for Filing Season 2011 and lay the foundation for
long-term program institutionalization.

When the decision was made to register preparers in September 2010, the IRS had only
begun to implement the Return Preparer Program. It had not established all program
requirements or the organizational structure of the Return Preparer Program, and it had
not determined how to ensure all preparers met the requirements. In addition, the IRS
had not determined how it would enforce program requirements, and it had not developed
the system(s) and processes necessary to administer and oversee the program.

The new preparer requirements will take several years to implement, and it will not be
until calendar year 2014 that all preparers will be subjected to all suitability and
competency tests. During that time, the IRS will be developing and implementing an
enforcement strategy. Currently, the IRS does not have a management information

TIGTA Semiannual Report to Congress                                                          21
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     system capable of gathering data on all preparers. Further, the IRS will need to ensure
     that taxpayers understand the new requirements and the importance of only using
     registered preparers to prepare their tax returns.

     TIGTA made several recommendations for improvement. Specifically, the IRS should
     complete the study comparing the four preparer programs to gain an understanding of the
     basis for the requirements and to ensure consistencies in the requirements and suitability
     testing among the programs.

     IRS management plans to complete the study comparing the four preparer programs and
     to leverage existing best practices when appropriate.
     Reference No. 2010-40-127

     Plans to Reduce the Tax Gap
     Paid preparers have a professional obligation to represent their clients effectively and
     play an important role in ensuring that taxpayers comply with the Nation’s tax laws.
     Because most taxpayers use preparers to file their tax returns, adherence to standards and
     the preparation of accurate tax returns have a significant effect on taxpayer compliance
     and the IRS’s efforts to reduce the Tax Gap.

     The IRS has taken actions to engage the tax preparer community that could affect tax
     administration and reduce the Tax Gap. The IRS developed a strategic plan for FY
     2009–2013 to improve oversight of tax administration. The Plan includes two key
     objectives and several strategies that pertain to reducing the Tax Gap by engaging the
     tax preparer community. However, actions were not taken to ensure that previously
     omitted key components were included in the existing IRS strategic plan. Without
     these components, it is unclear how the IRS will effectively monitor its performance
     and adherence to the requirements for strategic plans.

     As a result, TIGTA recommended that the IRS:

            Take steps to update the existing IRS strategic plan and ensure future strategic
            plans contain all key components; and
            Define and include in the strategic plan sufficient measures to provide data that
            can be used to monitor the IRS’s efforts to achieve objectives aimed at
            strengthening partnerships with tax practitioners and paid preparers in the effort to
            ensure effective tax administration.

     IRS management agreed with the recommendations; however, the planned corrective
     actions did not address updating the existing strategic plan with omitted key components
     and sufficient measures to monitor the IRS’s efforts regarding the paid preparer
     community.

22                                                  TIGTA Semiannual Report to Congress
                                                  April 1, 2010 through September 30, 2010
                Treasury Inspector General for Tax Administration


TIGTA continues to believe the existing strategic plan should be updated to ensure that
the IRS is compliant with the Government Performance and Results Act of 1993.17 In
addition, without an effective process to monitor its performance, the IRS cannot ensure
its programs are achieving their objectives and desired outcomes.
Reference No. 2010-30-061

Improving the Identification of Preparers Who Submit Improper Earned Income
Tax Credit Claims
The Earned Income Tax Credit (EITC) was created in 1975 to offset the impact of Social
Security taxes for individuals who work but have low incomes. The amount of EITC
claimed has increased steadily. The Recovery Act increased the EITC for families with
three or more EITC qualifying children, further increasing the amount of benefits that
were claimed in tax year 2009.

The IRS has taken steps to strengthen the EITC Preparer Strategy for FY 2010.
However, TIGTA’s review of the IRS’s methodology determined that actions can be
taken to further improve the effectiveness of identifying high-risk EITC tax return
preparers.

As a result, TIGTA recommended that the IRS:

        Include a risk factor in its computation of the probability score for tax return
        preparers who were identified in a previous year as high-risk tax return preparers
        and were included in the control group;
        Select high-risk tax return preparers for a Due Diligence Visit (DDV) based on
        the preparer’s probability score and volume of EITC tax returns prepared; and
        Ensure that the DDVs are properly performed with adequate case documentation
        in support of the assessment or nonassessment of penalties.

IRS management agreed to implement actions to improve the probability scoring and the
quality of the DDVs. However, IRS management did not agree to revise the selection of
high-risk tax return preparers for a DDV. The IRS indicated that the current process
provides the flexibility needed to maximize the use of resources and allows for
consideration of additional factors when needed.

The EITC program has the second highest amount of improper payments after Medicaid.
The IRS reports annual improper EITC payments totaling between $11 to $14 billion
dollars. As such, TIGTA is concerned that the IRS did not agree to implement the
recommendation that could result in further reducing erroneous EITC payments.



17
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31
U.S.C., and 39 U.S.C.).

TIGTA Semiannual Report to Congress                                                              23
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     TIGTA’s analysis showed that the IRS’s process does not result in the most efficient and
     effective use of limited DDV resources. The analysis of the volume of EITC tax returns
     prepared and the IRS probability score identified more high-risk tax return preparers for a
     DDV than the IRS identified.
     Reference No. 2010-40-114

     Troubled Asset Relief Program
     The Troubled Asset Relief Program was a large expenditure of public funds that required
     participants to indicate in agreements with the Department of the Treasury that all
     material Federal taxes have been paid. However, the fact that some participants had
     unpaid taxes when the agreements were executed could jeopardize the public’s
     confidence and trust in the performance and accountability of our Federal Government.

     IRS records showed 130 of the 558 institutions included in this audit had unpaid taxes
     totaling $530.8 million when agreements were signed by the Department of the
     Treasury’s Assistant Secretary for Financial Stability and the institutions’ representatives.
     However, IRS records also showed that 97 percent of the unpaid taxes were resolved by
     December 2009.

     In considering the significance of the unpaid taxes, it is important to recognize that when
     the agreements were signed, the Department of the Treasury was in the beginning stages
     of establishing the Troubled Asset Relief Program to address the serious economic
     conditions threatening the stability of our Nation’s financial system. As a result, the
     focus on stabilizing the financial system may have taken priority over establishing the
     controls needed to identify unpaid taxes so that the impact of the liabilities could be
     evaluated. Currently, IRS management is collaborating across functional areas and
     adapting traditional collection processes to accelerate the identification and resolution of
     unpaid taxes.

     TIGTA made no recommendations in this report, but it did provide IRS management an
     opportunity to review the draft report. IRS management did not provide any comments
     to the report.
     Reference No. 2010-30-050

     In-Business Trust Fund Accounts
     The large number of in-business taxpayers that accumulate trust fund tax liabilities is a
     major tax compliance problem for the IRS. Overall, TIGTA determined that the IRS’s
     Collection field function needs to improve collection actions for in-business trust fund
     accounts closed as currently not collectible. Because not all required collection actions
     were taken, taxpayers continued to accumulate additional trust fund taxes. Taxpayers
     who do not voluntarily pay their share of taxes create an unfair burden on honest
     taxpayers and diminish the public’s respect for the tax system.


24                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


TIGTA recommended that the IRS:

       Provide training to Collection field function managers and revenue officers, with
       additional emphasis on the importance of securing, verifying and analyzing
       financial information;
       Ensure the Integrated Collection System (ICS) and IRM are updated to include
       verification of income and expense requirements;
       Continue to develop and implement a systemic process within the ICS to require
       the scheduling of mandatory follow-up reviews; and
       Update Centralized Case Processing function procedures to clarify mandatory
       follow-up review procedures and require periodic monitoring prior to mandatory
       follow-up review dates.

IRS management agreed with the recommendations and has taken or plans to take
appropriate corrective actions.
Reference No. 2010-30-095

Tax Returns With Abusive Tax Avoidance Transactions
Combating Abusive Tax Avoidance Transactions (ATAT) is one of the IRS’s highest
priorities. There are tax returns with ATAT issues that do not warrant examination and
are surveyed before taxpayer contact. Surveying tax returns with an ATAT issue without
proper justification or approval could be counterproductive to the IRS’s goal to combat
abusive schemes. In addition, this approach can erode the public’s confidence in the
IRS’s ability to enforce tax laws in a fair, equitable and consistent manner.

As a result, TIGTA recommended that the IRS:

       Develop internal controls and train employees to ensure that justification is in the
       case files to survey tax returns with an ATAT issue;
       Have an independent function review the tax return for concurrence with the
       group manager’s decision;
       Ensure that tax returns with ATAT issues (surveyed as excess inventory) can be
       readily identified, and examinations are completed once taxpayers are contacted;
       and
       Develop procedures to ensure surveyed tax returns are included as part of the
       quality review process.

IRS management agreed with two recommendations, but disagreed with the other two
recommendations related to strengthening existing controls and developing procedures to
include surveyed tax returns as part of the quality review process. TIGTA continues to
believe that the breakdown in controls for the approval process indicated that tax returns
surveyed without documentation may have yielded examination results.
Reference No. 2010-30-118

TIGTA Semiannual Report to Congress                                                      25
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     Implementing Tax Law Changes
     Each filing season tests the IRS’s ability to implement tax law changes made by the
     Congress. Most individuals file their income tax returns during the filing season and
     contact the IRS with questions about specific tax laws or filing procedures. Correctly
     implementing tax law changes is a continuing challenge because the IRS must identify
     tax law changes; revise the various tax forms, instructions, and publications; and
     reprogram the computer systems used for processing returns. Changes to the tax laws
     have a major effect on how the IRS conducts its activities, what resources are required
     and how much progress can be made on strategic goals.

     The Congress frequently changes tax laws, so some level of change is a normal part of
     the IRS environment. However, certain types of changes and the timing of those changes
     can significantly affect the IRS in terms of the quality and effectiveness of its service and
     how taxpayers perceive the IRS. The IRS has identified the increasing complexity of tax
     administration, which includes responding to new tax provisions and adjusting to
     expiring ones, as a major trend expected to affect the IRS for the next five years.

     The 2010 Filing Season
     The passage of two significant tax laws impacted the 2010 Filing Season and presented
     additional challenges for the IRS. As of May 28, 2010, the IRS received more than 131.7
     million individual income tax returns and issued approximately 101 million refunds
     totaling $291.7 billion.

     The IRS timely processed individual tax returns during the 2010 Filing Season.
     However, implementing some new tax law provisions presented challenges for the IRS.
     These challenges resulted in increased error inventories from individuals incorrectly
     calculating the Making Work Pay Credit and individuals not providing required
     documentation when claiming the First-Time Homebuyer Credit. There were nearly 23.7
     million errors on tax returns through May 28, 2010, an increase of 7.1 percent in error
     receipts compared to the same time last year.

     TIGTA identified inadequate controls and incomplete and inaccurate programming
     resulting in 125,762 individuals receiving nearly $111.4 million in erroneous Recovery
     Act-related tax benefits:

            10,581 individuals claimed $65.6 million in erroneous First-Time Homebuyer
            Credits. IRS compliance efforts did not allow 2,363 of the 10,581 individuals to
            receive $11.3 million they claimed for the First-Time Homebuyer Credit;
            109,665 individuals erroneously received $29.7 million in Making Work Pay and
            Government Retiree credits;



26                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


       5,345 individuals erroneously claimed $15.6 million in Qualified Plug-in Electric
       and Electric Vehicle credits; and
       171 individuals claimed $453,220 in erroneous Non-business Energy Property
       credits.

In addition, TIGTA identified 2,933 individuals with more than $95.8 million in qualified
motor vehicle tax deductions on United States Individual Income Tax Returns Schedule
A, Itemized Deductions, that exceeded the dollar amount that the IRS uses to identify a
potentially erroneous claim. The IRS had not developed a process to identify these
potentially erroneous claims on the Schedule A.

TIGTA recommended that the IRS:

       Develop processes to track and account for Recovery Act credits claimed on plug-
       in electric vehicle credit tax forms;
       Verify whether 8,218 individuals identified as erroneously claiming the First-
       Time Homebuyer Credit are entitled to claim the credit;
       Ensure that computer systems are programmed to identify individuals exceeding
       the maximum allowable nonbusiness energy credits; and
       Ensure that programming is implemented to identify and freeze refunds of
       individuals claiming more than a specific dollar amount in qualified motor vehicle
       tax deductions on Schedule A, if the deduction is extended.

IRS management agreed with the recommendations and plans to take appropriate
corrective actions.
Reference No. 2010-41-128

Providing Quality Taxpayer Service Operations
Since the late 1990’s, the IRS has increased its delivery of quality customer service to
taxpayers. In July 2005, the Congress requested that the IRS develop a five-year plan,
including an outline of which services the IRS should provide and how it will improve
service for taxpayers. In response, the IRS developed the Taxpayer Assistance Blueprint,
which focuses on the appropriate types and amounts of services that support the needs of
individual filers. The IRS has begun implementing the initiatives of the Blueprint;
however, many of these initiatives are dependent on future funding.

Portrayal of the Taxpayer Advocate Service for Fiscal Years 2005 Through 2009
The Taxpayer Advocate Service (TAS) plays an important role in tax administration by
helping taxpayers who have tried, unsuccessfully, to resolve their tax problems using
normal IRS channels. TIGTA found that fluctuating staffing levels, current authorities
and increased case receipts have contributed to longer case processing times. As a result,
although TAS may take interim actions to assist taxpayers, they have had to wait longer
for their tax problems to be fully resolved. Despite the increased workload and decreased

TIGTA Semiannual Report to Congress                                                    27
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     staffing, TAS has been successful in maintaining high levels of quality and customer
     satisfaction.

     Many internal and external factors have affected TAS’s ability to timely assist taxpayers.
     Specifically, the economy, the IRS’s increased emphasis on enforcement actions and
     legislative changes have led to more taxpayers requesting TAS’s assistance. In addition,
     TAS’s internal policy of accepting all cases referred to it by other IRS functions may
     have contributed to the 38 percent increase in case receipts since FY 2005. Collectively,
     TIGTA believes these factors have made it challenging for TAS to accomplish part of its
     mission related to timely resolving taxpayer problems.

     Rising caseloads have also affected case processing time. In FY 2009, cases were open
     an average of 80 calendar days, an increase of 22 percent since FY 2005. Despite these
     challenges, TAS reported an overall quality rating of 88 percent and a customer
     satisfaction rating of 84 percent during FY 2009. However, TIGTA believes many of the
     issues identified in the review will continue to present challenges for TAS and affect its
     ability to timely resolve taxpayer problems in the future.

     Due to the nature of this review, TIGTA made no recommendations. However, TAS
     management reviewed the report prior to issuance and, overall, agreed with the facts and
     conclusions presented regarding the major trends in TAS over the past five years. TAS
     management provided an additional perspective related to TAS’s change in authority and
     its effect on the issuance of Operations Assistance Requests to the operating divisions. In
     addition, TAS management provided input related to the increase in case processing time.
     Reference No. 2010-10-081

     Improvements Are Needed for Quality Taxpayer Service
     Access for Hearing and Speech-Impaired Taxpayers
     During the 2010 Filing Season, the IRS exceeded its key toll-free telephone assistance
     performance measurement goals. However, hearing- and speech-impaired callers who
     used the IRS tele-typewriter/telecommunications device for the Deaf (TTY/TDD)
     telephone line experienced a low level of service and had difficulty reaching an IRS
     assistor.

     The IRS planned to achieve a 73 percent level of service and a 635-second average
     speed of answer. Instead, it achieved a 75.3 percent level of service and a 580-second
     average speed of answer. The IRS moved less complex calls to automation, leaving
     more complex calls for assistors to answer. The average speed of answer has
     increased by 12 percent since the 2009 Filing Season. During the 2010 Filing Season,
     72 million total dialed attempts were made to the IRS’s toll-free telephone customer
     account services lines.



28                                                  TIGTA Semiannual Report to Congress
                                                  April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


Through automation and assistors, the IRS answered 37.3 million calls during normal
hours of operation. The IRS hired more assistors, but assistors answered fewer calls
during the 2010 Filing Season than during the 2009 Filing Season, and callers waited
longer to reach an assistor. Assistor calls answered decreased by 14 percent.

The level of service for the TTY/TDD toll-free telephone line for the 2010 Filing
Season was 8.8 percent, the lowest Level of Service since the 2003 Filing Season
when it was 6.2 percent. The TTY/TDD product line level of service has consistently
provided the lowest level of service among all of the Customer Account Services
Enterprise product lines.

TIGTA recommended that the IRS:

       Revise the various taxpayer instructions, including notices, for calling the IRS to
       clearly explain that the TTY/TDD number is for hearing- and speech-impaired
       individuals;
       Include in IRS publications the Federal Relay Service website and toll-free
       telephone number as a means to communicate with the IRS;
       Determine the efficiency of the placement of its TTY/TDD workstations; and
       Revise TeleTax Topic 102 to include the TTY/TDD hours of operation.

IRS management agreed with most of the recommendations and planned to take
corrective actions.
Reference No. 2010-40-108

Quality Assurance Process
The Volunteer Program plays an important role in achieving the IRS’s goal of improving
taxpayer service and facilitating participation in the tax system. It provides no-cost
Federal tax return preparation and electronic filing directed toward underserved segments
of individual taxpayers, including low-income to moderate-income, elderly, disabled and
limited English-proficient taxpayers.

The accuracy rates for tax returns prepared at Volunteer Program sites increased sharply
from the 2009 Filing Season. Improved volunteer use of the Intake/Interview and Quality
Review Sheet (Form 13614-C), increased and improved training, and increased oversight
have all contributed to this change.

During January 2010, the IRS implemented a process to help ensure that willful acts of
fraud not occur at Volunteer Program sites. However, not all sites were aware of the
procedures or obtained the proper signage used to alert taxpayers of the process to report
improper activity.




TIGTA Semiannual Report to Congress                                                      29
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     In addition, resources could be saved by reducing or eliminating paper reference
     materials that are available electronically. Each year, the IRS spends more than $600,000
     ($3 million projected over 5 years) to provide paper reference materials to volunteers,
     even though the tax preparation software it provides has the same reference material.
     Overall, improvements are needed to the quality assurance process used to monitor
     program effectiveness. Results show that quality review procedures were not
     consistently followed and did not always conform to applicable guidelines.

     Therefore, TIGTA recommended that the IRS:

            Revise the site visit checksheet to ensure volunteers and site coordinators
            understand the process and required signs are posted;
            Ensure that referrals reporting improper activities are properly documented,
            investigated and resolved;
            Develop an initiative to help reduce or eliminate paper products at Volunteer
            Program sites; and
            Revise the managerial checksheet used for the Quality Statistical Sample Reviews
            to include a focus on tax return selection and documentation standards.

     IRS management agreed with the recommendations and planned to take corrective
     actions.
     Reference No. 2010-40-109

     Human Capital
     Like many other Federal Government agencies, the IRS has experienced workforce
     challenges over the past few years, including recruiting, training, and retraining
     employees, as well as an increasing number of employees who are eligible to retire.
     More than half of the IRS’s employees and managers have reached the age of 50, and 39
     percent of IRS executives are currently eligible for retirement. To fill the projected
     shortage in leadership, the IRS has stated that it must recruit one manager a day for the
     next 10 years. Furthermore, the rate at which new recruits in mission-critical occupations
     are leaving the IRS during the first and second year of employment has increased since
     FY 2005. The pending loss of institutional knowledge and expertise at all levels and the
     challenge of retaining a highly skilled workforce increase the risk that the IRS may not be
     able to achieve its mission.

     Pay-for-Performance System on Recruiting, Retaining, and Motivating Highly
     Skilled Leaders
     With an increasingly retirement-eligible managerial workforce and the work of the IRS
     becoming more complex, it will be essential that the Pay-for-Performance System
     successfully accomplishes its purpose. If the IRS does not identify and adequately
     address concerns with the Pay-for-Performance System, it may be a negative factor for

30                                                  TIGTA Semiannual Report to Congress
                                                  April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration


current or future leaders who serve in key roles to enable the IRS to provide taxpayers
with the high-quality service they have come to expect.

While five years of data are needed before the impact of the Pay-for-Performance
System can be fully evaluated, the IRS has started the process of gathering data on
managers’ perceptions of the system. In addition, as part of an interim evaluation, an
IRS contractor has determined the system does not have a negative impact on the IRS
managerial workforce. While these are positive initial steps, there are several actions
the IRS still needs to take to determine if the Pay-for-Performance System is helping
the IRS recruit, retain, and motivate a highly skilled managerial workforce.

TIGTA recommended that the IRS:

          Collect additional data to assess the impact the IRS Pay-for-Performance System
          is having on recruiting, retaining and motivating highly skilled leaders;
          Conduct additional research on two contractor observations; and
          Define a process where Pay-for-Performance System issues are assessed at least
          annually.

IRS management agreed with the recommendations and planned to take corrective
actions.
Reference No. 2010-10-054

Erroneous and Improper Payments and Credits
As defined by the Improper Payments Information Act of 2002,18 an improper payment is
any payment that should not have been made or that was made in an incorrect amount
(including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements. It includes any payment to an
ineligible recipient, any payment for an ineligible service, any duplicate payment,
payments for services not received and any payment that does not account for credit for
applicable discounts. For the IRS, improper and erroneous payments generally involve
improperly paid refunds, tax return filing fraud, or overpayments to vendors or
contractors.

On November 29, 2009, the President signed Executive Order 13520, Reducing Improper
Payments. The purpose of the Order is to reduce improper payments by intensifying
efforts to eliminate payment error, waste, fraud, and abuse in major Federal programs.
The Order requires that each agency provide its Inspector General a report on the
agency’s methodology for identifying and measuring improper payments and agency
plans to reduce them. The Inspector General will assess the level of risk associated with
the applicable programs, determine the amount of oversight warranted, and provide

18
     Pub. L. No. 107-300, 116 Stat. 2350.

TIGTA Semiannual Report to Congress                                                       31
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     recommendations on the methodology and improper payment reduction plan. Agencies
     must also report quarterly on high-dollar improper payments and efforts to prevent them
     from occurring in the future.

     TIGTA is currently conducting an assessment of the IRS’s efforts to reduce improper
     EITC payments as required by this Order. TIGTA will report on the IRS’s efforts in
     early calendar year 2011.

     Better Use of Data Could Prevent More Than One Billion Dollars in Potentially
     Erroneous Refunds
     To verify the accuracy of the information that taxpayers report on their tax returns, the
     IRS uses data from various sources such as employers, Government agencies and
     financial institutions. These types of data are referred to as third-party data. Effective
     use of these data helps to ensure taxpayer compliance. The IRS is not fully using the
     third-party data it receives during returns processing. Additional action is needed to use
     third-party data to validate EITC requirements and other questionable claims.
     Expanding the use of third-party data during processing would allow the IRS to decrease
     erroneous refunds, increase revenues and promote voluntary compliance.

     In addition, the IRS does not have a centralized data log or control point for third-party
     data requested or received from outside sources. TIGTA requested that the IRS provide a
     list of all third-party data received from outside sources, but it was unable to do so,
     stating that it did not have a centralized control point for all of the data received from
     outside of the organization. Moreover, the IRS could not provide cost data for obtaining
     third-party data files. The IRS’s own work in this area in the past has shown multiple
     payments made for the same data. The IRS does not use standardized procedures for
     validating the data or formatting data received from third-party vendors.

     Therefore, TIGTA recommended that the IRS use the authority already provided in the
     law to freeze refunds while contacting those taxpayers with potentially invalid EITC
     claims; and require a valid response from the taxpayers before allowing the EITC and
     adjust the return if the taxpayer does not respond within a specific time period. In
     addition, TIGTA recommended that the IRS maintain a control log that contains all third-
     party data, ensure that all data sources are included and that the data elements are listed
     for each source. Procedures should also ensure that all data files received are validated
     upon receipt.

     The IRS did not agree to freeze potentially invalid EITC refunds and did not agree with
     the need for a centralized third-party control point. The IRS did agree to discuss with the
     Department of the Treasury the merits of an administrative amendment to the tax code to
     obtain limited math error authority to freeze certain refunds while contacting taxpayers
     and to institute procedures to ensure all data are validated upon receipt.


32                                                  TIGTA Semiannual Report to Congress
                                                  April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration

TIGTA is concerned with the IRS’s lack of adequate corrective action to address certain
improper EITC claims. The lack of action is not in accordance with Executive Order
13520, which was recently issued to help reduce improper payments in Federal
programs.
Reference No. 2010-40-062

Globalization
The scope, complexity and magnitude of the international financial system present
significant enforcement challenges for the IRS. As technology continues to advance and
cross-border transactions rise, the IRS faces the growing challenge created by economic
globalization. Technological advances have provided opportunities for offshore
investments that were once only possible for large corporations and wealthy individuals.

The IRS is challenged by a lack of information reporting on many cross-border
transactions. In addition, the varying legal requirements imposed by different
jurisdictions result in the formation of complex business structures that make it difficult
to determine the full scope and effect of cross-border transactions. However, over the
past few years, the IRS has taken actions to better coordinate international tax compliance
issues. The IRS has also made changes to its structure and processes, including
increasing cooperation and outreach efforts to foreign governments.

Erroneous Foreign Earned Income Exclusion Claims
Taxpayers excluded $19.2 billion in foreign earned income on tax year 2008 tax returns.
TIGTA’s review identified 23,334 tax returns during the 2008 tax year with erroneous
foreign earned income tax exclusions totaling $675 million with an estimated revenue
loss of $90 million. Over five years, TIGTA estimated erroneous claims could result in a
total revenue loss of $450 million.

Some of the recommendations that TIGTA provided were that the IRS:

       Review the tax returns of those individuals that TIGTA identified as incorrectly
       claiming the foreign earned income exclusion;
       Establish a unit to address taxpayers identified as erroneously claiming the
       foreign earned income exclusion;
       Assess whether compliance project criteria can be used to identify erroneous
       claims during tax return processing; and
       Include programming to forward tax returns (both electronically filed and paper)
       to the Error Resolution System for correction when individuals incorrectly
       compute their foreign earned income exclusion.

IRS management agreed with most of the recommendations, but it stated that substantial
barriers prevented the implementation of certain ones at the time of the review. TIGTA
was concerned that the lack of corrective actions would allow continued revenue loss.
Reference No. 2010-40-091

TIGTA Semiannual Report to Congress                                                     33
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     Actions to Address the Impact That International Financial Reporting Standards
     Will Have on Tax Administration
     One of the IRS’s goals from its strategic plan for FYs 2009-2013 is to enforce the law to
     ensure everyone meets their obligation to pay taxes. The IRS’s Large and Mid-Size
     Business Division’s Strategic Initiatives and FY 2009 Priorities include developing a
     Service-wide strategy to address the consequences of the expected conversion to the
     International Financial Reporting Standards (IFRS). The IRS is positioning itself to
     address the impact that the IFRS will have on tax administration and on taxpayers.

     The IRS is currently providing awareness training to IRS employees and managers by
     introducing them to IFRS concepts and potential issues. The IRS is also providing
     technical advice and guidance to employees conducting examinations of returns filed
     based on the IFRS. The IRS appropriately coordinated with the tax practitioner
     community to outline IFRS implementation concerns. In addition, the IRS is
     currently developing procedures to address significant issues related to the IFRS.

     TIGTA made no recommendations in this report, but it did provide IRS management an
     opportunity to review the draft report. IRS management did not provide any comments
     to the report.
     Reference No. 2010-30-112

     Foreign Bank and Financial-Account Report-Filing Requirements
     As a result of new legislation on foreign-tax reporting and disclosure of financial assets,
     some taxpayers may be required to file the Report of Foreign Bank and Financial
     Accounts (FBAR) and the new foreign-financial-assets disclosure statement with their
     income tax return. These reporting requirements will potentially add to both taxpayer
     burden and the complexity of tax law changes. Specifically, United States citizens,
     residents, and domestic entities that have a financial interest in, signature authority or
     other authority over, a foreign-financial account that exceeds $10,000 in the aggregate at
     any time during the calendar year, are required to file the FBAR. New legislation will
     require individual taxpayers with an aggregate balance of more than $50,000 in foreign
     financial assets to file a disclosure statement with their income tax return.

     The IRS is working to address the impact that these legislative requirements have on
     United States citizens and residents. As a result, TIGTA made no recommendations in
     this report. However, IRS management reviewed the report before it was issued and
     agreed with the facts and conclusions presented.
     Reference No. 2010-30-125




34                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


Taxpayer Protection and Rights
The IRS must ensure that tax compliance activities are balanced against the right of
taxpayers to receive fair and equitable treatment. The IRS continues to dedicate
significant resources and attention to implementing the taxpayer-rights provisions of
RRA 98. In general, the IRS has improved its compliance with these statutory taxpayer-
rights provisions. However, TIGTA audits continue to show that there are circumstances
in which the IRS can better protect taxpayers’ rights.

Eliminating or Reducing Taxpayer Social Security Numbers From Outgoing
Correspondence
More than 130 million taxpayers entrust the IRS with sensitive financial and personal
data, much of it on paper documents requiring protection. Taxpayers need assurance that
the IRS is taking every precaution to protect their private information from inadvertent
disclosure.

In response to Office of Management and Budget’s (OMB’s) Memorandum 07-16,
the IRS developed and is implementing its Social Security Number Elimination and
Reduction Plan (SSN ER Plan). TIGTA was able to validate most of the sample SSN
ER Plan accomplishments. However, most of the supporting documentation had to be
reassembled, and it was not clear if the IRS had validated the accomplishments before
reporting them. Milestones for Phase 3 of the SSN ER Plan had not been established.
The IRS will not be eliminating or reducing the use of taxpayers’ SSNs in the
immediate future. The IRS has many systems, notices and forms that use SSNs which
require significant analysis before SSN use is eliminated or reduced. The IRS focused
first on internal forms using SSNs and eliminating employees’ SSNs from its systems.

TIGTA recommended that the IRS maintain documentation to support major
deliverables and key meetings so that it is readily available for examination. TIGTA
also recommended that the IRS validate data received from its business units and all
accomplishments to ensure that all needed actions are complete. TIGTA also
recommended that the IRS refine and update the milestones for the SSN ER Plan to
ensure timely progress of the strategy.

IRS management agreed with the recommendations and has taken or plans to take
corrective actions.
Reference No. 2010-40-098




TIGTA Semiannual Report to Congress                                                     35
April 1, 2010 through September 30, 2010
     Treasury Inspector General for Tax Administration




36                         TIGTA Semiannual Report to Congress
                         April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration



            Protect the Integrity of Tax
                  Administration
TIGTA’s investigations are based on a performance model that focuses on the Office of
Investigations’ (OI) three primary areas of investigative responsibility: employee
integrity; employee and infrastructure security; and external attempts to corrupt Federal
tax administration. The use of the performance model enables OI to direct its crucial
resources to the most critical areas, as illustrated below.

                  TIGTA’s Investigative Performance Model




During this reporting period, TIGTA Special Agents continued the vital work of
protecting the integrity of Federal tax administration. OI processed 5,190 complaints,
and initiated 1,944 investigations. OI remains dedicated to work impacting integrity
programs, threat and assault investigations, and other criminal and administrative
investigations such as bribery, theft, impersonation, taxpayer abuses, and false
statements. Additionally, OI’s contract and procurement investigations continued to
provide a valuable return on investment for investigative efforts impacting approximately
$47 billion in IRS contracts. OI’s investigative activities resulted in $142 million in
recoveries placed into the United States’ Treasury.


TIGTA Semiannual Report to Congress                                                     37
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     Between April 1, 2010 and September 30, 2010, OI completed 1,975 investigations,
     which included 832 cases of employee misconduct referred for action and 138 cases
     accepted for criminal prosecution. OI investigations also resulted in the identification of
     460 taxpayers who may pose a danger to the IRS and its employees.

     Furthermore, OI’s employee security program provides armed escorts for IRS employees
     who are required to have personal contact with known or suspected dangerous taxpayers.
     Such encounters are dangerous to IRS employees and TIGTA’s armed presence enables
     them to perform their duties with confidence that their safety will not be compromised.
     Since the April 1, 2009, inception of the Armed Escort Program, TIGTA has conducted
     62 armed escorts.

     This section of the report will highlight TIGTA’s Forensic Science Laboratory (FSL),
     which is dedicated to technical excellence in direct support of TIGTA’s investigative
     initiatives. The FSL follows standard operating procedures and security requirements,
     which comply with TIGTA policies and the American Society of Crime Laboratory
     Directors – Laboratory Accreditation Board (ASCLD-LAB). In June 2010, the FSL was
     awarded laboratory accreditation through ASCLD-LAB. All laboratory reports are
     subject to technical and administrative reviews according to standard operating
     procedures, to ensure the accuracy of the findings reported and adherence to laboratory
     and professional standards. Annual proficiency testing of technical examiners is
     conducted to ensure the consistent quality of examinations. The FSL constantly updates
     its operating procedures to reflect policy changes, legal rulings and changes in
     professional responsibilities.

     The FSL plays an integral role in TIGTA investigations. The FSL provides examinations
     of physical evidence in direct support of investigations conducted by TIGTA. The
     services that FSL provides include the following:

       Handwriting/Handprinting Analysis                Document Identification and Analysis




38                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


    Digital Image Processing/Visual                 Responding to inquiries from
              Information                           agents regarding the general rules
                                                    of evidence;
                                                    Conducting training exercises for
                                                    TIGTA personnel regarding
                                                    proper evidence-handling
                                                    procedures;
                                                    Assisting agents in determining
                                                    which forensic analyses are
                                                    available in their investigations;
                                                    Maintaining an efficient
                                                    turnaround time for each forensic
                                                    examination;
        Latent Print Processing                     Issuing written reports based on
                                                    the findings of its examiners; and
                                                    Providing expert witness
                                                    testimony in judicial
                                                    proceedings.

                                             In furtherance of its mission objectives,
                                             the FSL staff:

                                                    Conducts independent and
                                                    impartial analyses of physical
                                                    evidence;
                                                    Strives to develop all physical
                                                    evidence to its fullest evidentiary
                                                    potential;
                                                    Educates its customers on the
                                                    proper use of forensic science;
                                                    Performs duties in a timeframe
                                                    that maintains the professional
                                                    quality of its findings so that the
                                                    findings are ultimately useful to
                                                    the submitter;
                                                    Provides expert testimony in a
                                                    fair and impartial manner; and
The FSL is also responsible for:                    Conducts applied research to
                                                    bring the latest technological
       Providing field agents with crime            advances to physical evidence.
       scene assistance in the collection,
       preservation and analysis of
       physical evidence;

TIGTA Semiannual Report to Congress                                                  39
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     During this reporting period, the FSL latent print section worked 40 cases, processed and
     examined 1,149 pieces of evidence for latent prints and made 279 fingerprint
     identifications. The FSL Questioned Document Section worked 35 cases, examined
     2,770 pieces of evidence; made 193 identifications for handwriting; and identified 48
     counterfeit or altered documents.

     The following case is an example of a recent TIGTA investigation in which the FSL
     played a pivotal role in protecting Federal tax administration:

     Michael Wayne Patterson Indicted for Making a False Threat or Hoax
     On September 21, 2010, in Texas, Michael Wayne Patterson was indicted for making a
     threat or hoax.19 On or about August 14, 2010, an envelope containing a plastic ziplock
     “baggie,” filled with an unknown white powder, was delivered to an IRS facility in
     Austin, Texas. After IRS employees opened the envelope and discovered the white
     powder, the facility was evacuated. The powder was later tested and determined to be
     baking soda.20 On or about August 16, 2010, employees at the U.S. Postal Service Dallas
     Main Post Office discovered an envelope, addressed to a Social Security Administration
     (SSA) facility in Baltimore, Maryland, that was leaking white powder. Investigators
     opened the envelope; inside was a small piece of foil containing a white powder. The
     powder was tested and was also determined to be baking soda.21 TIGTA’s FSL analyzed
     the handwriting on the envelopes sent to the IRS and to the SSA. TIGTA’s FSL
     determined that the handwriting on the IRS and SSA envelopes matched, and concluded
     that the handwriting on the envelopes sent to the IRS and the SSA matched the
     handwriting on two greeting cards Patterson sent to a former girlfriend. Fingerprints
     found on the greeting cards were also matched to Patterson.22

     Office of Investigations
     OI is statutorily responsible for protecting the integrity of Federal tax administration. OI
     investigates allegations related to waste, fraud, abuse, and mismanagement involving IRS
     programs and operations, and misconduct by IRS employees. OI also strives to detect
     and prevent IRS internal misconduct and external manipulation of tax administration,
     through its proactive investigative initiatives program and presentations to IRS
     employees, tax practitioners, and other community groups.

     OI consists of six headquarters divisions which provide investigative support to its seven
     field divisions. In addition to the FSL, the other headquarters divisions include: the
     Operations Division; Contract Fraud and Criminal Intelligence Division (CCID); the
     Internal Affairs Division (IAD); the Technical and Firearms Support Division (TFSD);

     19
        Source: Northern District of Texas Indictment filed September 21, 2010.
     20
        Source: Northern District of Texas Criminal Complaint filed August 26, 2010.
     21
        Id.
     22
        Id.

40                                                     TIGTA Semiannual Report to Congress
                                                     April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


and the Strategic Enforcement Division (SED). Each of these divisions has a unique role
in supporting OI’s nationwide investigative activities.

Operations Division
The Operations Division consists of four teams: the Policy Team, the Complaint
Management Team, the Performance Team, and the Training Team. Through these
teams, the Operations Division develops policies and procedures, manages complaints
and records, manages OI performance data, conducts divisional inspections, and
coordinates training for all OI law enforcement personnel.

Contract Fraud and Criminal Intelligence Division
CCID consists of two critical functions: procurement fraud and criminal
intelligence/counter-terrorism. The Procurement Fraud Group is responsible for
investigating allegations of waste, fraud, and abuse involving IRS procurements and
procurement-related misconduct by IRS employees and contractors. The group also
promotes fraud awareness within the IRS contracting community. The Criminal
Intelligence/Counter-Terrorism Group is responsible for providing field divisions with
criminal intelligence, coordinating criminal intelligence collection and dissemination
within TIGTA nationwide, and emergency preparedness coordination. The group also
oversees OI’s nationwide participation in the Joint Terrorism Task Forces sponsored by
the Federal Bureau of Investigation. The Criminal Intelligence/Counter-Terrorism Group
also plays a significant role in the IRS Continuity of Operations Plan (COOP) because of
TIGTA’s responsibility for investigating threats and assaults against IRS employees,
facilities, and data infrastructure. OI closely coordinates with IRS management officials
to ensure that TIGTA’s COOP activities complement IRS activities. TIGTA personnel
participate in regular COOP exercises with the IRS and the Department of the Treasury.

Internal Affairs Division
IAD is responsible for conducting or overseeing the Service’s most sensitive
investigations involving allegations of possible misconduct by IRS Senior Management
Officials and Senior Executives; the IRS Chief Counsel and his/her employees; members
of the IRS Oversight Board; IRS CI Division employees; IRS international employees;
and TIGTA employees.

Technical and Firearms Support Division
The TFSD main office is located in Beltsville, Maryland, and its staff is responsible for
managing the following programs: Land Mobile Radio; Firearms, Agent Safety and
Tactics (FAST); Audio/Video Enhancement; Investigative Equipment/Technical
Surveillance Counter Measures (TSCM); Vehicles; and Treasury Enforcement
Communications System (TECS).




TIGTA Semiannual Report to Congress                                                         41
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     TFSD develops and oversees policies, training and budgets relative to firearms, officer
     safety equipment, vehicles, the TECS, radio communications and investigative
     equipment. TFSD provides expertise in the use of technical and electronic investigative
     equipment including enhancement of video and audio evidentiary material, on-site
     assistance during investigations and TSCM activities. Work assignments for the TFSD
     staff are assigned directly by TFSD management and work progress is monitored
     monthly. Monthly program accomplishments are reported through the Special Agent-in-
     Charge (SAC) TFSD to the Deputy Assistant Inspector General for Investigations–
     Headquarters Operations.

     Strategic Enforcement Division
     SED has major components in Cincinnati, Ohio, Lanham, and Beltsville, Maryland
     (MD). SED–Cincinnati is responsible for identifying possible fraudulent activities and
     control weaknesses in IRS operations, including the detection of potentially unauthorized
     accesses (UNAX) to electronic taxpayer records maintained within IRS computer
     systems. The System Intrusion and Network Attack Response Team (SINART) in
     Lanham, MD, detects and investigates intrusions into IRS network systems and
     information technology equipment. SED also maintains a separate Computer
     Investigative Support (CIS) program in Beltsville, MD. Support provided by CIS
     includes technical guidance in the preparation of warrants and subpoenas for electronic
     media; on-site support for search warrant execution; forensic laboratory analysis of
     seized media; expert testimony at judicial proceedings; and training and consultation to
     TIGTA agents on investigations conducted in an automated environment.

     OI also has seven field divisions: Atlanta, Chicago, Dallas, Denver, New York, San
     Francisco and the District of Columbia, whose geographical coverage is depicted in the
     map below. Each of these divisions operates under the supervision of a SAC.




42                                                 TIGTA Semiannual Report to Congress
                                                 April 1, 2010 through September 30, 2010
                  Treasury Inspector General for Tax Administration


Employee Integrity Investigations
IRS employee misconduct undermines the image and mission of the IRS. TIGTA is
statutorily responsible for investigating IRS employee misconduct. OI investigates
allegations such as extortion, bribery, theft, abusive treatment of taxpayers, false
statements, financial fraud and unauthorized access to and disclosure of confidential tax
information which includes contractor misconduct and fraud.

The following cases are examples of IRS employee and contractor integrity investigations
TIGTA conducted during this period:

Fernando Hernandez Sentenced to Federal Prison for Receiving Cash Bribe
On May 3, 2010, in Texas, Fernando Hernandez was sentenced to serve 16-months in
prison, two-years supervised release, and ordered to pay criminal monetary penalties of
$100.23 On or about June 3, 2005, Hernandez, then an IRS employee, sought and
demanded a cash payment of $2,000 from a taxpayer in return for promising that no
representative of the IRS would audit the taxpayer’s tax return.24

David Leoce Sentenced for Making False Workers’ Compensation Claims
On July 21, 2010, in Florida, David Leoce, a former Supervisory Special Agent with the
IRS’s CI Division, was sentenced to two-years of probation and ordered to pay
$32,391.17 in restitution for making false statements to obtain Federal workers’
compensation benefits. He was also ordered to pay a $100 special assessment.25
According to the indictment, Leoce received approximately $772,301 in workers’
compensation benefits, tax free, from approximately 1997 through 2008. Leoce
submitted fraudulent Forms EN 1032 (Claim for Continuing Compensation on Account
of Disability) in connection with his application for and receipt of Federal workers’
compensation benefits, claiming not to be involved in any business enterprise and not to
have received any voluntary compensation or income from any business. However, from
at least February 2005 to August 2008, Leoce was a co-owner and manager of Leoce &
Martin Enterprises, d/b/a Scratch the Surface Tattoo II.26

Eileen Covarrubias Sentenced for Unauthorized Inspection of Tax Return
Information
On June 21, 2010, in California, Eileen Covarrubias was sentenced to two-years
supervised release and ordered to pay a $25 special assessment.27 From at least 2005 to
at least 2009, Covarrubias, a secretary employed by the IRS, received annual training in
which she was instructed that she was forbidden to access taxpayer returns and taxpayer

23
   Source:   Northern District of Texas Judgment in a Criminal Case filed May 4, 2010.
24
   Source:   Northern District of Texas Indictment filed October 7, 2009.
25
   Source:   Middle District of Florida Minutes on Sentencing filed July 21, 2010.
26
   Source:   Middle District of Florida Indictment filed November 4, 2009.
27
   Source:   Central District of California Judgment and Probation/Commitment Order filed June
21, 2010.

TIGTA Semiannual Report to Congress                                                              43
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     return information without an official purpose, and that any unauthorized access would
     be criminally punishable. Every year she signed written statements that she understood
     these limits and the potential penalties she faced. From October 14, 2005 through
     January 6, 2009, Covarrubias accessed the tax returns and return information of at least
     12 taxpayers and one business at least 96 times in total.28

     Terry Irwin Sentenced for Computer Fraud
     On August 2, 2010, in California, Terry Irwin was sentenced to serve 24-months of
     probation and ordered to pay a $1,500 fine for fraud and related activity in connection
     with computers. She was also ordered to pay a $25 court assessment.29 On or about
     December 16, 2005 and January 17, 2006, while employed at the IRS, Irwin willfully and
     unlawfully made numerous unauthorized accesses to inspect tax return information of a
     private individual without authorization.30

     Todd Jason Snarr Indicted for Unauthorized Inspection of Tax Returns or Return
     Information and Making Fraudulent Statements
     By indictment on April 22, 2010, in Montana, IRS employee Todd Jason Snarr was
     charged with the unauthorized inspection of tax returns or return information and making
     fraudulent statements. From approximately January 3, 2006 until approximately April 9,
     2008, he inspected the tax returns of two individuals without authorization. From
     approximately July 17, 2006 until September 14, 2007, Snarr also made fraudulent
     entries into the IRS’s Integrated Data Retrieval System.31

     Roger Coombs Pleads Guilty to Soliciting and Agreeing to Receive a Bribe
     On August 17, 2010, in Minnesota, Roger Coombs agreed to plead guilty to soliciting
     and agreeing to receive a bribe. On or about May 8, 2010, in the course of his official
     duties, Coombs solicited a $9,700 bribe from a taxpayer. In exchange, Coombs indicated
     he would report a lower tax obligation than that truly owed by the taxpayer to
     intentionally result in the IRS seeking to collect only the lower amount and not the
     taxpayer’s true tax obligation. On or about May 19, 2010, and on or about June 2, 2010,
     Coombs received two payments, totaling the $9,700 bribe.32

     Employee and Infrastructure Security
     The IRS has been recognized as part of the Nation’s critical infrastructure, which
     underscores the importance of TIGTA protecting the Department of the Treasury’s

     28
        Source: Central District of California Plea Agreement for Defendant Eileen M. Covarrubias filed
     June 21, 2010.
     29
        Source: Eastern District of California Judgment in a Criminal Case filed August 9, 2010.
     30
        Source: Eastern District of California Memorandum of Plea Agreement filed May 24, 2010.
     31
        Source: District of Montana Indictment filed April 22, 2010.
     32
        Source: District of Minnesota Plea Agreement and Sentencing Stipulations filed August 19,
     2010.

44                                                      TIGTA Semiannual Report to Congress
                                                      April 1, 2010 through September 30, 2010
                Treasury Inspector General for Tax Administration


ability to collect Federal tax revenue by ensuring IRS employee safety, infrastructure
security and continuity of operations. As part of its statutory mission, TIGTA
investigates threats and attacks directed against IRS personnel, property and data
infrastructure. TIGTA also conducts threat assessments to determine whether individuals
or groups pose a threat to the IRS, its employees or its infrastructure.

The following cases are examples of employee and infrastructure security investigations
that TIGTA conducted during this period:

Ernest Barnett Sentenced for Ramming his Vehicle into an IRS Building and
Injuring IRS Employees
On August 20, 2010, in Alabama, Ernest Barnett was sentenced to 52-months
imprisonment for assaulting, intimidating and interfering with Federal employees while
performing their official duties; 12-months imprisonment for damaging United States
property; and 36-months of supervised release. He was also ordered to pay $3,075.50 in
restitution and a $125 special assessment.33

On August 26, 2008, Barnett contacted the IRS by telephone to discuss a longstanding
tax debt. He became upset during the call and handed the telephone to his wife twice.
When he passed the phone to his wife the second time, minutes later she was heard to cry
out, "Oh my God, he went and got the gun." She then screamed and the call ended
abruptly.34 The IRS employee on the telephone became concerned that Barnett might
harm himself or others and contacted local officials. A Jefferson County Sheriff's
dispatcher called Barnett who said he did not need any help. However, he told the
dispatcher before hanging up, "In about ten minutes, my life will be over with, so don't
worry about me."35 Barnett drove his Jeep Cherokee Sport Utility Vehicle to a building
where IRS offices are located and rammed the vehicle into one of the building's windows.
Barnett then backed up a few feet and struck the building a second time. Two IRS
employees sustained physical injuries as a result of Barnett's attack.36

Logan Painter Sentenced for Making Threats
On May 21, 2010, in North Carolina, Logan Painter was sentenced to serve 46-months in
prison and three-years of supervised release for threatening to assault a law enforcement
officer while engaged in the performance of official duties. He was also ordered to pay a
$100 special assessment.37 According to the criminal complaint, on April 7, 2009,
Painter telephonically contacted a special agent with the IRS’s CI Division and
repeatedly said, “I’m gonna off you.” The agent also received a telephone call from
33
   Source: Northern District of Alabama Judgment in a Criminal Case dated August 20, 2010.
34
   Source: Department of Justice Press Release dated August 24, 2010, Northern District of
Alabama Indictment filed December 1, 2008, and Government’s Sentencing Memorandum filed
July 27, 2010.
35
   Id.
36
   Id.
37
   Source: Western District of North Carolina Judgment in a Criminal Case filed June 18, 2010.

TIGTA Semiannual Report to Congress                                                              45
April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration


     Painter’s defense attorney, who advised him that Painter had telephoned the agent’s wife
     and told her, “Goodbye, you’re not going to see me again and you will be reading about
     me in the papers.”38

     William Brown Sentenced for IRS Service Center Bomb Threat
     On May 10, 2010, in California, William Brown was sentenced to serve five-years
     probation and ordered to pay $833.64 in restitution and a $25 special assessment.39 On
     August 1, 2008, Brown endeavored to intimidate and impede an IRS employee acting
     under official capacity, and obstruct and impede the due administration of internal
     revenue laws by calling the IRS 1-800 number and stating: “There is a bomb in the
     Fresno Service Center.” Brown has a history of threatening violence to IRS employees,
     disturbing the peace, and refusing to follow directions of law enforcement. IRS security
     officers and Fresno police officers responded to Mr. Brown’s bomb threat by searching
     the Fresno Service Center for evidence of a bomb.40

     Lawrence Rios Charged with Obstructing or Impeding the Due Administration of
     the IRC
     On May 28, 2010, in California, Lawrence Rios was charged with obstructing or
     impeding the due administration of the I.R.C. On August 17, 2009, Rios was being
     assisted by an IRS employee for about 10 minutes before he became agitated. He handed
     the employee a note that read “BOMB BAG” while he patted and gestured at his
     backpack. The employee activated a panic/duress alarm and IRS’s CI Division agents
     responded to the alarm. Local police were called, Rios was taken into custody, and the
     building was evacuated. No bomb was found in the backpack.41

     Irene Lezcano Indicted for Harassing and Threatening Telephone Calls to
     Employees of the IRS
     By indictment filed on May 27, 2010, in Florida, Irene Lezcano was charged with making
     harassing phone calls to employees of the IRS and with transmitting threatening
     communications in interstate commerce. From about August 2005, and continuing
     through about April 8, 2010, Lezcano repeatedly made telephone calls solely to harass
     employees of the IRS. During this time period, Lezcano also made seven telephone calls
     in which she threatened to kill an employee of the IRS. During one of these telephone
     calls, Lezcano threatened to kill both the employee and the family of the employee. 42




     38
        Source: Western District of North Carolina Affidavit in Support of a Criminal Complaint filed
     April 8, 2009.
     39
        Source: Criminal Minutes filed May 10, 2010.
     40
        Source: Amended Sentencing Memorandum filed May 5, 2010.
     41
        Source: Criminal Complaint filed May 28, 2010.
     42
        Source: Indictment filed May 27, 2010.

46                                                       TIGTA Semiannual Report to Congress
                                                       April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


External Attempts to Corrupt Tax Administration
The IRS is statutorily responsible for collecting revenue for the Federal Government.
Essential governmental functions, programs, and operations of the Federal Government
depend on the timely, accurate and uninterrupted collection of that revenue. TIGTA’s
statutory responsibility includes investigating external attempts to corrupt or impede the
administration of internal revenue laws so as to ensure the timely, accurate, and
uninterrupted collection of Federal tax revenue. Investigations in this area include
taxpayers offering bribes to IRS employees to avoid paying their fair tax obligations; the
use of fraudulent IRS documentation to avoid tax liabilities; and the corruption of IRS
programs or operations through procurement or contractor fraud. Phishing schemes are
also a rapidly growing external threat to Federal revenue collection, and due to the
technical and international nature of these fraudulent operations they are extremely
difficult to investigate and prosecute.

The following cases are examples of external attempts to corrupt Federal tax
administration:

Four Sentenced in Tax Defiance Scheme
On August 30, 2010, in Washington, DC, four promoters in a business that sold illegal
tax defiance schemes were sentenced. Eddie Ray Kahn was sentenced to 20-years in
prison; Stephen Hunter, Danny True and Allan Tanguay were each sentenced to 10-years
in prison.43 The evidence at trial showed that Kahn founded and ran American Rights
Litigators/Guiding Light of God Ministries from 1996 through 2004. Hunter, True and
Tanguay worked at American Rights Litigators/Guiding Light of God Ministries with
Kahn to develop and sell tax defiance schemes based on deliberate misrepresentations of
the legal foundation of the tax system. The purpose of the tax defiance schemes was to
thwart the IRS in its attempts to assess and collect taxes. The schemes included
manufacturing and selling more than one thousand worthless “bills of exchange”
supposedly drawn on the United States Treasury for customers to use in purported
payment of their taxes.44 Upon rejection of the “bills of exchange” by the IRS, the
schemes included the manufacture and sale to customers of letters to TIGTA alleging that
IRS employees had committed criminal offenses by not accepting the “bills of
exchange”.45 American Rights Litigators/Guiding Light of God Ministries enrolled more
than 4,000 customers. Individual customers paid an annual fee of $150 to belong to
American Rights Litigators/Guiding Light of God Ministries plus additional fees for
various schemes. American Rights Litigators/Guiding Light of God Ministries generally
charged customers $50 for each piece of correspondence that it sent to the IRS on the
customer’s behalf.46


43
   Source: U.S. Department of Justice Press Release dated August 30, 2010.
44
   Id.
45
   Source: District of Columbia Indictment filed April 28, 2010.
46
   Id.

TIGTA Semiannual Report to Congress                                                      47
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     Rene Dunn Sentenced for Impersonating an IRS Revenue Officer
     On June 28, 2010, in California, Rene Dunn was sentenced to serve three-years of
     supervised release and ordered to pay a $5,000 fine for impersonating a Federal officer.47
     On or about May 1, 2008, IRS Revenue Officer Wendy Wooldridge issued a Form 668-A
     Notice of Levy in the amount of $212,295.11 to clients of Springer & Associates, Inc.
     (“S&A”), requiring the clients to pay any monies owed to S&A to the IRS. On or about
     May 13, 2008, Dunn created a false “Release of Levy/Release of Property from Levy”
     form and signed the document as Officer Wooldridge. Dunn sent the form to three of
     S&A’s clients, representing that they no longer had to pay monies owed to S&A to the
     IRS, but could pay the monies to S&A. On or about May 13, 2008, the clients owed
     S&A a total of $27,622.38.48

     John Edward O’Rourke Sentenced for Possessing and Using a Central
     Authorization File Number of Another Tax Practitioner
     On July 26, 2010, in California, John Edward O’Rourke, also known as Terry O’Rourke,
     was sentenced to 12-months probation for unlawful possession of an authentication
     feature, i.e., Central Authorization File (CAF number), issued by the IRS. He was also
     ordered to pay a $2,000 fine and $25 special assessment.49 During 2007, O’Rourke
     operated Citizens Tax Relief, a business that assisted individuals with various tax matters,
     including making offers in compromise to the IRS. Only authorized tax practitioners can
     represent individuals before the IRS. The IRS issues a CAF number to authorized tax
     practitioners for identification. On two different occasions, O’Rourke submitted IRS
     Forms 2848, Power of Attorney using the name and CAF number of another tax
     practitioner.50

     Jerry R. Williamson Sentenced for Tax Defiance Schemes
     On September 8, 2010, in the District of Columbia, Jerry R. Williamson was sentenced to
     10-months imprisonment, five-months to a community correctional facility, and five-
     months home detention for mail fraud and aiding and abetting. He was also sentenced to
     36-months of supervised release and ordered to pay a $100 special assessment.51

     Williamson sold and promoted tax defiance schemes that interfered with the functioning
     of the IRS and other taxing authorities. The tax defiance schemes consisted mainly of
     mass-produced false documents that were mailed on behalf of customers to Government
     officers across the United States, especially to the IRS and the U.S. Department of the


     47
         Source: Southern District of California Judgment in a Criminal Case filed June 30, 2010.
     48
         Source: Southern District of California Plea Agreement filed April 6, 2010.
     49
         Source: Central District of California Judgment and Probation/Commitment Order filed July 26,
     2010.
     50
         Source: Central District of California Plea Agreement for Defendant John Edward O’Rourke
     filed April 30, 2010.
     51
         Source: District of Columbia Judgment in a Criminal Case filed September 13, 2010.

48                                                     TIGTA Semiannual Report to Congress
                                                     April 1, 2010 through September 30, 2010
                  Treasury Inspector General for Tax Administration


Treasury. The letters were generally prepared for $50 each and declared things such as
IRS Revenue Officers (ROs) were without authority to collect taxes, and false
announcements that the customer has “expatriated” from the United States and was
therefore no longer subject to taxation. Additionally, Williamson prepared letters falsely
telling banks that it is against the law for the IRS to levy funds from customer accounts
for overdue taxes.

Williamson also participated in a scheme that involved preparing and filing frivolous
Uniform Commercial Code documents with State agencies. He further prepared and
mailed to creditors fictitious financial instruments that falsely claimed to draw upon the
U.S. Treasury to pay taxes and other debts. Williamson encouraged others to send these
documents to the U.S. Treasury in Washington, D.C., and to various IRS offices in
purported payment of their tax debts.52

Ronald Hoodenpyle Sentenced for Filing a False Lien Against an IRS Employee
On September 17, 2010, in Colorado, Ronald Hoodenpyle was sentenced to 12-months
imprisonment for filing a false lien against a Federal employee. He was also ordered to
serve two-years supervised release and ordered to pay a $100 special assessment.53 On or
about April 2, 2008, Hoodenpyle filed a false lien against the real property of an IRS RO.
Hoodenpyle filed a false “Notice of Equity Interest and Claim” against the RO’s real
property, which contained the false representation that he had a claim against the RO
“believed to be in excess of one million dollars.”54

Makalai Mardakhayeu Charged with Theft of IRS Tax Refunds in International
“Phishing” Scheme
On June 23, 2010, in Massachusetts, Makalai Mardakhayeu was charged for his
participation in an online scheme to steal income-tax refunds from U.S. taxpayers. He
was indicted on charges of conspiracy and wire fraud.55 The IRS allows taxpayers to
prepare their Federal income tax-returns online and to file them electronically through a
select group of IRS-authorized providers. According to the indictment, from
approximately January 2006 through approximately November 2007, Mardakhayeu and
his co-conspirators operated websites that falsely claimed to be authorized by the IRS.
After taxpayers completed an online form and uploaded their tax return information, co-
conspirators in Belarus collected the data and altered the returns so that tax refunds would
be directed to U.S. bank accounts controlled by Mardakhayeu and/or the claimed refund
amount was inflated. The conspiracy caused the U.S. Treasury and various State treasury
departments to deposit approximately $200,000 into Mardakhayeu-controlled bank
accounts in and around Nantucket, Massachusetts.56

52
   Source:   District of Columbia Indictment filed September 3, 2008.
53
   Source:   District of Colorado Judgment in a Criminal Case filed September 23, 2010.
54
   Source:   District of Colorado Indictment filed January 6, 2009.
55
   Source:   District of Massachusetts Indictment filed June 23, 2010.
56
   Id.

TIGTA Semiannual Report to Congress                                                       49
April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration


     Ai Van Duong Pleads Guilty to Bribery of an Internal Revenue Agent
     On June 30, 2010, in Massachusetts, Ai Van Duong pled guilty to bribery of a public
     official. On or around January 2010, an IRS agent was auditing prior tax returns filed by
     Duong. Beginning on or about January 7, 2010, and continuing up to and including
     February 19, 2010, Duong gave the IRS agent $3,000 to influence the agent to falsely
     report that Duong owed approximately $80,000 less back taxes than he actually owed.57

     Fred Covey Sentenced for Interference with Administration of Internal Revenue
     Laws
     On April 29, 2010, in Idaho, Fred Covey was sentenced to serve 24-months in prison,
     one-year of supervised release, and ordered to pay criminal monetary penalties of $100,
     for interference with the administration of internal revenue laws.58

     In 1993, Covey stopped voluntarily filing tax returns as required by internal revenue
     laws. On or about March 4, 2005, Covey filed a frivolous Uniform Commercial Code
     (UCC) financial statement against the Secretary of the Treasury falsely claiming that the
     Secretary of the Treasury was indebted to him for $177,636,572.04. Covey also filed
     frivolous UCC financial statements against three IRS employees, two of whom had been
     assigned to collect Covey’s outstanding tax debt. The UCC filings falsely claimed that
     each IRS employee was indebted to Covey for $166,676,468.59

     On or about November 29, 2005, a U.S. Department of Justice attorney filed a civil
     complaint against Covey seeking to have the false and frivolous UCC financial
     statements filed against the IRS employees expunged. Throughout the course of the civil
     suit, Covey filed in court and mailed frivolous documents claiming that the assigned
     judicial officer, U.S. Marshal, court clerk and government attorneys had acted
     improperly, threatening lien filings and purporting to charge hundreds of thousands of
     dollars for trespassing and incarceration.60

     On or about February 22, 2009, Covey mailed or caused to be mailed to the IRS a false
     and fraudulent document purporting to pay his Federal tax debt and demanding that his
     account be balanced to zero when, in fact, no actual cash or negotiable financial
     instrument was included in the mailing. On May 29, 2009, Covey hand-delivered to the
     IRS a false and fraudulent document purporting to pay his outstanding tax debt and
     demanding that his account be balanced to zero when, in fact, no actual cash or
     negotiable financial instrument was included in the delivery.61


     57
        Source: District of Massachusetts Indictment filed March 30, 2010.
     58
        Source: District of Idaho Judgment in a Criminal Case filed April 29, 2010.
     59
        Source: District of Idaho Indictment filed September 9, 2009.
     60
        Id.
     61
        Id.

50                                                      TIGTA Semiannual Report to Congress
                                                      April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


 ADVANCING OVERSIGHT OF AMERICA’S TAX SYSTEM
TIGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely and
cost-effective inspections and evaluations of challenging areas within the IRS, providing
TIGTA additional flexibility and capability to produce value-added products and services
to improve tax administration.

I&E has two primary product lines: inspections and evaluations.

The purpose of inspections is to:

         Provide factual and analytical information;
         Monitor compliance;
         Measure performance;
         Assess the effectiveness and efficiency of programs and operations;
         Share best practices; and
         Inquire into allegations of waste, fraud, abuse and mismanagement.

The purpose of evaluations is to:

         Provide in-depth reviews of specific management issues, policies, or programs;
         Address government-wide or multi-agency issues; and
         Develop recommendations to streamline operations, enhance data quality and
         minimize inefficient and ineffective procedures.

The following summaries highlight some of the significant activities I&E has engaged in
during this six-month reporting period:

Inspection of the IRS’s Pandemic Influenza Preparedness Plan - Phase II
In 2006, the Homeland Security Council requested that department and agency heads
certify that their department or agency has addressed the applicable elements of pandemic
planning set forth in a checklist it developed. In August 2008, the checklist was updated
to reflect newer Federal Government guidance. The Department of the Treasury used the
Homeland Security Council checklist to assess pandemic preparations by each of the
Treasury bureaus. TIGTA chose to use the same criteria for its initial inspection and
shared the results of this inspection with the Department of the Treasury’s Director,
Emergency Programs.




TIGTA Semiannual Report to Congress                                                    51
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     In the initial review completed in January 2009,62 TIGTA determined that the IRS had
     addressed the majority of the pandemic checklist issued by the Homeland Security
     Council. While acknowledging the IRS addressed the pandemic checklist, there were
     additional aspects of a potential outbreak that TIGTA believed warranted a second
     review.

     In the course of this second review, TIGTA determined that guidance developed by the
     IRS related to the pandemic influenza was distributed to field operations and that
     seasonal and pandemic vaccinations would be provided to employees. TIGTA found that
     while continuity exercises were improved, further planned development of the exercises
     was warranted. In addition, TIGTA noted that even with the potential of high
     absenteeism due to a pandemic, daily staffing levels at large IRS facilities were not
     consistently tracked, and the IRS did not include a provision in teleworking agreements
     for directed teleworking of qualified employees in an emergency, such as a pandemic.

     TIGTA recommended that the Chief, Submission Processing (Wage and Investment
     Division) implement a process to provide senior management of campuses and other large
     facilities with daily information on attendance levels at the facility they manage. Also, in
     expanding the teleworking program of the IRS, the Chief Human Capital Officer should
     include a provision for directed teleworking of qualified employees in an emergency, such
     as a pandemic outbreak.

     In their response to the report, IRS officials stated that the Wage and Investment Division
     has incorporated procedures for reporting absenteeism into their Business Resumption
     Plans, and the Human Capital Office plans to modify telework agreements to stipulate
     that employees may be directed to telework during emergency situations.
     Report Reference No. 2010-IE-R004

     Revised Procedures Preceded Significant Increases in Reports of Potential
     Disclosure of Personally Identifiable Information
     In 2009, there was an increase in reports of potential disclosure of Personally Identifiable
     Information. Personally Identifiable Information is information that can be used to
     distinguish or trace an individual’s identity, alone or when combined with other personal
     or identifying information. Inappropriate disclosure of Personally Identifiable
     Information can place individuals at higher risk of identity theft and may erode public
     confidence in the Nation’s tax system, which is built upon the principle of voluntary
     compliance with the provisions of the tax code.

     Our analysis of reported incident data, policy changes, and interviews with front-line
     personnel leads us to conclude that the increase in disclosure incidents was related to

     62
       Inspection of the Internal Revenue Service’s Pandemic Influenza Preparedness Plan
     (Reference Number 2010-IE-R001, dated January 2010).

52                                                    TIGTA Semiannual Report to Congress
                                                    April 1, 2010 through September 30, 2010
                Treasury Inspector General for Tax Administration


revised reporting guidelines and requirements published by the IRS in March and
September 2009.

No recommendations were made in this report. IRS officials reviewed the draft report
and concurred with what TIGTA had developed and reported.
Report Reference No. 2010-IE-R005

Review of the IRS Criminal Investigation Division’s Nonprofit Fraud Referral
Process
During FY 2007 through FY 2009, the IRS’s CI Division had an inventory of 168 tax-
exempt investigations. Twenty-seven percent of the referrals received by CI came from
other IRS functions while about 20 percent came from United States Attorney Offices.
The third largest number came from other Federal agencies including the FBI. In
general, the percentage of investigations related to tax-exempt entities seems reasonable
compared to the number of tax-exempt returns filed.

Approximately 72 percent of tax-exempt investigations (121 of 168) are subject criminal
investigations, which are investigations related to a specific individual or entity alleged to
be in violation of laws enforced by the IRS and having criminal prosecution potential.
About one-third of the subject criminal investigations completed by CI resulted in a
conviction.

TIGTA was unable to fully determine if fraud referrals were accepted or declined within
30 calendar days as stipulated in CI procedures. In March 2005,63 TIGTA’s OA reported
that CI took an average of 93 calendar days to decide to accept or decline fraud referrals
during FY 2003. In response to that report, the Chief, CI, replied that several actions
were to be implemented by September 2004 to address that finding. The actions included
implementing a fraud referral tracking system, re-emphasizing established operating
procedures, and a requirement to better track referrals and to evaluate referrals within 30
workdays of receipt.

TIGTA attempted to determine if CI timely evaluated the referrals included in its review.
CI staff was able to provide information on only 14 cases. Of those only 5 of the 14
were evaluated timely.

TIGTA recommended that CI modify the Criminal Investigation Management System to
capture data required to readily assess the timeliness of fraud referral evaluations. CI did
not agree with TIGTA’s recommendation. Instead, CI proposed assessing the timeliness
of fraud referral evaluations based on information currently available in its management
information system, and issuing guidance to ensure that special agents timely record
information related to fraud-referral evaluations.
63
 The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases;
However, Challenges Remain (Reference Number 2005-10-054, dated March 2005).

TIGTA Semiannual Report to Congress                                                           53
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     TIGTA believes these measures will provide a general indication of whether evaluations
     are processed timely. In cases where the evaluation period exceeds CI guidelines,
     additional research will be required to determine whether there were delays in posting
     information to the management information system or actual delays in the evaluation
     process.
     Report Reference No. 2010-IE-R006




54                                                TIGTA Semiannual Report to Congress
                                                April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration



American Recovery and Reinvestment
            Act of 2009
The Recovery Act was signed into law by President Obama on February 17, 2009. It is
an unprecedented effort to jumpstart our economy, create or save millions of jobs, and
put a down payment on addressing long-neglected challenges so our country can thrive in
the 21st century. The Recovery Act is an extraordinary response to a crisis unlike any
since the Great Depression, and includes measures to modernize our Nation's
infrastructure, enhance energy independence, expand educational opportunities, preserve
and improve affordable health care, provide tax relief and protect those in greatest need.

Inspectors General are responsible for reviewing agency performance and use of
Recovery Act funds. Recovery Act reports produced by Inspectors General are required
to be forwarded to the Recovery Accountability and Transparency Board (the Board).
The Board is responsible for coordinating and conducting oversight of covered funds in
order to prevent waste, fraud, and abuse. The Board is also charged with issuing specific
periodic reports and serving as a central repository for all Recovery Act-related Office of
Inspector General reports.

The Recovery Act requires each Federal agency that receives Recovery Act funds to
designate a Senior Accountable Official for Recovery Act activities. Within TIGTA, that
responsibility has been assigned to the Deputy Inspector General for Inspections and
Evaluations (Deputy). The Deputy has overseen the development of TIGTA’s Recovery
Act work plan and reports on the completion of planned activities and the amount of
funds spent by TIGTA to complete those activities. The Deputy also coordinates
TIGTA’s activities with the Board.

OA’s Oversight Program Plan (Plan) identifies its planned actions to address the
Recovery Act. OA reviewed the Recovery Act legislation, the OMB Implementing
Guidance, and summaries of key IRS-related provisions prepared by the Senate Finance
and House Ways and Means Committees, IRS websites, and information available
through the Department of the Treasury Recovery Act Program in determining the scope
of the Recovery Act on tax administration. This Plan is expected to evolve over the next
three years and will be updated periodically to reflect TIGTA’s current Recovery Act
actions.

The following summaries highlight the Recovery Act audits completed by OA during this
six-month reporting period:




TIGTA Semiannual Report to Congress                                                      55
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     Additional Steps Are Needed to Prevent and Recover Erroneous Claims for the
     First-Time Homebuyer Credit
     Homebuyers who purchased a home in 2008, 2009, or 2010 may be able to take
     advantage of the First-Time Homebuyer Credit. The credit may be an interest-free loan
     or a fully refundable credit depending on when the taxpayer purchased his or her home.

     The IRS has taken a number of positive steps to strengthen controls and help prevent
     inappropriate credits from being issued. Primary among these controls was the
     implementation of filters to identify questionable claims for the credit before they are
     processed.

     However, fraudulent and erroneous credits totaling millions of dollars in refunds were
     issued, which increases an already burgeoning Federal deficit. Additional controls are
     necessary to address erroneous claims for the credit. Further, fraudulent and
     questionable claims processed prior to implementation of controls will need follow-up
     action by the IRS.

     Control weaknesses allowed fraudulent claims filed by prison inmates totaling an
     estimated $9.1 million to be processed. Multiple claims for the same home were
     allowed. In addition, claims totaling an estimated $17.6 million were allowed for
     homes purchased before the dates allowed by the law.

     Many questionable claims for the credit made on amended tax returns were not
     appropriately sent to the IRS’s Examination function for scrutiny. Further, TIGTA
     found additional IRS employees that made questionable claims for the credit.

     TIGTA recommended that the IRS ensure that steps are taken to reconcile their
     prisoner files from year to year. TIGTA also recommended that the IRS ensure that
     erroneous credits received by prisoners and taxpayers claiming homes that do not
     qualify for the credit (including those filed on amended returns) are identified and
     recovered through post-refund examination activities.

     IRS management agreed with the recommendations and planned to take appropriate
     corrective actions.
     Reference No. 2010-41-069

     Additional Actions Are Needed to Ensure Readiness to Comply With the American
     Recovery and Reinvestment Act of 2009 Procurement Requirements
     The IRS received an appropriation of $203 million in Recovery Act funds. TIGTA
     determined that the IRS did not always comply with Recovery Act procurement
     requirements and used annual appropriated funds instead of Recovery Act funds for
     some procurements. As a result, approximately $385,000 were not available for other


56                                                   TIGTA Semiannual Report to Congress
                                                   April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


IRS mission-critical needs, such as improving taxpayer service or addressing the Tax
Gap.

The IRS took some proactive steps before the Recovery Act was enacted in February
2009, and continued to refine its efforts to plan, award and report Recovery Act
procurements during the remainder of calendar year 2009. However, it still does not
have the necessary controls in place to ensure future procurements will comply with
Recovery Act requirements. For example, the IRS has not developed written procedures
regarding Recovery Act procurement requirements, provided formal training for those
procuring goods and services, or dedicated sufficient resources to track and report
Recovery Act procurements.

TIGTA recommended that the IRS strengthen controls for Recovery Act procurements,
including developing written procedures, providing training to both program office and
procurement personnel, and re-evaluating the resources assigned to track and report IRS
Recovery Act procurements.

The IRS agreed with the recommendation and planned to take appropriate corrective
action.
Reference No. 2010-11-071

Health Coverage Tax Credit Recovery Act Provisions Were Timely Implemented,
but Program Capacity Is Limited
The Health Coverage Tax Credit (HCTC) is a refundable tax credit created to assist
certain workers who lost their jobs due to foreign trade and retirees who receive
payments from the Pension Benefit Guaranty Corporation. TIGTA’s review found that
processes were developed to ensure that HCTC payments were timely and accurately
processed. All payments that TIGTA reviewed were sent to the Health Plan
Administrators on time to ensure the continuity of the individual’s health coverage.

TIGTA did recommend, however, that the IRS:

       Develop a process to ensure the accuracy of Health Plan Administrators’
       information on the IRS’s financial system and HCTC financial system;
       Ensure individuals participating in the Advance Monthly Payment Option receive
       accurate HCTC Advance Payments (Form 1099-H) payment information; and
       Identify and resolve unpostable records to ensure eligibility indicators are added
       to individuals’ tax accounts.

IRS management agreed with most of the recommendations, but they disagreed with the
recommendation to ensure that individuals receive accurate Forms 1099-H. IRS
management indicated that individuals receive accurate Forms 1099-H and that the form
is for information only. Notwithstanding IRS management’s response, TIGTA found that

TIGTA Semiannual Report to Congress                                                    57
April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration


     some individuals did receive inaccurate Forms 1099-H. Form 1099-H needs to be
     accurate because individuals use the information on these forms when preparing their tax
     returns.
     Reference No. 2010-41-122




58                                                 TIGTA Semiannual Report to Congress
                                                 April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration

    An Organization that Values Its People




    Deputy Inspector General for Audit Receives Presidential Rank Award from
                    Treasury Deputy Secretary Neal S. Wolin

Each year, the President recognizes and celebrates a small group of career Senior
Executives and senior career employees with the Presidential Rank Award. The
Presidential Rank Award is the highest award for superior performance that is available
for career Senior Executives. Recipients of this prestigious award are strong leaders,
professionals, and scientists who achieve results and consistently demonstrate strength,
integrity, industry and a relentless commitment to excellence in public service. We are
pleased to announce that this year, TIGTA’s own Michael R. Phillips, Deputy Inspector
General for Audit, was the recipient of this prestigious award for Meritorious Service.

Mr. Phillips provides outstanding leadership to the Office of Audit organization that
includes a diverse workforce of 292 audit staff in 26 offices and an overall budget of $36
million. Since becoming a member of the executive cadre in 2002, Mr. Phillips has
served at the Assistant Inspector General and Deputy Inspector General levels. As
Assistant Inspector General (Wage and Investment Income Programs) he focused on
successfully improving his program’s products and services to its stakeholders. He
increased the value, timeliness, and balance of his products while also strengthening
stakeholder communications and relationships with credibility and responsiveness. Since
becoming the Deputy Inspector General of Audit in October 2005, Mr. Phillips has
transformed the Office of Audit by implementing his strategic model which provides a
visionary roadmap for product improvement, performance enhancement, human capital
initiatives, and organizational realignment.

On behalf of all TIGTA employees, we extend our congratulations to Mr. Phillips for this
outstanding achievement.


TIGTA Semiannual Report to Congress                                                     59
April 1, 2010 through September 30, 2010
     Treasury Inspector General for Tax Administration




60                         TIGTA Semiannual Report to Congress
                         April 1, 2010 through September 30, 2010
                 Treasury Inspector General for Tax Administration



                  Audit Statistical Reports
                  Reports with Questioned Costs
 TIGTA issued two audit reports with questioned costs during this semiannual reporting
 period.64 The phrase “questioned costs” means costs that are questioned because of:

        An alleged violation of a provision of a law, regulation, contract, or other
        requirement governing the expenditure of funds;
        A finding, at the time of the audit, that such cost is not supported by adequate
        documentation (an unsupported cost); or
        A finding that expenditure of funds for the intended purpose is unnecessary or
        unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the Government.


                               Reports With Questioned Costs
                                                        Questioned               Unsupported
           Report Category                Number          Costs65                    Costs
                                                      (in thousands)            (in thousands)
1. Reports with no management
decision at the beginning of the
reporting period                             6           $165,418                      $82,147
2. Reports issued during the reporting
period                                           2                $413                   $412
3. Subtotals (Item 1 plus Item 2)                8            $165,831                 $82,559
4. Reports for which a management
decision was made during the reporting
period.66
   a. Value of disallowed costs                  2                 $52                     $0
   b. Value of costs not disallowed              2              $1,142                   $412
5. Reports with no management
decision at the end of the reporting
period (Item 3 minus Item 4)                     5            $164,637                 $82,147
6. Reports with no management
decision within six-months of issuance           5            $164,637                 $82,147
 64
    See Appendix II for identification of audit reports involved.
 65
    “Questioned costs” includes “unsupported costs.”
 66
    Includes one report in which IRS management allowed part of the questioned cost.

 TIGTA Semiannual Report to Congress                                                        61
 April 1, 2010 through September 30, 2010
                         Treasury Inspector General for Tax Administration

          Reports with Recommendations that Funds Be
                        Put to Better Use
     TIGTA issued 10 audit reports during this semiannual reporting period with the
     recommendation that funds be put to better use.67 The phrase “recommendation that
     funds be put to better use” means a recommendation that funds could be used more
     efficiently if management took actions to implement and complete the recommendation,
     including:

                Reductions in outlays;
                Deobligations of funds from programs or operations;
                Costs not incurred by implementing recommended improvements related to
                operations;
                Avoidance of unnecessary expenditures noted in pre-award reviews of contract
                agreements;
                Prevention of erroneous payment of the following refundable credits: Earned
                Income Tax Credit and Child Tax Credit; or
                Any other savings that are specifically identified.
     The phrase “management decision” means the evaluation by management of the findings
     and recommendations included in an audit report, and the issuance of a final decision
     concerning its response to such findings and recommendations, including actions
     concluded to be necessary.

                   Reports With Recommendations That Funds Be Put To Better Use
                                                                                            Amount (in
                              Report Category                                 Number
                                                                                            thousands)
1. Reports with no management decision at the beginning of the
reporting period                                                                  0                   $0
2. Reports issued during the reporting period                                    10           $2,748,642
3. Subtotals (Item 1 plus Item 2)                                                10           $2,748,642
4. Reports for which a management decision was made during the
reporting period
    a. Value of recommendations to which management agreed
             i. Based on proposed management action                               6            $147,210
             ii. Based on proposed legislative action                             0                   $0
     b. Value of recommendations to which management did not agree                4          $2,601,432
5. Reports with no management decision at end of the
    reporting period (Item 3 minus Item 4)                                        0                   $0
6. Reports with no management decision within six-months of issuance              0                   $0

     67
          See Appendix II for identification of audit reports involved.

62                                                           TIGTA Semiannual Report to Congress
                                                           April 1, 2010 through September 30, 2010
                 Treasury Inspector General for Tax Administration

            Reports with Additional Quantifiable
               Impact on Tax Administration
In addition to questioned costs and funds put to better use, OA has identified measures
that demonstrate the value of audit recommendations to tax administration and business
operations. These issues are of interest to IRS and the Department of the Treasury
executives, the Congress, and the taxpaying public, and are expressed in quantifiable
terms to provide further insight into the value and potential impact of OA’s products and
services. Including this information also promotes adherence to the intent and spirit of
the Government Performance and Results Act (GPRA).
Definitions of these additional measures are:

Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on contacts, record keeping, preparation, or costs to
comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining the
accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce cost while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and processing
thereof, used by the organization to plan, monitor, and report on its financial and
operational activities. This measure will often be expressed as an absolute value, i.e.,
without regard to whether a number is positive or negative, of overstatements or
understatements of amounts recorded on the organization’s documents or systems.
Protection of Resources: Safeguarding human and capital assets, used by or in the
custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

TIGTA Semiannual Report to Congress                                                       63
April 1, 2010 through September 30, 2010
                         Treasury Inspector General for Tax Administration


     The number of taxpayer accounts and dollar values shown in the following chart were
     derived from analyses of historical data, and are thus considered potential barometers of
     the impact of audit recommendations. Actual results will vary depending on the timing
     and extent of management’s implementation of the corresponding corrective actions, and
     the number of accounts or subsequent business activities affected as of the dates of
     implementation. Also, a report may have issues that affect more than one outcome
     measure category.

              Reports With Additional Quantifiable Impact on Tax Administration
                                                          Number of
                                        Number of                          Dollar Value
          Outcome Measure Category                68      Taxpayer
                                         Reports                         (in thousands))
                                                           Accounts

     Increased Revenue                                  6                  144,813    $   2,044,394
     Revenue Protection                                 7                   78,997    $    1,701669
     Reduction of Burden on
     Taxpayers                                         25                   62,876    $            0
     Taxpayer Rights and
     Entitlements at Risk                               8                   80,708    $            2
     Taxpayer Privacy and Security                      0                        0    $           0
     Inefficient Use of Resources                       2                        0    $       1,985
     Reliability of Management
     Information                                        5                        0    $            0
     Protection of Resources                            0                        0   $             0

     Management did not agree with the outcome measures in the following reports:
                Increased Revenue: Reference Numbers 2010-30-1104 and 2010-30-118;
                Revenue Protected: Reference Numbers 2010-40-062, 2010-40-117 and 2010-40-
                129; and
                Taxpayer Rights and Entitlements at Risk: Reference Numbers 2010-30-172 and
                2010-30-073.

     The following reports contained quantifiable impacts other than the number of taxpayer
     accounts and dollar value:
                Taxpayer Rights and Entitlements at Risk: Reference Number 2010-30-090;
                Reliability of Management Information: Reference Numbers 2010-40-055 and
                2010-20-099.

     68
          See Appendix II for identification of audit reports involved.

64                                                            TIGTA Semiannual Report to Congress
                                                            April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration



         Investigations Statistical Reports
                                 Significant Investigative Achievements
                                   April 1, 2010 – September 30, 2010

Complaints/Allegations Received by TIGTA

      Complaints against IRS Employees                                                    2,450
      Complaints against Non-Employees                                                    2,505
     Total Complaints/Allegations                                                         4,955

Status of Complaints/Allegations Received by TIGTA
      Investigations Initiated                                                            1,732
      In Process within TIGTA69                                                             137
      Referred to IRS for Action                                                              9
      Referred to IRS for Information Only                                                  940
                                     70
      Referred to a Non-IRS Entity                                                            2
      Closed with No Referral                                                             1,558
      Closed with All Actions Completed                                                     851
     Total Complaints                                                                     5,229

Investigations Opened and Closed
    Total Investigations Opened                                                           1,944
      Total Investigations Closed                                                         2,105

Financial Accomplishments
    Embezzlement/Theft Funds Recovered                                             $142,599,342
      Court Ordered Fines, Penalties and Restitution                                $23,696,382
      Out-of-Court Settlements                                                                0

     Total Financial Accomplishments                                               $166,295,724

Note: The IRS made 75 referrals to TIGTA that would more appropriately be handled by
the IRS, and therefore were returned to the IRS. These are not included in the total
complaints shown above.




69
     Complaints for which final determination had not been made at the end of the reporting period.
70
     A non-IRS entity includes other law enforcement entities or Federal agencies.

TIGTA Semiannual Report to Congress                                                               65
April 1, 2010 through September 30, 2010
                         Treasury Inspector General for Tax Administration

                                     Status of Closed Criminal Investigations
                                                                            Non-
                                                          Employee                               Total
      Criminal Referrals71                                                  Employee
          Referred – Accepted for Prosecution                  40                88               128
           Referred – Declined for Prosecution                379                419              798
           Referred – Pending Prosecutorial Decision           15                 52               67
          Total Criminal Referrals                            434                559              993
          No Referral                                         503                671             1,174

                                            Criminal Dispositions72
                                                         Employee         Non-Employee           Total
      Guilty                                                   25                71                96
      Nolo Contendere (no contest)                              1                 1                 2
      Pre-trial Diversion                                      12                 5                17
                             73
      Deferred Prosecution                                      1                 1                 2
      Not Guilty                                                0                 1                 1
                  74
      Dismissed                                                 1                14                15
      Total Criminal Dispositions                              40                93               133
                                                                                            75
                       Administrative Dispositions on Closed TIGTA Investigations
                                                                                                 Total
      Removed, Terminated or Other                                                                 404
      Suspended/Reduction in Grade                                                                 113
      Oral or Written Reprimand/Admonishment                                                       136
      Closed – No Action Taken                                                                      93
      Clearance Letter Issued                                                                      104
      Employee Resigned Prior to Adjudication                                                      135
      Non-Internal Revenue Service Employee Actions76                                              453
      Total Administrative Dispositions                                                          1,438

     71
        Criminal referrals include both Federal and State dispositions.
     72
        Final criminal dispositions during the reporting period. This data may pertain to investigations
     referred criminally in prior reporting periods and do not necessarily relate to the investigations
     referred criminally in the Status of Closed Criminal Investigations table above.
     73
        Generally, in a deferred prosecution, the defendant accepts responsibility for his or her actions,
     and complies with certain conditions imposed by the court. Upon the defendant’s completion of
     the conditions, the court dismisses the case. If the defendant fails to fully comply, the court
     reinstates prosecution of the charge.
     74
        Court dismissed charges.
     75
        Final administrative dispositions during the reporting period. This data may pertain to
     investigations referred administratively in prior reporting periods and does not necessarily relate
     to the investigations closed in the Investigations Opened and Closed table.
     76
        Administrative actions taken by the IRS against non-IRS employees.

66                                                        TIGTA Semiannual Report to Congress
                                                        April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration



                                             Appendix I
                   Statistical Reports – Other
                  Audit Reports with Significant
                Unimplemented Corrective Actions
  The Inspector General Act of 1978 requires the identification of significant recommendations
  described in previous semiannual reports for which corrective actions have not been
  completed. The following list is based on information from the IRS Office of Management
  Control’s automated tracking system maintained by the Department of the Treasury
  management officials.

                 IRS
              Management                         Projected    Report Title and Recommendation Summary
Reference      Challenge                        Completion    (F = Finding No., R = Recommendation No.,
 Number          Area               Issued         Date                       P = Plan No.)
2001-30-052    Tax Compliance        March                   Program Improvements Are Needed to Encourage Taxpayer
                  Initiatives        2001                    Compliance in Reporting Foreign Sourced Income

                                                  12/15/10   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives
                                                             on foreign sourced income.
2004-20-131   Security of the IRS   September                The Use of Audit Trails to Monitor Key Networks and Systems
                                      2004                   Should Remain Part of the Computer Security Material Weakness

                                                  04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                             reviewing audit trails over major applications.

2005-40-026   Providing Quality     February                 Processes Used to Ensure the Accuracy of Information for
              Taxpayer Service        2005                   Individual Taxpayers on IRS.GOV Need Improvement
                 Operations
                                                  12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized
                                                             personnel have access to IRS.gov content.
                                                  12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’s content management software
                                                             application to provide the ability to identify specific content accessed
                                                             or revised by individual users.

2005-20-024   Security of the IRS    March                   The Disaster Recovery Program Has Improved, But It Should Be
                                     2005                    Reported as a Material Weakness Due to Limited Resources and
                                                             Control Weaknesses

                                                  12/31/10   F-1, R-1, P-1, P-5. Report disaster recovery program material
                                                             weakness to the Department of the Treasury as part of the IRS’s
                                                             Federal Managers’ Financial Integrity Act of 1982 annual evaluation
                                                             of controls and include any new or currently underway activities in the
                                                             corrective action plan.

2005-10-129   Providing Quality     September                Progress Has Been Made, but Further Improvements Are Needed in
              Taxpayer Service        2005                   the Administration of the Low-Income Taxpayer Clinic Grant
                 Operations                                  Program
                                                  01/15/11
                                                             F-1, R-1, P-2. Establish goals and performance measures for the Low-
                                                             Income Taxpayer Clinic program to assist the Congress and IRS in
                                                             evaluating the success of the program.




  TIGTA Semiannual Report to Congress                                                                                     67
  April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration

                  IRS
               Management                          Projected         Report Title and Recommendation Summary
 Reference      Challenge                         Completion         (F = Finding No., R = Recommendation No.,
  Number          Area                Issued         Date                            P = Plan No.)
 2007-30-062     Tax Compliance        March                        Social Security and Medicare Taxes Are Not Being Properly
                    Initiatives        2007                         Assessed on Some Tips and Certain Types of Wage Income

                                                  P-1: 01/15/11     F-3, R-2, P-1, P-2. Develop a compliance program to help ensure only
                                                  P-2: 07/15/11     qualifying individuals use the new form to report wage income and the
                                                                    appropriate amounts of Social Security and Medicare taxes are
                                                                    assessed for self-employed taxpayers or employers that are
                                                                    misclassifying their employees.

 2007-10-082      Tax-Exempt          May 2007                      Screening Tax-Exempt Organizations Filing Information Provides
                  Organizations                                     Minimal Assurance That Potential Terrorist-Related Activities Are
                                                                    Identified

                                                    06/15/11        F-1, R-1, P-1. Develop and implement a long-term strategy to
                                                                    automate the matching of Forms 1023 and 990 information against a
                                                                    consolidated terrorist watch list to initially identify potential terrorist
                                                                    activities related to tax-exempt organizations.

 2007-20-121        Systems            August                       Annual Assessment of the Business Systems Modernization Program
               Modernization of the     2007
                      IRS                           12/31/10        F-1, R-1, P-1. Continue to address Modernization program corrective
                                                                    actions from TIGTA and Government Accountability Office reports
                                                                    through the Highest Priority Initiatives process.

 2008-40-087    Complexity of the      March                        Individual Retirement Account Contributions and Distributions Are
                   Tax Law             2008                         Not Adequately Monitored to Ensure Tax Compliance

                                                    12/15/11        F-1, R-1, P-1. Analyze Forms 5498 to identify the causes of the errors
                                                                    and possible corrective actions.
                                                    03/15/11        F-3, R-2, P-1. Consider requiring custodians to report estimated
                                                                    required minimum distribution amounts on the Form 5498.

 2008-40-167     Tax Compliance        August                       The Withholding Compliance Program Is Improving Taxpayer
                    Initiatives         2008                        Compliance; However, Additional Enforcement Actions Are Needed

                                                    12/15/13        F-2, R-1, P-1. Create a single data entry point for processing
                                                                    Withholding Compliance Program cases and, provide lock-in-letter
                                                                    issuance authority to other IRS functions.

 2008-40-180     Tax Compliance       September                     Most Automated Underreporter Notices Are Correct; However,
                    Initiatives         2008                        Additional Oversight Is Needed

                                                    09/15/11        F-1, R-2, P-1. Simplify the Computer Paragraph 2000 notices issued
                                                                    by the Automated Underreporter Program.

 2009-40-024     Erroneous and        December                      The Earned Income Program Has Made Advances, However,
               Improper Payments        2008                        Alternatives To Traditional Compliance Methods Are Needed to Stop
                                                                    Billions of Dollars in Erroneous Payments

                                                    12/15/11        F-1, R-1, P-1. Conduct a study to identify alternative processes that
                                                                    will expand the IRS’s ability to effectively and efficiently identify and
                                                                    adjust erroneous EITC claims for which data show that the taxpayer
                                                                    does not meet the EITC requirements.

 2009-10-041     Human Capital        February                      Workforce Planning Efforts Are Hindered by Lack of
                                        2009                        Comprehensive Information on Employee Skills Levels

                                                    09/30/10        F-1, R-1, P-1. Develop a workable process that can be used for the
                                                                    Agency-wide skills gap assessment of Mission Critical Occupations.




68                                                               TIGTA Semiannual Report to Congress
                                                               April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

                 IRS
              Management                          Projected       Report Title and Recommendation Summary
Reference      Challenge                         Completion       (F = Finding No., R = Recommendation No.,
 Number          Area                Issued         Date                          P = Plan No.)
2009-30-068        Taxpayer          May 2009                    Expanded Information Reporting Should Increase the Proper
                  Compliance                                     Reporting of Farm Income, But Additional Steps Could Be Taken
                   Initiatives
                                                   03/15/11      F-2, R-1, P-1. Develop compliance strategies to ensure more
                                                                 Commodity Credit Corporation income payments are properly
                                                                 reported.
2009-40-087   Taxpayer Protection    June 2009                   Inadequate Management Information Has Adversely Affected the
                  and Rights                                     Acceptance Agent Program

                                                   12/15/10      F-1, R-2, P-1. Develop procedures and internal controls to monitor the
                                                                 Acceptance Agent Program to ensure all rules and regulations are
                                                                 being followed and the Program is operating as intended.

2009-10-107        Improving         July 2009                   Controls Over Real Property Management Have Improved;
                Performance and                                  However, Additional Efforts Are Needed to Address Planned Staffing
               Financial Data for                                Increases
              Program and Budget                   06/15/13
                   Decisions                                     F-1, R-2, P-1. Develop a comprehensive national policy regarding
                                                                 workstation sharing for the flexi-place program and the ratio of flexi-
                                                   01/15/14      place employees to a shared workstation.
                                                                 F-1, R-4, P-1. Develop procedures requiring that building level
                                                                 projected space needs assessments include consideration of the impact
                                                                 of workstation sharing, and be periodically reconciled in total to
                                                                 Agency-wide projected staffing levels.
2009-20-102        Systems            August                     Changing Strategies Led to the Termination of the My IRS Account
              Modernization of the     2009                      Project
                     IRS
                                                   10/15/10      F-1, R-1, P-1. Complete a long-term strategy for the My IRS Account
                                                                 project.

2009-30-106     Erroneous and         August                     More Progress Is Needed to Reduce the Millions of Dollars Paid in
              Improper Payments        2009                      Interest on Improperly Frozen Refunds

                                                   01/15/11      F-1, R-1, P-2. Ensure employees receive periodic computer alerts to
                                                                 review large dollar frozen taxpayer accounts for credits that can be
                                                                 released and that the freeze on accounts is systemically released when
                                                                 credits fall below the threshold by implementing agreed-upon
                                                                 computer programming modifications.

2009-40-112        Taxpayer           August                     Mortgage Interest Data Could Be Used to Pursue More Nonfilers
                  Compliance           2009                      and Underreporters
                   Initiatives
                                                 P-1: 12/15/11   F-1, R-1, P-1, P-2. Explore the feasibility of making greater use of
                                                 P-2: 12/15/10   mortgage interest data to pursue additional nonfilers and underreporters
                                                                 for audit.




  TIGTA Semiannual Report to Congress                                                                                       69
  April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration

                  IRS
               Management                         Projected         Report Title and Recommendation Summary
 Reference      Challenge                        Completion         (F = Finding No., R = Recommendation No.,
  Number          Area               Issued         Date                            P = Plan No.)
 2009-10-121        Improving        September                     The Taxpayer Advocate Service Should Reevaluate the Roles of Its
                 Performance and       2009                        Staff and Improve the Administration of the Taxpayer Advocacy
                Financial Data for                                 Panel
               Program and Budget                  11/15/10
                    Decisions                                      F-1, R-1, P-1. Revise its time tracking system and require the staff to
                                                   07/15/11        track hours by activity.
                                                                   F-1, R-2, P-2, P-3. Re-evaluate the structure and size to ensure an
                                                                   appropriate balance between staff and budgetary resources used to
                                                   11/15/11        support the Panel.
                                                                   F-2, R-1, P-1. Re-evaluate the roles of staff assigned to assist the Panel
                                                                   and establish guidance to ensure that the Panel functions
                                                   10/15/10        independently.
                                                                   F-3, R-1, P-3. Establish and implement a process to validate data in the
                                                                   database on an annual basis, before issuing the Panel’s annual report.
                                                   01/15/11        F-3, R-2, P-1. Establish a process to follow up with the IRS on the
                                                                   Panel’s recommendations under consideration for future
                                                   10/15/10        implementation.
                                                                   F-4, R-1, P-1, P-2, P-3. Establish and follow formal guidance for
                                                                   conducting tax compliance checks to include using the IDRS as a tool
                                                   01/15/11        for accomplishing this.
                                                                   F-4, R-2, P-1. Develop procedures for verifying the good standing of
                                                                   licensed practitioners serving on the Panel.


 2009-40-130   Processing Returns    September                     Repeated Efforts to Modernize Paper Tax Return Processing Have
               and Implementing        2009                        Been Unsuccessful; However, Actions Can Be Taken to Increase
               Tax Law Changes                                     Electronic Filing and Reduce Processing Costs
                 During the Tax
                 Filing Season                     01/15/11        F-1, R-2, P-1. Refocus the Modernized Submission Processing
                                                                   Concept to include implementing a process to convert paper filed tax
                                                                   returns prepared by individuals using a tax preparation software
                                                                   package into an electronic format.

 2009-40-131     Erroneous and       September                     Increased Automated Controls Could Further Improve
               Improper Payments       2009                        Accountability Over Manual Refunds

                                                   01/15/11        F-1, R-2, P-1. Ensure the requestor’s employee identification number
                                                                   is captured in electronic data files for non-IDRS manual refunds.
                                                   01/15/11        F-1, R-3, P-1. Establish a process to regularly obtain the electronic
                                                                   data file that includes key information relative to those non-IDRS
                                                                   manual refunds for use in monitoring the manual refund program.
                                                   01/15/11        F-2, R-1, P-1. Develop a process to provide for a systemic managerial
                                                                   approval to increase accountability.




70                                                              TIGTA Semiannual Report to Congress
                                                              April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

                 IRS
              Management                         Projected    Report Title and Recommendation Summary
Reference      Challenge                        Completion    (F = Finding No., R = Recommendation No.,
 Number          Area               Issued         Date                       P = Plan No.)
2009-40-138   Taxpayer Protection   September                Combat Zone Indicators on Taxpayer Accounts Are Frequently
                  and Rights          2009                   Inaccurate

                                                  01/15/12   F-2, R-1, P-1. Improve the process of identifying joint filers serving in
                                                             the military to properly identify which individual(s) is/are in a Combat
                                                             Zone to ensure appropriate enforcement actions are taken.
                                                  01/15/12   F-2, R-2, P-1. Improve the process of ensuring that Combat Zone
                                                             indicators are reversed when an exit date is received from the
                                                             Department of Defense (DOD) for those individuals who file a joint
                                                             tax return but do not maintain the same order of primary and secondary
                                                  01/15/12   taxpayer.
                                                             F-3, R-1, P-1. Discontinue providing the option to taxpayers of self-
                                                             identifying by annotating a tax return with “Combat Zone” and
                                                             continue to provide individuals with the option of self-identifying by
                                                  12/15/11   telephone or electronically.
                                                             F-3, R-2, P-1. Take action to correct the 339,027 taxpayers with
                                                  01/15/12   inaccurate Combat Zone indicators that were incorrectly reactivated.
                                                             F-4, R-1, P-1. Develop a process to identify and resolve unpostable
                                                             records when entry and exit date information provided by the DOD is
                                                  01/15/12   unable to be posted to an individual’s tax account.
                                                             F-4, R-2, P-1. Take actions to resolve the 458 DOD Combat Zone
                                                             transactions posted to invalid Social Security Numbers and revise the
                                                             DOD validation process to ensure accurate posting of entry and exit
                                                  12/15/11   date information.
                                                             F-5, R-1, P-1. Develop a process to validate Combat Zone service
                                                  01/15/12   when an individual self-identifies.
                                                             F-5, R-2, P-1. Improve the process for individuals who self-identify
                                                             their Combat Zone service by e-mail by establishing a secure fillable
                                                             form with the required data fields.

2009-10-139     Erroneous and       September                Controls Over the Contracting Officer’s Technical Representative
              Improper Payments       2009                   Workforce Were Ineffective, Resulting in Significant Risks to the
                                                             Government

                                                  12/15/10   F-1, R-2, P-1. Identify all IRS employees Agency-wide performing
                                                             COTR-related duties and ensure that they are formally delegated
                                                             authority by the responsible CO on their procurement duties,
                                                             appropriately trained, and certified in accordance with Federal
                                                             acquisition requirements.
                                                  12/15/10   F-2, R-1, P-1. Re-evaluate their current approach and expand the
                                                             reviews of COTR contract files to ensure that reviews are routinely
                                                             performed to substantiate that relevant, accurate, and complete
                                                             documentation is being received, verified, and retained to support the
                                                             contractors’ billed expenses.
                                                  12/15/10   F-3, R-1, P-1. Ensure that supervisors are knowledgeable of the
                                                             oversight requirements for the contracts their employees are assigned
                                                             to monitor and evaluate all aspects of their employees’ contract
                                                             management performance.
                                                  12/15/10   F-4, R-1, P-1. Ensure that consistent ongoing on-the-job support is
                                                             provided for newly selected or less experienced COTRs to enable the
                                                             COTRs to learn and effectively perform their responsibilities.




  TIGTA Semiannual Report to Congress                                                                                    71
  April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

                  IRS
               Management                      Projected            Report Title and Recommendation Summary
 Reference      Challenge                     Completion            (F = Finding No., R = Recommendation No.,
  Number          Area             Issued        Date                               P = Plan No.)
 2010-40-005   Providing Quality   December                        Individual Taxpayer Identification Numbers Are Being Issued
               Taxpayer Service      2009                          Without Sufficient Supporting Documentation

                                                  08/15/12         F-3, R-1, P-1. Ensure the data on the Real-Time System are accurate
                                                                   and validate the records that indicate an agent submitted the application
                                                                   to ensure that the Individual Taxpayer Identification Number Program
                                                                   has accurate and reliable data to oversee the Program.
                                                  08/15/12         F-3, R-2, P-1. Develop procedures and internal controls to monitor the
                                                                   Real-Time System to ensure information entered is accurate.

 2010-10-012       Taxpayer        December                        Additional Process Improvements Are Needed Due to Continued
                  Compliance         2009                          Growth in the Voluntary Correction Program for Retirement Plans
                   Initiatives
                                              P-2, P-3: 09/30/11   F-1, R-1, P-2, P-3, P-5. Ensure the Voluntary Correction Program
                                                P-5: 09/30/10      provides timely service to those in the retirement plan community who
                                                                   are attempting to bring their retirement plans into compliance with tax
                                                                   exempt laws.

 2010-40-017     Erroneous and     January                         Insufficient and Inexperienced Staff Could Reduce the Ability to
               Improper Payments    2010                           Detect and Stop Fraudulent Refunds

                                                  11/15/11         F-1, R-1, P-1. Perform a comprehensive analysis during the 2010
                                                                   Filing Season to determine the average time to complete one unit of
                                                                   work for each of the transitioned activities.

 2010-30-024       Taxpayer        February                        Significant Tax Issues Are Often Not Addressed During
                  Compliance         2010                          Correspondence Audits of Sole Proprietors
                   Initiatives
                                                  10/15/10         F-1, R-1, P-1. Require examiners to conduct and document, in audit
                                                                   case files, checks to identify unfiled employment tax and information
                                                                   returns, including consideration given to transferring the audit to the
                                                                   field if issues are identified.
                                                  10/15/10         F-1, R-2, P-1. Require examiners to conduct and document, in audit
                                                                   case files, the results of preliminary cash transaction analysis, including
                                                                   consideration given to transferring the audit to the field if issues are
                                                                   identified.
                                                  10/15/10         F-1, R-3, P-1. Expand controls that provide assurances that examiners
                                                                   are properly performing checks for unfiled employment tax and
                                                                   information returns and conducting preliminary cash transaction
                                                                   analysis so corrective actions can be identified and taken, if needed.
 2010-30-023       Taxpayer         March                          Lien Determinations Were Untimely or Not Made Appropriately For
                  Compliance        2010                           Over $1.4 Billion in Delinquent Taxes
                   Initiatives
                                                  12/15/10         F-2, R-1, P-1. Remind Revenue Officers to use valid lien
                                                                   determination criteria when closing cases as currently not collectible.
                                                  04/15/11         F-3, R-1, P-1. Consider assessing liens on those modules in the queue
                                                                   with a balance due between $5,000 and $25,000 that meet the study
                                                                   criteria before shelving.

 2010-30-025       Taxpayer         March                          Employment Tax Compliance Could Be Improved With Better
                  Compliance        2010                           Coordination and Information Sharing
                   Initiatives
                                                  01/15/11         F-1, R-1, P-1. Create an audit code to flag paper returns that have an
                                                                   incomplete Form 8919 attached.
                                                  01/15/12         F-1, R-4, P-1. Ensure that paper and electronically filed returns with
                                                                   Forms 8919 attached are compared to filed Forms SS-8 through a post-
                                                                   filing compliance program. Ensure that paper returns flagged during
                                                                   processing are reviewed and any noncompliance is addressed.




72                                                             TIGTA Semiannual Report to Congress
                                                             April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

                 IRS
              Management                      Projected    Report Title and Recommendation Summary
Reference      Challenge                     Completion    (F = Finding No., R = Recommendation No.,
 Number          Area               Issued      Date                       P = Plan No.)
2010-20-027   Taxpayer Protection    March                Additional Security Is Needed For Access to the Registered User
                  and Rights         2010                 Portal
                                               06/15/11
                                                          F-1, R-1, P-1. Require suitability checks on delegated users who e-file
                                                          tax returns or access the e-Services incentive products and disable the
                                                          principal consent feature on e-Services that allows a user to propagate
                                               11/15/10   his or her privileges to other users.
                                                          F-1, R-2, P-1. Stop overturning the Fraud Detection Center’s
                                                          recommendations and revise the appeal procedures for e-file applicants
                                               01/15/11   and other tax professionals who fail their suitability check.
                                                          F-1, R-3, P-1. Enhance the e-file application on the Third Party Data
                                                          Store to post the complete results of the Automated Suitability
                                               12/15/10   Analysis Program’s spouse tax compliance check.
                                                          F-1, R-4, P-1. Disable and delete inactive accounts in accordance with
                                                          IRS procedures or follow the IRS’s risk-based decision procedures to
                                                          obtain the required thorough assessment, recommendation, and
                                                          approval from the Modernization and Information Technology
                                               01/15/11   Services Cybersecurity office.
                                                          F-1, R-5, P-1. Make passwords more difficult to guess by
                                                          unauthorized individuals and decrease the use of Social Security
                                               01/15/11   Numbers as usernames.
                                                          F-1, R-6, P-1. Implement a control to allow users to answer a series of
                                                          challenge questions to unlock their accounts.
2010-20-028   Security of the IRS    March                Additional Security Controls Are Needed to Protect the Automated
                                     2010                 Collection System

                                               12/01/11   F-1, R-3, P-1. Make the identity access provisioning and management
                                                          solution to enhance the OL5081 system or acquire a commercial off-
                                                          the-shelf software product a top priority.
                                               01/01/11   F-2, R-1, P-1. Set completion dates and prioritize the work needed to
                                                          complete the high level and Automated Collection System (ACS)
                                                          configuration management plans.
                                               01/01/11   F-2, R-3, P-1. Manage and protect critical system documentation from
                                                          unauthorized changes by storing all critical ACS system
                                                          documentation in the DocIt system.
                                               01/01/11   F-2, R-4, P-1. Identify the key software configuration items, assign
                                                          unique identifiers, and maintain the items in the Clear Case system to
                                                          facilitate efficient tracking, monitoring, and other configuration
                                                          management activities.
                                               01/01/11   F-2, R-5, P-1. Ensure the required change management procedures are
                                                          followed for all changes to the ACSWeb.
2010-30-032       Taxpayer           March                Collection Alternatives Were Available to Economically Distressed
                 Compliance          2010                 Taxpayers, but Some New Processes Need Improvement
                  Initiatives
                                               09/15/12   F-1, R-1, P-1, P-2. Submit a request to revise the computer
                                                          programming to allow taxpayers only one additional automatic skip
                                                          per 12-month period and include only individual taxpayers in the
                                                          processing routine.




  TIGTA Semiannual Report to Congress                                                                                73
  April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration

                  IRS
               Management                      Projected         Report Title and Recommendation Summary
 Reference      Challenge                     Completion         (F = Finding No., R = Recommendation No.,
  Number          Area               Issued      Date                            P = Plan No.)
 2010-10-039   Leveraging Data to     March                     Internal Accounting Errors Reduced the Federal Funding Available
                Improve Program       2010                      for Unemployment Benefits by $63 Million During Fiscal Years 2005
                Effectiveness and                               Through 2009
                  Reduce Costs
                                                10/15/10        F-1, R-1, P-1. Update the procedures used by the IRS business units to
                                                                calculate their Unemployment Trust Fund (UTF) administrative
                                                                expenses.
                                                10/15/10        F-1, R-2, P-1. Provide instruction that the audit file and the supporting
                                                                documentation be maintained in a central location to facilitate the
                                                                effective location and retrieval of the files when performing a review.
                                                10/15/10        F-1, R-3, P-1. Implement a policy to routinely review documentation
                                                                supporting the summary cost reports submitted by IRS business units
                                                                to ensure the accuracy of the information submitted in the summary
                                                                reports.
                                                10/15/10        F-1, R-4, P-1. Determine if new versions of the Form 940 are
                                                                developed, incorporate any new versions of the Form 940 into its
                                                                procedures, and review summary cost reports to ensure new versions of
                                                                the Form 940 are included in the calculation of UTF administrative
                                                10/15/10        expenses.
                                                                F-2, R-1, P-1. Ensure a cost accounting capability that supports the
                                                                ability to readily track, record and report UTF expenses is considered
                                                                during the development of future financial accounting system
                                                                requirements.
 2010-40-042   Taxpayer Protection    March                     The Screening and Monitoring of E-File Providers Has Improved,
                   and Rights         2010                      but More Work Is Needed to Ensure the Integrity of the E-File
                                                                Program
                                                11/15/10
                                                                F-1, R-1, P-1. Ensure the not-for-profit status is verified for all e-file
                                              P-1:   10/15/10   program applicants.
                                              P-2:   09/15/11   F-2, R-1, P-1, P-2. Implement controls to ensure that the monitoring
                                              P-1:   10/15/10   visit procedures are being followed.
                                              P-2:   09/15/11   F-2, R-2, P-1, P-2. Ensure information reported is accurate and the
                                                                results of the monitoring visits are used to improve and measure the
                                                                effectiveness of the e-file Program.
 2010-40-043       Taxpayer           March                     A Service-wide Strategy Is Needed to Address Growing
                  Compliance          2010                      Noncompliance With Individual Retirement Account Contribution
                   Initiatives                                  and Distribution Requirements

                                                10/15/12        F-1, R-1, P-1. Ensure a Service-wide strategy is developed to address
                                                                retirement provision noncompliance.

 2010-40-045   Security of the IRS    March                     Telephone Authentication Practices Need Improvement to Better
                                      2010                      Prevent Unauthorized Disclosures

                                                01/15/11        F-1, R-2, P-1. Emphasize during training that assistors should not
                                                                prematurely authenticate callers when using the Account Management
                                                                Services. Also, train assistors on the importance of controlling calls.
                                                01/15/11        F-2, R-1, P-1. Emphasize during training that assistors should place
                                                                callers on hold while conducting research and should develop
                                                                guidelines that require assistors to ask callers to repeat Personally
                                                                Identifiable Information if clarification is needed. Also, if an assistor
                                                                has to repeat information back to a caller, it should be limited to only
                                                                partial information.
                                                01/15/11        F-3, R-1, P-1. Incorporate available technology to authenticate callers
                                                                in the queue as part of the development of the Authentication Retention
                                                                Project.




74                                                           TIGTA Semiannual Report to Congress
                                                           April 1, 2010 through September 30, 2010
                 Treasury Inspector General for Tax Administration



                  Other Statistical Reports
      The Inspector General Act of 1978 requires Inspectors General
                     to address the following issues:

                        Issue                                        Result for TIGTA

Access to Information
Report unreasonable refusals of information            As of September 30, 2010, there were no
available to the Agency that relate to programs and    instances where information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.


Disputed Audit Recommendations
                                                       As of September 30, 2010, there was one
Provide information on significant management
                                                       instance where significant recommendations
decisions in response to audit recommendations with
                                                       were disputed.
which the Inspector General disagrees.


Revised Management Decisions
Provide a description and explanation of the reasons   As of September 30, 2010, no significant
for any significant revised management decisions       management decisions were revised.
made during the reporting period.


Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of September 30, 2010, there were no
Provide a summary of each audit report issued
                                                       prior reports where management’s response
before the beginning of the current reporting period
                                                       was not received.
for which no management response has been
received by the end of the current reporting period.


Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed
Review existing and proposed legislation and
                                                       380 proposed regulations and legislative
regulations, and make recommendations concerning
                                                       requests during this reporting period.
the impact of such legislation or regulations.




TIGTA Semiannual Report to Congress                                                          75
April 1, 2010 through September 30, 2010
     Treasury Inspector General for Tax Administration




76                         TIGTA Semiannual Report to Congress
                         April 1, 2010 through September 30, 2010
                  Treasury Inspector General for Tax Administration



                                    Appendix II
                           Audit Products
                April 1, 2010 – September 30, 2010

                                            Audit Products
Reference Number                                            Report Title
                April 2010
                   Payments Processed Through the Remittance Strategy for Paper Check Conversion Are Posted
  2010-40-048
                   Accurately, but Deposit Timeliness Needs Improvement
                   More Management Information Is Needed to Improve Oversight of Automated Collection
  2010-30-046
                   System Outbound Calls
  2010-30-050      Most Unpaid Taxes of Participants in the Troubled Asset Relief Program Have Been Resolved
                 May 2010
                   Implementing Best Practices and Additional Controls Can Improve Data Center Energy
  2010-20-044
                   Efficiency and the Environmental and Energy Program (Funds Put to Better Use: $3,172,872)
                   Fiscal Year 2010 Review of Compliance With Legal Guidelines When Conducting Seizures of
  2010-30-049      Taxpayers’ Property (Taxpayer Rights and Entitlements: 14 seizures not in compliance with
                   legal and internal provisions)
                   Accountability Over Volunteer Program Computers Has Significantly Improved, but Providing
  2010-40-053
                   Computers to Volunteers Presents Many Challenges
                   Additional Actions Are Needed to Measure and Evaluate the Impact of the Pay-for-
  2010-10-054
                   Performance System on Recruiting, Retaining, and Motivating Highly Skilled Leaders
                   Current Practices Are Preventing a Reduction in the Volume of Undeliverable Mail (Reliability
  2010-40-055
                   of Information: 4.1 million notices sent to known bad addresses)
                   Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or
  2010-20-051
                   Disclosure
                   Recovery Act Provisions for the Health Coverage Tax Credit Were Implemented, but
  2010-21-057
                   Development Processes Could Be Improved
                   Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but
  2010-20-041
                   System Development and Security Need Improvement
                 June 2010
   2010-30-060     Fiscal Year 2010 Statutory Review of Restrictions on Directly Contacting Taxpayers
                   Accuracy-Related Penalties Are Seldom Considered Properly During Correspondence Audits
   2010-30-059     (Increased Revenue: $17.5 million impacting 9,255 taxpayers)
                   Measurable Progress Has Been Made in Addressing Federal Financial Management
                   Improvement Act Noncompliance; However, Significant Challenges Remain
   2010-10-065     (Reliability of Information: Reported and actual resource estimate difference of $18.3 million)
                   Implementation of General Support System Security Controls Needs Improvement to Protect
   2010-20-063     Taxpayer Data
                   Plans Exist to Engage the Tax Preparer Community in Reducing the Tax Gap; However,
   2010-30-061     Enhancements Are Needed
   2010-30-066     Trends in Compliance Activities Through Fiscal Year 2009
   2010-30-067     Filing Characteristics and Examination Results for Small Business Corporate Returns
                   The Implementation of the Five-Year Net Operating Loss Carryback Claim Provisions Were
                   Generally Effective
   2010-41-070

  TIGTA Semiannual Report to Congress                                                                    77
  April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration

                      Additional Efforts Are Needed to Implement the Electronics Stewardship Program and
                      Maximize the Energy Efficiency of Desktop Computer Equipment (Funds Put to Better Use:
      2010-20-056     $18,270,932)
      2010-30-068     Fiscal Year 2010 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
                      Additional Steps Are Needed to Prevent and Recover Erroneous Claims for the First-Time
      2010-41-069     Homebuyer Credit
                      The Internal Revenue Service Oversight Board Has Taken Actions to Improve Its Financial
                      Management, but Continuing Weaknesses Were Identified (Questioned Costs: $420; Funds Put
      2010-10-052     to Better Use: $2,178,976)
                      The Criminal Investigation Division Can Take Steps to Ensure Its Seizure Opportunities Are
      2010-30-058     Maximized
                      Additional Actions Are Needed to Ensure Readiness to Comply With the American Recovery
                      and Reinvestment Act of 2009 Procurement Requirements (Inefficient Use of Resources:
      2010-11-071     $385,421)
                    July 2010
                      Trends in the Criminal Investigation Division’s Enforcement Activities Showed Improvements;
     2010-30-074
                      However, Some Goals Were Not Attained
                      The Internal Revenue Service Is Improving Management Controls for Information Technology
     2010-20-064
                      Strategic Planning and Capital Investments
                      Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due Process (Taxpayer
     2010-30-072      Rights and Entitlements: 75,847 notices were not sent timely, to authorized representatives, or
                      to taxpayers’ updated addresses)
                      Better Use of Available Third-Party Data Could Identify and Prevent More Than One Billion
     2010-40-062      Dollars in Potentially Erroneous Refunds (Funds Put to Better Use: $1.175 billion; Revenue
                      Protection: $17 million impacting 6,406 taxpayers)
                      Tax-Exempt User Fee Processing Improved for Dishonored Checks and Refund of
     2010-10-085      Overpayments (Taxpayer Rights and Entitlements: $1,730 in user fee overpayments not
                      refunded to 13 taxpayers)
     2010-11-083      Initial Build America Bond Subsidy Payments Were Processed Accurately and Timely
                      The Office of Appeals Has Improved Compliance Within Its Collection Due Process Program;
                      However, Some Improvement Is Still Needed (Taxpayer Rights and Entitlements: 4,273 cases
     2010-10-075      that did not contain required or sufficient documentation or with Collection Statute date
                      improperly extended; Increased Revenue: 2,048 cases with Collection Statute date improperly
                      extended)
                      Fiscal Year 2010 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of
     2010-30-073      Illegal Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 192
                      taxpayer accounts in which an illegal Tax Protestor or similar designation was used)
                      Fiscal Year 2010 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of
     2010-30-076
                      Records of Tax Enforcement Results
                      Concerns About Contracting Officer’s Technical Representatives That Are Relevant to the
     2010-11-087
                      American Recovery and Reinvestment Act of 2009 Procurements
                      Additional Actions and Resources Are Needed to Resolve the Audit Trail Portion of the
     2010-20-082
                      Computer Security Material Weakness
                    August 2010
                      The Office of Disclosure Continues to Improve Compliance With the Freedom of Information
     2010-30-090      Act Requirements (Taxpayer Right and Entitlements: 98 improperly denied FOIA or Privacy
                      Act requests)
     2010-10-097      Statistical Trends in Retirement Plans
                      Target Dates Have Not Been Established to Eliminate or Reduce Taxpayer Social Security
     2010-40-098
                      Numbers From Outgoing Correspondence
     2010-10-081      A Statistical Portrayal of the Taxpayer Advocate Service for Fiscal Years 2005 Through 2009


78                                                        TIGTA Semiannual Report to Congress
                                                        April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration

                A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time
                Homebuyer Credit Repayment Requirements (Funds Put to Better Use: $36.6 million; Taxpayer
2010-41-086
                Burden: 59,802 taxpayers that could receive notices due to incorrect recording of purchase
                date)
                Improvements Are Needed to Reduce Erroneous Foreign Earned Income Exclusion Claims
2010-40-091
                (Revenue Protection: $450 million impacting 23,334 taxpayers)
                Surveys of Taxpayers With Tax Account Issues Indicate They Are Satisfied With the Service
2010-40-100
                They Received at Taxpayer Assistance Centers
                Collection Actions for In-Business Trust Fund Accounts Closed as Currently Not Collectible
2010-30-095
                Need Improvement (Increased Revenue: $650 million impacting 10,245 taxpayers)
                Classifiers Are Eliminating Less Productive Tax Returns From the Audit Stream, but Their
2010-30-096
                Work Needs Closer Monitoring
                Fiscal Year 2010 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights
                When Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 173
2010-30-103
                files not documented to show whether taxpayers or representatives were advised of rights
                regarding assessment statutes)
                More Actions Are Needed to Correct the Security Roles and Responsibilities Portion of the
2010-20-084
                Computer Security Material Weakness
2010-30-089     Plans for Evaluating the Use of Soft Notices in Addressing Underreporting Can Be Enhanced
              September 2010
                The Federal Student Aid Datashare Application Was Successfully Deployed, but Improvements
2010-20-099     in Systems Development Disciplines Are Needed (Reliability of Information: number of test
                cases corrected to 472)
                Improvements to the Volunteer Program Are Producing Positive Results, but Further
2010-40-109     Improvements Are Needed to the Quality Assurance Process (Funds Put to Better Use:
                $3,098,835)
                Toll-Free Telephone Access Exceeded Expectations, but Access for Hearing- and Speech-
2010-40-108     Impaired Taxpayers Could Be Improved
                System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation of
2010-40-111     the Modernized e-File System for Individual Tax Return Processing
                Actions Are Being Taken to Address the Impact That International Financial Reporting
2010-30-112     Standards Will Have on Tax Administration
                Treasury Inspector General for Tax Administration’s Federal Information Security
2010-20-101     Management Act (Non-Intelligence National Security Systems) Report for Fiscal Year 2010
                Tests for Unreported Income During Sole Proprietor Field Audits Can Be Strengthened
2010-30-105     (Increased Revenue: $41 million impacting 851 taxpayers)
                Chief Counsel Can Take Actions to Improve the Timeliness of Private Letter Rulings and
2010-10-106     Potentially Reduce the Number Issued (Taxpayer Burden: 3,074 taxpayers did not receive
                timely responses)
                The Internal Revenue Service Should Strengthen Processes for Managing Recovery Act Funds
2010-21-110     Used for the Health Coverage Tax Credit (Questioned Costs: $412,107)
                Improvements Have Been Made to the Recruitment Process, but Continued Focus and
2010-10-113     Additional Enhancements Are Needed
2010-1C-077     Contractor’s Asset Management System
2010-1C-078     Adequacy and Compliance of Revised Disclosure Statement Number 6, Dated July 31, 2008
2010-1C-079     Financial Capability Detail Risk Assessment
2010-1C-080     Contractor’s Compensation System
                Procurement Audit Results Indicate Problems Continue to Exist After Corrective Actions Were
2010-10-088
                Implemented
2010-1C-092     Noncompliance With Cost Accounting Standard 404, Capitalization of Tangible Assets
                Calendar Years 2010 Through 2019 Forward Pricing Direct Labor Rates and Calendar Years
2010-1C-093
                2010 Through 2013 Forward Pricing Indirect Expense Rates


TIGTA Semiannual Report to Congress                                                              79
April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration

                   Adequacy and Compliance of the Contractor’s Fiscal Year 2010 Revised Disclosure Statement,
     2010-1C-107
                   Version 10-01
                   The Internal Revenue Service Can Make Better Use of Defense Contract Audit Agency Reports
     2010-10-115   (Reliability of Information: Documentation not provided to support $355,507 in contractor
                   repayments)
                   Actions Can Be Taken to Improve the Identification of Tax Return Preparers Who Submit
     2010-40-116
                   Improper Earned Income Tax Credit Claims (Funds Put to Better Use: $125,660,285)
                   Multiple Use of Taxpayer Identification Numbers Continues to Result in Significant Erroneous
     2010-40-117   Exemptions and Credits (Funds Put to Better Use: $1,297,598,700; Revenue Protection:
                   $605,082,280)
                   Previously Reported Acquisition Concerns That Are Relevant to the American Recovery and
     2010-11-102
                   Reinvestment Act of 2009 Procurements
                   Improvements Are Needed to Verify Refunds to Nonresident Aliens Before the Refunds Are
     2010-40-121
                   Sent Out of the United States (Revenue Protection: $6,260,352 impacting 146 taxpayers)
                   Currency Report Data Can Be a Good Source for Audit Leads (Increased Revenue:
     2010-30-104
                   $1,334,176,111 impacting 121,574 taxpayers)
     2010-1C-114   Contractor’s Labor Floor Check for Fiscal Year 2009
     2010-30-119   Coordination and Procedures for Foreclosures Can Be Improved
     2010-1C-126   Compliance With Cost Accounting Standard 409, Depreciation of Tangible Capital Assets
     2010-20-094   Annual Assessment of the Business Systems Modernization Program
                   Many Taxpayers Who Were Not Eligible Received Additional Education Credits Intended for
     2010-40-123   Those Attending Schools in Midwestern Disaster Areas (Revenue Protection: $55,773,489
                   impacting 48,940 taxpayers)
                   Health Coverage Tax Credit Recovery Act Provisions Were Timely Implemented, but Program
     2010-41-122
                   Capacity Is Limited
                   Although Citibank Travel Rebates Have Significantly Increased, They Were Not Properly
     2010-10-124   Allocated, Resulting in the Misappropriation of Funds (Funds Put to Better Use: $3,161,592;
                   Reliability of Information: $3,161,592 in rebates that cannot be validated)
                   Internal Controls for Surveying Tax Returns With Abusive Tax Avoidance Transactions Need
     2010-30-118   to Be Strengthened (Increased Revenue: $1,718,640 impacting 840 taxpayers; Taxpayer Rights
                   and Entitlements: 196 taxpayers contacted prior to survey)
                   Federal Guidelines Do Not Prohibit the Awarding of Contracts to Contractors With Delinquent
     2010-30-120
                   Tax Liabilities
                   New Legislation Could Affect Filers of the Report of Foreign Bank and Financial Accounts,
     2010-30-125
                   but Potential Issues Are Being Addressed
     2010-1C-130   Labor Interviews
     2010-40-127   It Will Take Years to Implement the Return Preparer Program and to Realize Its Impact
                   Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season
     2010-41-128   (Funds Put to Better Use: $83.9 million; Revenue Protection: $453,220 impacting 171
                   taxpayers)
                   Expanded Access to Wage and Withholding Information Can Improve Identification of
     2010-40-129   Fraudulent Tax Returns (Revenue Protection: $567.1 million; Inefficient Use of Resources:
                   $1.6 million)




80                                                    TIGTA Semiannual Report to Congress
                                                    April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration



                                Appendix III
    TIGTA’s Statutory Reporting Requirements
TIGTA issued 13 audit reports as required by statute that address the adequacy and security
of IRS technology during this reporting period. In FY 2010, TIGTA completed its 12th round
of statutory reviews which are required annually by the RRA 98. It also completed its annual
review of the Federal Financial Management Improvement Act of 1996 and its annual review
of the Office of National Drug Control Policy Detailed Accounting Submission and
Assertions. The following table reflects the FY 2010 statutory reviews:

       Reference to            Explanation of
                                                           Comments/TIGTA Audit Status
    Statutory Coverage          the Provision

   Enforcement Statistics      Requires TIGTA to        Reference No. 2010-30-076, July 2010
                               evaluate the IRS’s       The IRS did not achieve full compliance with
   I.R.C. § 7803(d)(1)(A)(i)   compliance with          §1204(a) requirements. TIGTA identified violations
                               restrictions under       of RRA 98 § 1204(a) in three of the 1,074 employee
                               § 1204 of RRA 98 on      or manager performance evaluation documents
                               the use of               reviewed. TIGTA found documentation that
                               enforcement statistics   managers included a record of tax enforcement
                               to evaluate IRS          results in three employees’ performance evaluation
                               employees.               documents.

                                                        The IRS did achieve full compliance with §1204(b)
                                                        and (c) requirements. The IRS evaluated all
                                                        employees on the fair and equitable treatment of
                                                        taxpayers and prepared quarterly self-certifications
                                                        showing that record of tax enforcement results were
                                                        not used to evaluate employees.

                                                        In a judgmental sample of 31 employees, seven
                                                        (23 percent) did not understand the term “retention
                                                        standard” and 11 (35 percent) were not sure if they
                                                        had received training on the retention standard.




TIGTA Semiannual Report to Congress                                                                            81
April 1, 2010 through September 30, 2010
                      Treasury Inspector General for Tax Administration

         Reference to             Explanation of
                                                                Comments/TIGTA Audit Status
      Statutory Coverage           the Provision

     Restrictions on Directly     Requires TIGTA to          Reference No. 2010-30-060, June 2010
     Contacting Taxpayers         evaluate the IRS’s         The IRS informed taxpayers of their rights related to
                                  compliance with            I.R.C. §§ 7521(b)(2) and (c) through various
     I.R.C. § 7803(d)(1)(A)(ii)   restrictions under         publications. However, between October 2008 and
                                  I.R.C. § 7521 on           September 2009, TIGTA’s Office of Investigations
                                  directly contacting        closed three complaints and found that IRS employees
                                  taxpayers who have         who improperly bypassed taxpayer representatives
                                  indicated they prefer      were either counseled or reprimanded for their
                                  their representatives be   actions. TIGTA also reviewed a judgmental sample
                                  contacted.                 of 30 cases that were closed by IRS field examiners in
                                                             FY 2009 and found one additional instance where a
                                                             taxpayer’s representative was bypassed.
                                                             This is the 12th year in which TIGTA has reported its
                                                             inability to give an opinion on how well the IRS is
                                                             complying with the I.R.C. restrictions on direct
                                                             contact because of limitations with the IRS’s
                                                             management information systems. In considering the
                                                             significance of this limitation, it is equally important
                                                             to recognize that the IRS has policies, procedures, and
                                                             techniques (internal control activities) in place at the
                                                             agency and operational levels that are designed to help
                                                             ensure its personnel adhere to the direct contact
                                                             provisions of I.R.C. §§ 7521(b)(2) and (c).

                                                             At the top of the agency, the IRS’s mission statement
                                                             and supporting policy statements provide nationwide
                                                             guidance to IRS compliance and other personnel who
                                                             have contact with taxpayers. To supplement agency-
                                                             level mission and policy statements, the IRS uses, and
                                                             periodically updates, the Internal Revenue Manual
                                                             (IRM) and numerous taxpayer publications. Both the
                                                             IRM and taxpayer publications are available online
                                                             and are designed to provide guidance nationwide to
                                                             IRS personnel and taxpayers alike.

                                                             At the operational level, the first-line managers over
                                                             IRS collectors and examiners (enforcement personnel)
                                                             are a key control because they are responsible for
                                                             ensuring that the personnel they supervise follow
                                                             procedures and that their work meets acceptable
                                                             standards. To assist managers in ensuring procedures
                                                             are followed and standards are met, the IRM requires
                                                             managers to conduct reviews over the work of the
                                                             personnel they supervise both while it is in process
                                                             and after it is completed. These control techniques, as
                                                             TIGTA has previously reported, help identify
                                                             problems so prompt corrective actions, if needed, can
                                                             be taken.




82                                                         TIGTA Semiannual Report to Congress
                                                         April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration

       Reference to              Explanation of
                                                           Comments/TIGTA Audit Status
    Statutory Coverage            the Provision

   Filing of a Notice of Lien    Requires TIGTA to      Reference No. 2010-30-072, July 2010
                                 evaluate the IRS’s     TIGTA reviewed a statistically valid sample of 125
   I.R.C. § 7803(d)(1)(A)(iii)   compliance with        Federal Tax Liens (FTL) filed for the 12-month period
                                 required procedures    ending June 30, 2009, and determined that the IRS
                                 under I.R.C. § 6320    mailed substantially all of the 125 NFTLs in a timely
                                 upon the filing of a   manner, as required by I.R.C. § 6320. However, there
                                 Notice of a Federal    were some errors which could result in violations of
                                 Tax Lien (NFTL).       taxpayers’ rights. TIGTA estimated that 15,169
                                                        NFTL filed during the same period could have been
                                                        mailed late.

                                                        In addition, the IRS did not always follow its own
                                                        regulations for notifying taxpayers’ representatives
                                                        that a FTL had been filed. IRS regulations require
                                                        taxpayer representatives be given copies of all
                                                        correspondence issued to the taxpayer. For eight of
                                                        the 31 cases in the statistically valid sample where the
                                                        taxpayer had an authorized representative, the IRS did
                                                        not notify the taxpayer’s representative that a lien had
                                                        been filed. The IRS does not have an automated
                                                        process that updates taxpayer representative
                                                        information directly to the system that generates the
                                                        NFTLs. TIGTA estimated that 60,675 taxpayer
                                                        representatives may not have been provided NFTLs,
                                                        resulting in potential violations of taxpayers’ right to
                                                        have their representative notified.

                                                        When an initial NFTL is returned because it could not
                                                        be delivered and a different address is available for the
                                                        taxpayer, the IRS does not always meet its statutory
                                                        requirement to send the NFTL to the taxpayer’s last
                                                        known address. TIGTA identified some cases for
                                                        which a new NFTL should have been sent to the
                                                        taxpayer at the updated address because IRS systems
                                                        listed the address before the FTL was filed. The cases
                                                        could involve legal violations because the IRS did not
                                                        meet its statutory requirement to send NFTLs to the
                                                        taxpayer’s last known address.




TIGTA Semiannual Report to Congress                                                                                 83
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

         Reference to               Explanation of
                                                                  Comments/TIGTA Audit Status
      Statutory Coverage             the Provision

     Extensions of the Statute of   Requires TIGTA to          Reference No. 2010-30-103, August 2010
     Limitations for Assessment     include information        Over the past five fiscal years, the IRS has improved
     of Tax                         regarding extensions       its compliance with requirements for documenting
                                    of the statute of          that taxpayers were informed of their rights to refuse
     I.R.C. § 7803(d)(1)(C)         limitations for            to extend the period of limitations or to limit such
                                    assessment of tax          extension to a particular issue or to a particular period
     I.R.C. § 6501(c)(4)(B)         under I.R.C. § 6501        of time. The percentage of case files without
                                    and the provision of       documentation decreased from FY 2006 to FY 2010.
                                    notice to taxpayers
                                    regarding the right to     For FY 2010, taxpayer files for five (5 percent) of the
                                    refuse or limit the        111 taxpayers in TIGTA’s statistical sample did not
                                    extension to               contain sufficient documentation to indicate whether
                                    particular issues or a     taxpayers were advised of their rights before
                                    particular period of       consenting to extend the time to assess tax. In all five
                                    time.                      taxpayer cases, the taxpayer’s representative signed
                                                               Consent to Extend the Time to Assess Tax (Form
                                                               872) or Consent to Extend the Time to Assess
                                                               Employment Taxes (Form SS-10), both of which
                                                               contain a statement detailing the taxpayer’s rights
                                                               regarding extending the assessment statute of
                                                               limitation. However, there was no evidence in the
                                                               case files that the taxpayers themselves were advised
                                                               of their rights, as required by IRS procedures.

                                                               In addition, the sample included taxpayers’ files
                                                               containing authorizations for third-party
                                                               representation. TIGTA found that 2.67 percent of the
                                                               taxpayers’ files did not contain sufficient
                                                               documentation that the taxpayers’ representatives
                                                               were provided with the required notifications. For
                                                               these taxpayers, IRS management officials informed
                                                               TIGTA that some employees may have overlooked
                                                               the fact that the required information was not
                                                               documented in the case file or the documents were
                                                               separated from the case files.


     Levies                         Requires TIGTA to          Reference No. 2010-30-068, June 2010
                                    evaluate the IRS’s         The IRS is protecting taxpayers’ rights when issuing
     I.R.C.§ 7803(d)(1)(A)(iv)      compliance with            systemically generated and manually prepared levies.
                                    required procedures        TIGTA reviewed 30 systemically generated levies
                                    under I.R.C.               identified through the Automated Collection System
                                    § 6330 regarding           and Integrated Collection System and determined that
                                    levies.                    systemic controls were effective to ensure that the
                                                               taxpayers were given notice of their appeal rights at
                                                               least 30 calendar days before the levies were issued In
                                                               addition, TIGTA identified 60 manual levies issued
                                                               by employees on those same systems and determined
                                                               that all the taxpayers were given notice of their appeal
                                                               rights at least 30 calendar days before the levies were
                                                               issued.




84                                                             TIGTA Semiannual Report to Congress
                                                             April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration

       Reference to                 Explanation of
                                                                Comments/TIGTA Audit Status
    Statutory Coverage               the Provision

   Collection Due Process           Requires TIGTA to        Reference No. 2010-10-075, July 2010
                                    evaluate the IRS’s       The Office of Appeals continues to show
   I.R.C.§ 7803(d)(1)(A)(iii) and   compliance with          improvement in complying with the statutory
   (iv)                             required procedures      requirements for its Collection Due Process
                                    under I.R.C. §§ 6320     program. TIGTA determined that Appeals
                                    and 6330 regarding the   classified most taxpayer requests properly; as a
                                    taxpayers’ rights to     result, these taxpayers received the appropriate
                                    appeal lien or levy      type of hearing. Also, in most cases, Appeals
                                    actions.                 personnel input the proper computer coding to
                                                             identify the taxpayer requests were received and
                                                             completed. However, hearing officers did not
                                                             always document their impartiality as required. As
                                                             a result, there is a risk of prior involvement in the
                                                             taxpayer’s case and a potential lack of
                                                             independence. Finally, on taxpayer accounts, the
                                                             Collection Statute Expiration Date was extended
                                                             longer than the length of the Collection Due
                                                             Process hearing, a potential violation of taxpayer
                                                             rights.


   Seizures                         Requires TIGTA to        Reference No. 2010-30-049, May 2010
                                    evaluate the IRS’s       TIGTA reviewed a random sample of 50 of the 578
   I.R.C.§ 7803(d)(1)(A)(iv)        compliance with          seizures conducted from July 1, 2008, through
                                    required procedures      June 30, 2009, to determine whether the IRS is
                                    under I.R.C. §§ 6330     complying with legal and internal guidelines when
                                    through 6344 when        conducting seizures. The review included a total of
                                    conducting seizures.     58 guidelines for each seizure. TIGTA determined
                                                             that in the majority of seizures, the IRS followed all
                                                             guidelines applicable to the respective case. However,
                                                             in 17 seizures, there were 22 instances in which the
                                                             IRS did not comply with a particular I.R.C.
                                                             requirement. While TIGTA did not identify any
                                                             instances in which the taxpayers were adversely
                                                             affected, not following legal and internal guidelines
                                                             could result in abuses of taxpayers’ rights.

                                                             After the seizure of property, the IRS is required to
                                                             provide the taxpayer a Notice of Seizure (Form 2433)
                                                             that specifies the liability for which the seizure was
                                                             made and an accounting of the property seized. The
                                                             liability should be the total amount due for all accruals
                                                             and the tax modules listed on the Levy (Form 668-B).
                                                             In seven cases, the Notice of Seizure (Form 2433)
                                                             provided to the taxpayer did not show the correct
                                                             liability.

                                                             Money realized from the seizure of property is
                                                             required to be applied first to expenses of the
                                                             seizure and sale, second against any unpaid tax
                                                             imposed by IRS law against the property seized,
                                                             and finally against the liability for which the
                                                             seizure was made. TIGTA identified seven
                                                             instances in which expenses and proceeds were not
                                                             properly applied to the taxpayer’s account.


TIGTA Semiannual Report to Congress                                                                                      85
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

         Reference to             Explanation of
                                                               Comments/TIGTA Audit Status
      Statutory Coverage           the Provision

     Taxpayer Designations –      An evaluation of the      Reference No. 2010-30-073, July 2010
     Illegal Tax Protester        IRS’s compliance          The IRS has not reintroduced past Illegal Tax
     Designation and Nonfiler     with restrictions         Protester codes or similar designations on taxpayer
     Designation                  under § 3707 of           accounts. In addition, IRS publications and the IRM
                                  RRA 98 on                 no longer contain any Illegal Tax Protester references.
     I.R.C. § 7803(d)(1)(A)(v)    designation of            However, TIGTA found that out of approximately
                                  taxpayers.                80.6 million records and cases, there were 196
                                                            instances in which 163 employees had referred to
                                                            taxpayers as “Tax Protester,” “Constitutionally
                                                            Challenged,” or other similar designations in case
                                                            narratives on the computer systems analyzed.

                                                            The IRS did take the positive step of modifying the
                                                            Integrated Collection System so that prohibited
                                                            protester designations could not be entered into case
                                                            histories. This is significant because this system has
                                                            historically accounted for a large number of the
                                                            exceptions that TIGTA identified in prior reviews.


     Disclosure of Collection     Requires TIGTA to         Reference No. 2010-30-026, February 2010
     Activities With Respect to   review and certify        IRS procedures provide employees with sufficient
     Joint Returns                whether the IRS is        guidance for handling joint filer collection activity
                                  complying with I.R.C.     information requests. However, TIGTA could not
     I.R.C. § 7803(d)(1)(B)       § 6103(e)(8) to           determine whether the IRS fully complied with
                                  disclose information to   I.R.C. § 6103(e)(8) requirements when responding
     I.R.C. § 6103(e)(8)          an individual filing a    to all written information requests from joint filers.
                                  joint return on           IRS management information systems do not
                                  collection activity       separately record or monitor joint filer requests,
                                  involving the other       and there is no legal requirement for the IRS to do
                                  individual filing the     so. TIGTA does not recommend the creation of a
                                  return.                   separate tracking system.

     Taxpayer Complaints          Requires TIGTA to         Statistical results on the number of taxpayer
                                  include in each of its    complaints received are shown on page 66.
     I.R.C. § 803(d)(2)(A)        Semiannual Reports to
                                  Congress the number
                                  of taxpayer complaints
                                  received and the
                                  number of employee
                                  misconduct and
                                  taxpayer abuse
                                  allegations received by
                                  the IRS or TIGTA
                                  from taxpayers, IRS
                                  employees and other
                                  sources.




86                                                         TIGTA Semiannual Report to Congress
                                                         April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration

       Reference to                Explanation of
                                                                Comments/TIGTA Audit Status
    Statutory Coverage              the Provision

   Administrative or Civil         Requires TIGTA to         Reference No. 2010-10-037, March 2010
   Actions With Respect to the     include information       The Fair Tax Collection Practices (FTCP)
   Fair Tax Collection Practices   regarding any             provisions of I.R.C. § 6304 prohibit employees
   Act of 1996                     administrative or civil   from using abusive or harassing behavior toward
                                   actions with respect to   taxpayers when attempting to collect taxes.
   I.R.C.§ 7803(d)(1)(G)           violations of the fair    Employees who are found to have violated the
                                   debt collection           FTCP could be subject to disciplinary action.
   I.R.C. § 6304 and §3466 of      provision of I.R.C.       From January through September 2009, IRS
   RRA 98                          § 6304, including a       Collection employees did not violate the FTCP
                                   summary of such           statute. The IRS coded only three cases as FTCP
                                   actions, and any          complaints; however, two cases were not
                                   resulting judgments or    substantiated as FTCP violations and the other was
                                   awards granted.           improperly coded as an FTCP case. TIGTA
                                                             recommended the miscoding be fixed during the
                                                             audit and the IRS corrected the miscoding. In
                                                             addition, there were no civil actions resulting in
                                                             monetary settlements being paid to taxpayers
                                                             because of an FTCP violation. As a result,
                                                             taxpayers have reasonable assurance that
                                                             communications with the IRS in connection with
                                                             the collection of unpaid taxes generally did not
                                                             violate the FTCP statute.


   Denial of Requests for          Requires TIGTA to         Reference No. 2010-30-090, August 2010
   Information                     include information       The IRS continued to improve the accuracy and
                                   regarding improper        completeness of its responses to requests for
   I.R.C. § 7803(d)(1)(F)          denial of requests for    information covered by the Freedom of Information
                                   information from the      Act (FOIA). While improvement was noted,
   I.R.C. § 7803(d)(3)(A)          IRS, based on a           management needs to ensure that disclosure personnel
                                   statistically valid       continue to follow required procedures on all requests.
                                   sample of the total       In 1.3 percent (one of 76 cases) of the FOIA/Privacy
                                   number of                 Act cases that TIGTA reviewed, information was
                                   determinations made       improperly withheld from the requestors. The error
                                   by the IRS to deny        occurred mainly because of inadequate research or
                                   written requests to       simple oversight by Disclosure office personnel. The
                                   disclose information to   IRS also did not fully adhere to the legal requirements
                                   taxpayers on the basis    under I.R.C. § 6103.
                                   of I.R.C. § 6103 or
                                   5 U.S.C. § 552(b)(7).     Since FY 2000, the IRS has made significant
                                                             improvement in responding timely to FOIA and
                                                             Privacy Act requests. In all FOIA and Privacy
                                                             requests reviewed, a timely response was provided.
                                                             In TIGTA’s audits over the previous 10 years, the
                                                             percentages of untimely responses ranged from 1.2
                                                             percent to 43.5 percent. The increase in
                                                             responsiveness may, in part, be due to the
                                                             continued decrease in the numbers of FOIA and
                                                             Privacy Act cases received during FY 2009
                                                             compared to FY 2008 and the prior years when this
                                                             review has been conducted.




TIGTA Semiannual Report to Congress                                                                                    87
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration

         Reference to               Explanation of
                                                                 Comments/TIGTA Audit Status
      Statutory Coverage             the Provision

     Adequacy and Security of the   Requires TIGTA to         Information Technology Reviews:
     Technology of the IRS          evaluate the IRS’s        Reference Number 2010-20-007, November 2009
                                    adequacy and security     Reference Number 2010-20-001, December 2009
     I.R.C. § 7803(d)(1)(D)         of its technology.        Reference Number 2010-20-041, May 2010
                                                              Reference Number 2010-20-044, May 2010
                                                              Reference Number 2010-21-057, May 2010
                                                              Reference Number 2010-20-056, June 2010
                                                              Reference Number 2010-20-064, July 2010
                                                              Reference Number 2010-20-095, September 2010
                                                              Reference Number 2010-20-099, September 2010
                                                              Reference Number 2010-21-110, September 2010

                                                              Security Reviews:
                                                              Reference Number 2010-20-004, October 2009
                                                              Reference Number 2010-20-003, November 2009
                                                              Reference Number 2010-20-027, March 2010
                                                              Reference Number 2010-20-028, March 2010
                                                              Reference Number 2010-20-051, May 2010
                                                              Reference Number 2010-20-063, June 2010*
                                                              Reference Number 2010-20-082, July 2010*
                                                              Reference Number 2010-20-084, September 2010
                                                              Reference Number 2010-20-101, September 2010

                                                              *Final Reports issued to the IRS, but not issued
                                                              publicly at this time due to potential Sensitive But
                                                              Unclassified designation.


     Federal Financial              Requires TIGTA to         Reference No. 2010-10-065, June 2010
     Management Improvement         evaluate the financial    The FFMIA remediation plan is a critical part of
     Act of 1996 (FFMIA)            management systems        the IRS’s efforts to bring its financial management
                                    to ensure compliance      systems into compliance with the FFMIA and to
     31 U.S.C. § 3512               with Federal              provide reliable and timely financial data. Overall,
                                    requirements, or          the IRS still faces significant challenges in its
                                    establishment of a        efforts to comply with the FFMIA. In addition,
                                    remediation plan with     TIGTA’s analysis of the IRS’s September 30,
                                    resources, remedies,      2009, FFMIA remediation plan found that the IRS
                                    and intermediate target   continues to experience difficulties in developing
                                    dates to bring the IRS    resource estimates for remediation actions. For
                                    into substantial          example, five resource estimates, totaling $84.3
                                    compliance.               million, were not supported by detailed and
                                                              verifiable documentation. Complete and reliable
                                                              financial information is critical to the IRS’s ability
                                                              to accurately reflect on the results of its operations
                                                              to both internal and external stakeholders,
                                                              including taxpayers.




88                                                            TIGTA Semiannual Report to Congress
                                                            April 1, 2010 through September 30, 2010
                    Treasury Inspector General for Tax Administration

       Reference to                   Explanation of
                                                                  Comments/TIGTA Audit Status
    Statutory Coverage                 the Provision

   Office of National Drug            Requires TIGTA to        Reference No. 2010-10-022, January 2010
   Control Policy Detailed            authenticate the IRS’s   TIGTA reviewed the IRS’s ONDCP Detailed
   Accounting Submission and          Office of National       Accounting Submission and Performance
   Assertions                         Drug Control Policy      Summary Report for FY 2009, which ended
                                      (ONDCP) detailed         September 30, 2009. The IRS is responsible for
   National Drug Enforcement          accounting               preparing this report. Based on the review, nothing
   Policy 21 U.S.C. § 1704(d) and     submission and           came to TIGTA’s attention that caused it to believe
   the Office of National Drug        assertions.              that the assertions in the Report were not presented
   Control Policy Circular entitled                            in all material respects in accordance with
   Annual Accounting of Drug                                   ONDCP-established criteria. The IRS reported that
   Control Funds, dated                                        it expended $60.6 million on ONDCP-related
   April 18, 2003.                                             activities and completed 652 ONDCP-related
                                                               investigations in FY 2009. For FY 2009, the IRS
                                                               also reported it participated in 462 ONDCP-related
                                                               cases that resulted in convictions.




TIGTA Semiannual Report to Congress                                                                                   89
April 1, 2010 through September 30, 2010
     Treasury Inspector General for Tax Administration




90                         TIGTA Semiannual Report to Congress
                         April 1, 2010 through September 30, 2010
                  Treasury Inspector General for Tax Administration



                                     Appendix IV
                           Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee
if there is a final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a removal for
cause on charges of misconduct.

Misconduct violations include:

         Willfully failing to obtain the required approval signatures on documents authorizing the seizure
         of a taxpayer’s home, personal belongings, or business assets;
         Providing a false statement under oath with respect to a material matter involving a taxpayer or
         taxpayer representative;
         Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any
         right under the Constitution of the United States, or any civil right established under Title VI or
         VII of the Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age
         Discrimination in Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or
         504 of the Rehabilitation Act of 1973; or Title I of the Americans with Disabilities Act of 1990;
         Falsifying or destroying documents to conceal mistakes made by any employee with
         respect to a matter involving a taxpayer or taxpayer representative;
         Committing assault or battery on a taxpayer, taxpayer representative, or other employee
         of the IRS, but only if there is a criminal conviction or a final judgment by a court in a
         civil case, with respect to the assault or battery;
         Violating the Internal Revenue Code of 1986, as amended (the Code), the Department of the
         Treasury regulations, or policies of the IRS (including the Internal Revenue Manual) for the
         purpose of retaliating against or harassing a taxpayer, taxpayer representative, or other
         employee of the IRS;
         Willfully misusing provisions of § 6103 of the Code for the purpose of concealing information
         from a congressional inquiry;
         Willfully failing to file any return of tax required under the Code on or before the date
         prescribed therefore (including any extensions), unless such failure is due to reasonable cause
         and not to willful neglect;
         Willfully understating Federal tax liability, unless such understatement is due to reasonable
         cause and not to willful neglect; and
         Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to decide whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial proceeding.

TIGTA Semiannual Report to Congress                                                                        91
April 1, 2010 through September 30, 2010
     Treasury Inspector General for Tax Administration




92                         TIGTA Semiannual Report to Congress
                         April 1, 2010 through September 30, 2010
                 Treasury Inspector General for Tax Administration



                                    Appendix V
            Implementing Section 989C of the
           Dodd-Frank Wall Street Reform and
                 Consumer Protection Act
         Inspector General Peer Review Activity
           April 1, 2010 – September 30, 2010
Last Peer Review Conducted on TIGTA Office of Audit
As part of the three-year cycle of independent peer reviews,77 the last peer review report
covering the TIGTA Office of Audit was issued February 3, 2010, by the Office of
Inspector General, United States Environmental Protection Agency. There were no
recommendations included in the System Review Report. Their report stated:

“In our opinion, the system of quality control for the audit organization of TIGTA in
effect for the year ended March 31, 2009, has been suitably designed and complied with
to provide TIGTA with reasonable assurance of performing and reporting in conformity
with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. TIGTA has
received a peer review rating of pass.”

Last Peer Review Conducted by TIGTA Office of Audit
The TIGTA Office of Audit was not involved in any peer review work during the
reporting period. TIGTA issued its last Reviewing Inspector General report on
September 22, 2009, to the Housing and Urban Development Office of Inspector General
(HUD OIG). There were no recommendations included in the System Review Report.
The report stated:

“In our opinion, the system of quality control in effect for the year ended March 31,
2009, for the audit organization of the HUD OIG has been suitably designed and
complied with to provide the HUD OIG with reasonable assurance of performing and


77
   The Council of Inspectors General on Integrity and Efficiency (CIGIE) Audit Committee
administers the external peer review program under generally accepted government auditing
standards (GAGAS) for Federal Offices of Inspector General. GAGAS requires audit
organizations that perform audits or attestation engagements in accordance with GAGAS to have
an appropriate system of quality control and to undergo external peer reviews at least once every
three years. GAGAS prescribes: (1) the elements of the scope of the peer review, including
performing a risk assessment to help determine the number and types of engagements to select;
(2) the requirements for reporting on the results of the peer review; (3) the qualifications of review
staff; and (4) the distribution of peer review reports. GAGAS also prescribes requirements for
granting extensions of deadlines for submitting peer review reports.

TIGTA Semiannual Report to Congress                                                                 93
April 1, 2010 through September 30, 2010
                     Treasury Inspector General for Tax Administration


     reporting in conformity with applicable professional standards in all material respects.
     Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.
     The HUD OIG has received a peer review rating of pass.”

     Last Peer Review Conducted on TIGTA Office of Investigations
     As part of the three-year cycle of independent peer reviews, the last peer review report
     covering the TIGTA Office of Investigations was issued August 20, 2008, by the United
     States Department of Justice, Office of Inspector General. There were no outstanding
     recommendations included in the Report on the External Quality Assessment Review.
     Their report stated:

     “In our opinion, the system of internal safeguards and management procedures for the
     investigative function of the Treasury Inspector General for Tax Administration in effect
     for the year ended March 31, 2007 is in compliance with the quality standards established
     by the PCIE/ECIE, the CIGIE, and the Attorney General guidelines. These safeguards
     and procedures provide reasonable assurance of conforming with professional standards
     in the conduct of its investigations.”

     Last Peer Review Conducted by TIGTA Office of Investigations
     The TIGTA Office of Investigations is currently conducting the peer review of the
     Department of Labor, Office of Inspector General. The anticipated completion date for
     this review is December 2010.




94                                                    TIGTA Semiannual Report to Congress
                                                    April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration



                              Appendix VI
              Data Tables Provided by the IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow
the memorandum contain information that the IRS provided to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations
Tracking System (ALERTS) for the period from April 1, 2010 through September 30,
2010. Also, data concerning substantiated RRA 98 §1203 allegations for the same period
are included. IRS management conducted inquiries into the cases reflected in these
tables.




TIGTA Semiannual Report to Congress                                                 95
April 1, 2010 through September 30, 2010
                          Treasury Inspector General for Tax Administration

          Reports of Employee Misconduct for the Period
            April 1, 2010 through September 30, 2010
                  Summary by Disposition Groups
                   (Tables Provided by the IRS)
        Disposition            TIGTA              Administrative    Employee         Background      Totals
                            Investigations           Cases         Tax Matter       Investigations
                                                                     Cases
Removal                                      33              120                7                8        168
Separation of
Probationary/Temporary
Employees                                    5               147                4               24        180
Resignation/Retirement                       62              170             20                 42        294
Suspensions                              118                 306            100                  8        532
Reprimands                               126                 452            294                 29        901
Counseling                                                   281            363                 92        736
Alternative Discipline                       21               67             34                  2        124
Clearance                                    95              130                                 1        226
Closed Without Action                    181                 242             73               304         800
Closed Without Action
(Caution Statement)                      199                 185             88               214         686
Forwarded to TIGTA                                             6                                 1            7
Suspended – Waiting
Supplemental                                 1                                                                1
Termination for
Abandonment of Position                                       82                                              82
Termination- Other Than
Job Abandonment                                                4                                              4
FORWARDED TO
OPM FOR MIF                                                                                      1            1
Case Suspended Pending
Employee Return to Duty                      2                 6                                              8
Total                                    843               2,198            983               726        4,750

  Source: Automated Labor and Employee Relations Tracking System (ALERTS)
  This report is being produced in accordance with 26 U.S.C. § 7803(d)(2) and § 4(a)2 of
  Treasury Delegation Order 115-01, January 14, 1999
  Extract Date: Monday, October 04, 2010           Report ID = T1R3a




   96                                                     TIGTA Semiannual Report to Congress
                                                        April 1, 2010 through September 30, 2010
                 Treasury Inspector General for Tax Administration

 Reports of Employee Misconduct for the Period
   April 1, 2010 through September 30, 2010
               National Summary
          (Tables Provided by the IRS)


                                                           Cases Closed
                                  Conduct
     Inventory        Opening                                          Closing
                                   Cases                        Non-
     Case Type       Inventory             Conduct                    Inventory
                                  Received         Duplicates Conduct
                                            Issues
                                                               Issues

 TIGTA
 Investigations
 ROI78                      509         804        (843)            (1)         (1)          468
 Administrative
 Case79                     745        2,167     (2,198)           (23)         (7)          684
 Employee Tax
 Compliance
 Case80                     466         979        (985)           (11)         (0)          449
 Background
 Investigations81           347         545        (726)            (8)         (0)          158
 Total                    2,067        4,495     (4,752)           (43)         (8)        1,759

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 U.S.C. § 7803(d)(2) and § 4(a)2 of
Treasury Delegation Order 115-01, January 14, 1999
Extract Date: Monday, October 04, 2010      Report ID = T1R1


78
   TIGTA investigations (ROI) - Any matter involving an employee in which TIGTA conducted an
investigation into alleged misconduct and referred a Report of Investigation (ROI) to IRS for
appropriate action.
79
   Administrative case – Any matter involving an employee in which management conducted an
inquiry into alleged misconduct.
80
   Employee tax compliance case – Any conduct matter that is identified by the Employee Tax
Compliance program which becomes a matter of official interest.
81
   Background investigation – Any matter involving an National Background Investigations Center
(NBIC) investigation into an employee’s background that is referred to management for
appropriate action.

TIGTA Semiannual Report to Congress                                                          97
April 1, 2010 through September 30, 2010
                         Treasury Inspector General for Tax Administration

                       Summary of Substantiated
                    I.R.C. Section 1203 Allegations
                  Recorded in ALERTS for the Period
              April 1, 2010 through September 30, 2010
                     (Tables Provided by the IRS)
                                                               Removed                           In
   § 1203                         Resigned/     Probation                      Penalty
                   Removals                                    On Other                       Personnel       Total
  Violation                        Retired      Separation                    Mitigated82
                                                               Grounds                         Process
Seizure Without
Approval                      0             0              0              0               0              0        0
False Statement
Under Oath                    0             0              0              0               0              0        0
Constitutional
& Civil Rights
Issues                        0             0              0              1               0              0        1
Falsifying or
Destroying
Records                       0             1              0              1               0              1        3
Assault or
Battery                       0             0              0              0               0              0        0
Retaliate or
Harass                        0             0              0              1               0              0        1
Misuse of §
6103                          0             0              0              0               0              0        0
Failure to
Timely
File/Understate
ment of Tax
Liability                     6             5              1              8              27              20      67
Threat to Audit
for Personal
Gain                          0             0              0              0               0              0        0

Totals                        6             6              1             11              27              21      72

         Source: Automated Labor and Employee Relations Tracking System (ALERTS) and
         1203 Review Board records.
         Extract Date: Monday, October 04, 2010



         82
            The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any
         third-party appeal.

   98                                                       TIGTA Semiannual Report to Congress
                                                          April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration



                   Glossary of Acronyms
ACS                          Automated Collection System

ASCLD - LAB                  American Society of Crime Laboratory Directors –
                             Laboratory Accreditation Board

ATAT                         Abusive Tax Avoidance Transactions

BIC                          Beneficiaries in Common

CADE                         Customer Account Data Engine

CAF                          Central Authorization File

CI                           Criminal Investigation

CIGIE                        Council of Inspectors General on Integrity and Efficiency

CIS                          Computer Investigative Support

COOP                         Continuity of Operations Plan

COTR                         Contracting Officer’s Technical Representative

CTR                          Currency Transaction Reports

DAIGI                        Deputy Assistant Inspector General for Investigations

DDV                          Due Diligence Visit

DOD                          Department of Defense

EITC                         Earned Income Tax Credit

FAST                         Firearms, Agent Safety and Tactics

FBAR                         Foreign Bank and Financial Accounts Report

FBI                          Federal Bureau of Investigation

FFMIA                        Federal Financial Management and Improvement Act of
                             1996

TIGTA Semiannual Report to Congress                                                  99
April 1, 2010 through September 30, 2010
                   Treasury Inspector General for Tax Administration


      FOIA                  Freedom of Information Act

      FSL                   Forensic Science Lab

      FTB                   Franchise Tax Board

      FTCP                  Fair Tax Collection Practice

      FTL                   Federal Tax Liens

      FY                    Fiscal Year

      GAGAS                 Generally Accepted Government Auditing Standards

      GSA                   General Services Administration

      HCTC                  Health Coverage Tax Credit

      HUD                   Housing and Urban Development

      ICE                   Immigration and Customs Enforcement

      IFRS                  International Financial Reporting Standards

      ICS                   Integrated Collection System

      I&E                   Inspections and Evaluations

      IG                    Inspector General

      I.R.C. or Code        Internal Revenue Code

      IRM                   Internal Revenue Manual

      IRS-CI                Internal Revenue Service Criminal Investigations

      IRS                   Internal Revenue Service

      IT                    Information Technology


      LOC                   Letter of Comment


100                                         TIGTA Semiannual Report to Congress
                                          April 1, 2010 through September 30, 2010
               Treasury Inspector General for Tax Administration


MEF                          Modernized E-File

NBIC                         National Background Investigations Center

NFTL                         Notice of Federal Tax Liens

OA                           Office of Audit

OCC                          Office of Chief Counsel

OI                           Office of Investigations

OIG                          Office of the Inspector General

OMB                          Office of Management and Budget

ONDCP                        Office of National Drug Control Policy

PCIE                         President’s Counsel on Integrity and Efficiency

PTO                          Pure Trust Organizations

RO                           Revenue Officer

ROI                          Report of Investigation

RRA 98                       Internal Revenue Service Restructuring and Reform Act of
                             1998

SAC                          Special Agent-in-Charge

S&A                          Springer and Associates

SINART                       System Intrusion and Network Response Team

SSN                          Social Security Number

SSN ER                       Social Security Number Elimination and Reduction

TAS                          Taxpayer Advocate Service

TECS                         Treasury Enforcement Communications System



TIGTA Semiannual Report to Congress                                               101
April 1, 2010 through September 30, 2010
                 Treasury Inspector General for Tax Administration


      TFSD                Technical and Firearms Support Division

      TIGTA               Treasury Inspector General for Tax Administration

      TSCM                Technical Surveillance Counter Measures

      TTY/ TDD            Tele-typewriter/ Telecommunications Device for the Deaf

      UNAX                Unauthorized accesses to confidential tax information

      UNTF                Unemployment Trust Fund




102                                       TIGTA Semiannual Report to Congress
                                        April 1, 2010 through September 30, 2010
Treasury Inspector General for Tax Administration




                  104
